No.

In the Supreme Court of the United States
ALEX M. AZAR II, SECRETARY OF
HEALTH AND HUMAN SERVICES, ET AL., PETITIONERS
v.
CHARLES GRESHAM, ET AL.
ALEX M. AZAR II, SECRETARY OF
HEALTH AND HUMAN SERVICES, ET AL., PETITIONERS
v.
SAMUEL PHILBRICK, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
EDWIN S. KNEEDLER
Deputy Solicitor General
JONATHAN C. BOND
Assistant to the Solicitor
General
MARK B. STERN
ALISA B. KLEIN
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

The Social Security Act, 42 U.S.C. 301 et seq., authorizes the Secretary of Health and Human Services to approve “any experimental, pilot, or demonstration project” proposed by a State that, “in the judgment of the
Secretary, is likely to assist in promoting the objectives” of the Medicaid program. 42 U.S.C. 1315(a). Exercising that authority, the Secretary approved demonstration projects in Arkansas and New Hampshire designed to test whether certain requirements promote
those objectives by requiring certain working-age, nondisabled adults to engage in work or skill-building activities (such as job-skills training or general education)
as a condition of continued eligibility for Medicaid benefits. The Secretary determined that such requirements may help beneficiaries transition to employersponsored or federally subsidized commercial coverage
and may lead to improved beneficiary health, which in
turn may help States conserve resources that can be redirected to providing other coverage. The court of appeals held the Secretary’s approvals unlawful. It concluded that “the principal objective of Medicaid is
providing health care coverage,” and that the Secretary
had failed adequately to consider whether the projects
would further that objective. App., infra, 9a-10a; see id.
at 12a-21a. The question presented is as follows:
Whether the court of appeals erred in concluding
that the Secretary may not authorize demonstration
projects to test requirements that are designed to promote the provision of health-care coverage by means of
facilitating the transition of Medicaid beneficiaries to
commercial coverage and improving their health.

(I)

PARTIES TO THE PROCEEDING

Petitioners in this Court are Alex M. Azar, in his official capacity as Secretary of Health and Human Services; Seema Verma, in her official capacity as Administrator of the Centers for Medicare & Medicaid Services; the United States Department of Health and Human Services; and the Centers for Medicare & Medicaid
Services—all of which were defendants in the district
court, appellants in the court of appeals in Nos. 19-5094
and 19-5293, and appellees in the court of appeals in
Nos. 19-5096 and 19-5295.
Respondents in this Court are Charles Gresham, Cesar Ardon, Marisol Ardon, Adrian McGonigal, Veronica
Watson, Treda Robinson, Anna Book, Russell Cook, and
Jamie Deyo, who were the plaintiffs in the district court
and appellees in the court of appeals in Nos. 19-5094 and
19-5096; the State of Arkansas, which intervened as a defendant in the district court and was an appellant in the
court of appeals in No. 19-5096; Samuel Philbrick, Ian
Ludders, Karin Vlk, and Joshua Vlk, who were plaintiffs
in the district court and appellees in the court of appeals
in Nos. 19-5293 and 19-5295; and the New Hampshire Department of Health and Human Services, which intervened as a defendant in the district court and was an appellant in the court of appeals in No. 19-5295.

(II)

RELATED PROCEEDINGS

United States District Court (D.D.C.):
Gresham v. Azar, No. 18-cv-1900 (Apr. 4, 2019)
Philbrick v. Azar, No. 19-cv-773 (Aug. 27, 2019)
United States Court of Appeals (D.C. Cir.):
Gresham v. Azar, Nos. 19-5094 and 19-5096
(Feb. 14, 2020)
Philbrick v. Azar, Nos. 19-5293 and 19-5295
(May 20, 2020)

(III)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 2
Jurisdiction .................................................................................... 2
Statutory provisions involved...................................................... 2
Statement ...................................................................................... 3
A. Statutory background............................................... 3
B. The present controversies........................................ 8
Reasons for granting the petition ............................................. 16
I. The court of appeals’ decisions invalidating
the demonstration projects are incorrect................. 18
A. The Secretary has broad statutory authority
to approve projects to test features that in his
judgment are likely to assist in promoting the
objectives of Medicaid............................................. 18
B. The Secretary properly approved demonstration projects to test work and other requirements that might enable States to stretch
scarce Medicaid resources further........................ 21
C. The court of appeals fundamentally misconstrued the Secretary’s authority under
42 U.S.C. 1315.......................................................... 29
II. The court of appeals’ rulings present a question of
substantial practical importance that warrants
this Court’s review ..................................................... 33
Conclusion ................................................................................... 35
Appendix A — Court of appeals opinion (Feb. 14, 2020)...... 1a
Appendix B — Court of appeals order (May 20, 2020) ....... 20a
Appendix C — District court memorandum opinion
(Mar. 27, 2019) ........................................... 22a
Appendix D — District court memorandum opinion
(July 29, 2019) ............................................ 64a
Appendix E — Statutory provisions................................... 107a
Appendix F — HHS letter to Cindy Gillespie
(Mar. 5, 2018) ........................................... 129a

(V)

VI
Table of Contents—Continued:

Page

Appendix G — HHS letter to Henry D. Lipman
(Nov. 30, 2018) ......................................... 144a
TABLE OF AUTHORITIES

Cases:
Aguayo v. Richardson, 473 F.2d 1090 (2d Cir. 1973),
cert. denied, 414 U.S. 1146 (1974) ........................... 7, 21, 31
Alexander v. Choate, 469 U.S. 287 (1985) ....................... 4, 23
Armstrong v. Exceptional Child Ctr., Inc.,
575 U.S. 320 (2015).............................................................. 23
Bowen v. Massachusetts, 487 U.S. 879 (1988) ...................... 3
C.K. v. New Jersey Dep’t of Health & Human Servs.,
92 F.3d 171 (3d Cir. 1996) .................................................. 20
FCC v. Fox Television Stations, Inc.,
556 U.S. 502 (2009).............................................................. 20
FCC v. National Citizens Comm. for Broad.,
436 U.S. 775 (1978).............................................................. 20
King v. Burwell, 135 S. Ct. 2480 (2015)............................... 27
National Fed’n of Indep. Bus. v. Sebelius,
567 U.S. 519 (2012)........................................................ 3, 4, 5
New York State Dep’t of Soc. Servs. v. Dublino,
413 U.S. 405 (1973).............................................................. 22
Pharmaceutical Research & Mfrs. of Am. v. Walsh,
538 U.S. 644 (2003).............................................................. 22
Spry v. Thompson, 487 F.3d 1272 (9th Cir. 2007) .............. 35
Stewart v. Azar:
313 F. Supp. 3d 237 (D.D.C. 2018) ........................... 10, 11
366 F. Supp. 3d 125 (D.D.C. 2019),
appeal dismissed, Nos. 19-5095 and 19-5097
(D.C. Cir. Jan. 8, 2020) .................................. 10, 11, 12

VII
Case—Continued:

Page

Webster v. Doe, 486 U.S. 592 (1988)..................................... 19
Statutes and regulations:
Act of July 25, 1962, Pub. L. No. 87-543, Tit. I, § 122,
76 Stat. 192 (42 U.S.C. 1315 (1964) ..................................... 6
Patient Protection and Affordable Care Act,
Pub. L. No. 111-148, 124 Stat. 119 ...................................... 4
Tit. II, Subtit. A, sec. 2001(a)(1)(C),
§ 1902(a)(10)(A)(i)(VIII), 124 Stat. 271
(42 U.S.C. 1396a(a)(10)(A)(i)(VIII)
(Supp. V 2011)) ............................................................ 4
Tit. IV, Subtit. B, § 4108(a), 124 Stat. 561-562 ............. 29
Personal Responsibility and Work Opportunity
Reconciliation Act of 1996, Pub. L. No. 104-193,
110 Stat. 2105 ........................................................................ 7
Social Security Act, 42 U.S.C. 301 et seq.:
Tit. IV:
42 U.S.C. 601 et seq...................................................... 6
42 U.S.C. 607 ...................................................... 7, 114a
42 U.S.C. 607(c)................................................ 25, 119a
42 U.S.C. 607(d) ................................................. 7, 122a
Tit. XI:
42 U.S.C. 1315 ................................................... passim
42 U.S.C. 1315(a) ................18, 19, 22, 23, 29, 30, 125a
42 U.S.C. 1315(a)(1)............................5, 6, 17, 19, 125a
42 U.S.C. 1315(a)(2)(A) ..................................... 6, 125a
Tit. XIX, 42 U.S.C. 1396 et seq..................................... 3, 5
42 U.S.C. 1396(e)(14)(I)............................................. 26
42 U.S.C. 1396-1......................................... 21, 22, 126a
42 U.S.C. 1396a .....................................5, 16, 17, 18, 19
42 U.S.C. 1396a(a) ....................................................... 3

VIII
Statutes and regulations—Continued:

Page

42 U.S.C. 1396a(a)(10) ................................................. 3
42 U.S.C. 1396a(a)(10)(A)(i)(VIII) ........................... 26
42 U.S.C. 1396a(a)(17) ................................................. 3
42 U.S.C. 1396a(b) ....................................................... 3
42 U.S.C. 1396c (2006)................................................. 4
42 U.S.C. 1396d(y)(1) (Supp. V 2011) ........................ 4
42 U.S.C. 1396u-1(b)(3) ..................................... 7, 127a
42 U.S.C. 1396u-1(b)(3)(A).......................... 7, 25, 127a
Social Security Amendments of 1965,
Pub. L. No. 89-97, sec. 121(c)(3), § 1115,
79 Stat. 352 (42 U.S.C. 1315 (Supp. I 1965)........................ 6
7 U.S.C. 2015(o) ....................................................... 7, 25, 107a
26 U.S.C. 36B ......................................................................... 27
28 U.S.C. 1391(e)(1)............................................................... 34
7 C.F.R. 273.24................................................................... 7, 25
45 C.F.R.:
Section 261.30 .................................................................... 7
Sections 261.30-261.32..................................................... 25
Miscellaneous:
Rebecca M. Blank, Evaluating Welfare Reform in
the United States, 40 J. Econ. Literature 1105
(Dec. 2002) ......................................................................... 6, 7
Centers for Medicare & Medicaid Services, HHS:
Federal Poverty Level (FPL),
https://go.usa.gov/ xwt9D
(last visited July 13, 2020)......................................... 26
Frequently Asked Questions on Exchanges,
Market Reforms, and Medicaid
(Dec. 10, 2012), https://go.usa.gov/xmN4j........... 5, 29

IX
Miscellaneous—Continued:

Page

Congressional Budget Office, An Analysis of Health
Insurance Premiums Under the Patient Protection and Affordable Care Act (Nov. 30, 2009),
https://go.usa.gov/xpfCH ................................................... 27
Letter from Paul Mango, Chief Principal Deputy
Administrator and Chief of Staff, CMS, to Carol H.
Steckel, Commissioner, Kentucky Dep’t for
Medicaid Servs. (Nov. 20, 2018),
https://go.usa.gov/xwHTq.................................................. 11
Letter from Andrew M. Slavitt, Acting Administrator, CMS, to Thomas Betlach, Director, Arizona
Health Care Cost Containment Sys.
(Sept. 30, 2016), https://go.usa.gov/xmNDx................. 8, 29
Medicaid & CHIP Payment & Access Comm’n,
Report to Congress on Medicaid and CHIP
(June 2017), https://go.usa.gov/xfCmY............................... 4
Medicaid Program; Review and Approval Process
for Section 1115 Demonstrations,
77 Fed. Reg. 11,678 (Feb. 27, 2012) .................................. 20
Nirmita Panchal et al., The Implications of COVID-19
for Mental Health and Substance Use, Kaiser
Family Found. (Apr. 21, 2020),
https://www.kff.org/coronavirus-covid-19/issuebrief/the-implications-of-covid-19-for-mentalhealth-and-substance-use/ ........................................... 28
S. Rep. No. 1589, 87th Cong., 2d Sess. (1962)................. 6, 19

In the Supreme Court of the United States
No.
ALEX M. AZAR II, SECRETARY OF
HEALTH AND HUMAN SERVICES, ET AL., PETITIONERS
v.
CHARLES GRESHAM, ET AL.
ALEX M. AZAR II, SECRETARY OF
HEALTH AND HUMAN SERVICES, ET AL., PETITIONERS
v.
SAMUEL PHILBRICK, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Acting Solicitor General, on behalf of the Secretary of Health and Human Services, et al., respectfully
petitions for a writ of certiorari to review the judgments
of the United States Court of Appeals for the District of
Columbia Circuit in these cases. Pursuant to this
Court’s Rule 12.4, the United States is filing a “single
petition for a writ of certiorari” because the “judgments
* * * sought to be reviewed” are from “the same court
and involve identical or closely related questions.”
Sup. Ct. R. 12.4.
(1)

2
OPINIONS BELOW

The opinion of the court of appeals in Gresham v.
Azar, Nos. 19-5094 and 19-5096 (App., infra, 1a-19a) is
reported at 950 F.3d 93. The opinion of the district court
(App., infra, 22a-63a) is reported at 363 F. Supp. 3d 165.
The order of the court of appeals in Philbrick v.
Azar, Nos. 19-5293 and 19-5295 (App., infra, 20a-21a) is
not published in the Federal Reporter but is available
at 2020 WL 2621222. The opinion of the district court
(App., infra, 64a-106a) is reported at 397 F. Supp. 3d 11.
JURISDICTION

The judgment of the court of appeals in Gresham
was entered on February 14, 2020.
The judgment of the court of appeals in Philbrick
was entered on May 20, 2020.
On March 19, 2020, the Court extended the time
within which to file any petition for a writ of certiorari
due on or after that date to 150 days from the date of
the lower-court judgment, order denying discretionary
review, or order denying a timely petition for rehearing.
The effect of that order was to extend the deadline for
filing a petition for a writ of certiorari in Gresham to
July 13, 2020, and to extend the deadline in Philbrick to
October 17, 2020.
In both Gresham and Philbrick, the jurisdiction of
this Court is invoked under 28 U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED

Pertinent statutory provisions are reprinted in the
appendix to this petition. App., infra, 107a-128a.

3
STATEMENT
A. Statutory Background

1. The Medicaid program, enacted in 1965 as Title
XIX of the Social Security Act, 42 U.S.C. 1396 et seq.,
“is a cooperative endeavor in which the Federal Government provides financial assistance to participating
States to aid them in furnishing health care to needy
persons,” Bowen v. Massachusetts, 487 U.S. 879, 883
(1988) (citation and internal quotation marks omitted).
To participate in Medicaid and receive federal funding,
a State must submit a plan for medical assistance that
meets various statutory requirements, which must be approved by the Secretary. 42 U.S.C. 1396a(a) and (b). The
State’s plan, once approved, defines the categories of
persons who are eligible for benefits under the plan and
the types of medical services that are covered. 42 U.S.C.
1396a(a)(10) and (17). “By 1982 every State had chosen
to participate in Medicaid.” National Fed’n of Indep.
Bus. v. Sebelius, 567 U.S. 519, 542 (2012) (NFIB ).
Since Medicaid’s enactment in 1965, federal law has
required that participating States’ plans cover certain
specified benefits for particular populations, while giving States the option to cover certain additional populations, additional benefits, or both. See NFIB, 567 U.S.
at 541-542. Under the traditional Medicaid program, a
State’s plan was required to provide coverage for discrete categories of low-income individuals: persons who
are disabled or blind, the elderly, children, parents of
dependent children, and pregnant women. See ibid.;
42 U.S.C. 1396a(a)(10). Beyond those categories of required coverage, States may elect (with the approval of
the Department of Health and Human Services (HHS))
to cover additional individuals, services, or both. Indeed, the majority of Medicaid spending is for optional

4
populations and optional benef its. 1 And even with respect to mandatory coverage, States have substantial
discretion to set limits on the amount, scope, and duration of coverage, as long as the care and services are
provided in the best interests of the beneficiaries. See,
e.g., Alexander v. Choate, 469 U.S. 287, 303 (1985) (upholding State’s decision to reduce the number of annual
inpatient hospital days for which the State would pay on
behalf of Medicaid recipients).
2. Before 2010, “[t]here [wa]s no mandatory coverage
for most childless adults, and the States typically d[id]
not offer any such coverage.” NFIB, 567 U.S. at 575
(opinion of Roberts, C.J.). In 2010, Congress enacted the
Patient Protection and Affordable Care Act (ACA), Pub.
L. No. 111-148, 124 Stat. 119, which provided (as relevant
here) that, as of 2014, States would be required to expand
their Medicaid programs to cover all individuals under
the age of 65 who had incomes up to 133% of the federal
poverty level. See NFIB, 567 U.S. at 542; ACA Tit. II,
Subtit. A, sec. 2001(a)(1)(C), § 1902(a)(10)(A)(i)(VIII),
124 Stat. 271 (42 U.S.C. 1396a(a)(10)(A)(i)(VIII) (Supp.
V 2011)). The ACA provided for additional federal funding for most (and initially all) of the increased cost of furnishing that expanded overage; a State that did not expand its Medicaid plan to cover that additional population could lose all of its Medicaid funds. See NFIB,
567 U.S. at 542 (citing 42 U.S.C. 1396c (2006); 42 U.S.C.
1396d(y)(1) (Supp. V 2011)).
In NFIB, however, a majority of this Court concluded
that Congress could not condition a State’s traditional
See, e.g., Medicaid & CHIP Payment & Access Comm’n,
Report to Congress on Medicaid and CHIP 2, 4, 16 (June 2017),
https://go.usa.gov/xfCmY (optional coverage accounted for more than
52% of all Medicaid spending in FY2013).
1

5
Medicaid funding on its compliance with that new adulteligibility expansion requirement. See 567 U.S. at
575-585 (opinion of Roberts, C.J.); id. at 671-689 (Scalia,
Kennedy, Thomas, and Alito, JJ., dissenting (joint dissent)). A different majority of the Court concluded that
the ACA provision conditioning a State’s traditional
Medicaid funding on its adopting the expansion was severable from the rest of the ACA. See id. at 585-588 (opinion of Roberts, C.J.); id. at 645-646 (Ginsburg, J., concurring in part, concurring in the judgment in part, and dissenting in part). Following NFIB, as many States were
evaluating whether to participate in the ACA’s expansion
of adult eligibility, HHS acknowledged that coverage of
the expansion population was optional and that States
have “flexibility to start or stop the expansion.” Centers
for Medicare & Medicaid Services (CMS), HHS, Frequently Asked Questions on Exchanges, Market Reforms, and Medicaid 11 (Dec. 10, 2012) (CMS FAQ ),
https://go.usa.gov/xmN4j.
3. Although state Medicaid plans generally must
comply with the requirements set forth in 42 U.S.C.
1396a, the Secretary may waive the statute’s requirements temporarily to allow a State to test variations
from the generally applicable requirements. 42 U.S.C.
1315(a)(1). Section 1315 provides in relevant part that,
“[i]n the case of any experimental, pilot, or demonstration
project which, in the judgment of the Secretary, is likely
to assist in promoting the objectives of ” Title XIX of the
Social Security Act—i.e., the Medicaid statute—“in a
State or States * * * the Secretary may waive compliance
with any of the requirements of * * * section 1396a of
[Title 42] * * * to the extent and for the period he finds
necessary to enable such State or States to carry out such

6
project.” Ibid.; see 42 U.S.C. 1315(a)(2)(A) (the Secretary may treat state expenditures for an approved
demonstration project as expenditures that are eligible
for federal funding even though they would not otherwise qualify).
The waiver authority conferred by Section 1315 predated Medicaid. It was enacted in 1962 to facilitate
demonstration projects under other programs governed
by the Social Security Act—such as grants to States to
provide old-age benefits and the former Aid to Families
with Dependent Children (AFDC) program (since replaced by Temporary Assistance for Needy Families
(TANF), see 42 U.S.C. 601 et seq.). See Act of July 25,
1962, Pub. L. No. 87-543, Tit. I, § 122, 76 Stat. 192
(42 U.S.C. 1315 (1964)). Congress sought to ensure that
federal requirements would not “stand in the way of experimental projects designed to test out new ideas and
ways of dealing with the problems of public welfare recipients.” S. Rep. No. 1589, 87th Cong., 2d Sess. 19
(1962) (Senate Report). When Congress established the
Medicaid program in 1965, it amended Section 1315 to
authorize waivers of the Medicaid statute’s requirements as well. See Social Security Amendments of
1965, Pub. L. No. 89-97, sec. 121(c)(3), § 1115, 79 Stat.
352 (42 U.S.C. 1315 (Supp. I 1965)).
Demonstration projects and accompanying waivers
approved under Section 1315 by HHS and its precursor
in other federal benefit programs have previously been
used to test work requirements that Congress later
adopted. By 1996, the Secretary had approved demonstration projects for dozens of States that imposed work
requirements as a condition of receiving AFDC benefits. See Rebecca M. Blank, Evaluating Welfare Reform in the United States, 40 J. Econ. Literature 1105,

7
1106 (Dec. 2002) (noting that 27 States had such demonstrations). In an opinion by Chief Judge Friendly, the
Second Circuit upheld the approval of such a demonstration project. See Aguayo v. Richardson, 473 F.2d
1090, 1103-1108 (1973), cert. denied, 414 U.S. 1146
(1974).
Informed by the experience of those demonstration
projects, Congress enacted the Personal Responsibility
and Work Opportunity Reconciliation Act of 1996, Pub.
L. No. 104-193, 110 Stat. 2105, which established work
and work-related requirements for certain recipients of
benefits under both the TANF program that replaced
AFDC, 42 U.S.C. 607, and the Supplemental Nutrition
Assistance Program (SNAP), formerly known as the
Food Stamp Program, 7 U.S.C. 2015(o). Congress also
incorporated such requirements to a limited extent in
the Medicaid statute itself, providing that a State may
terminate the Medicaid benefits of certain adults whose
TANF benefits are terminated for failure to comply
with TANF’s work-related requirements. 42 U.S.C.
1396u-1(b)(3)(A). The experience of the demonstration
projects in which States were permitted to experiment
with work-related requirements for AFDC was “a major reason why policymakers supported work-oriented
welfare reform in the 1990s.” Blank 1122. 2

Although the TANF, SNAP, and Medicaid statutes use the shorthand label of “work” requirements, 7 U.S.C. 2015(o); 42 U.S.C. 607,
1396u-1(b)(3), those requirements may be fulf illed either by working or
by engaging in skill-building activities that enhance a person’s employability, such as vocational education, community service, and job-skills
training. See 7 U.S.C. 2015(o ); 42 U.S.C. 607(d), 1396u-1(b)(3)(A);
7 C.F.R. 273.24; 45 C.F.R. 261.30.
2

8
B. The Present Controversies

The ACA’s optional expansion of adult eligibility for
Medicaid brought large numbers of working-age, nondisabled adults into States’ Medicaid programs. As States
began to participate in that expansion, some requested
that HHS approve demonstration projects to test work
and skill-building requirements. HHS initially denied
such requests. 3 HHS later revisited the issue, however,
and in 2018 it began approving certain Medicaid demonstrations that incorporated work and skill-building (also
called “community engagement,” App., infra, 4a-5a (citation omitted)) requirements similar to those Congress had
adopted in the context of TANF and SNAP.
These cases concern demonstration projects the Secretary approved for two States: Arkansas and New
Hampshire. Similar demonstration projects have been
approved for seven other States (Arizona, Indiana,
Michigan, Ohio, South Carolina, Utah, and Wisconsin),
and ten others are pending before HHS (Alabama,
Georgia, Idaho, Mississippi, Montana, North Carolina,
Nebraska, Oklahoma, South Dakota, and Tennessee). 4
1. a. Gresham concerns the Secretary’s approval in
2018 of an amendment requested by Arkansas to an existing demonstration project (Arkansas Works) that HHS
had previously approved. App., infra, 4a-7a, 129a. The
existing project had included a voluntary work-referral
program to assist enrollees in seeking employment. Id. at
134a-135a. Arkansas had found, however, that its existing
3
See, e.g., Letter from Andrew M. Slavitt, Acting Administrator, CMS, to Thomas Betlach, Director, Arizona Health Care
Cost Containment Sys. (Sept. 30, 2016) (Arizona 2016 Letter),
https://go.usa.gov/xmNDx.
4
HHS also approved similar demonstrations projects for Kentucky
and Maine, but those States have terminated their projects.

9
voluntary-referral approach was ineffective; although
23% of enrollees who took advantage of the referral became employed, “only 4.7 percent of beneficiaries followed
through with the referral” and took advantage of the programs the State offered. Id. at 135a.
In June 2017, in light of that experience, Arkansas applied to HHS for approval to amend the existing Arkansas Works program to experiment with work and skillbuilding requirements. App., infra, 3a, 129a-135a. As
relevant here, the proposed amendment requires certain adult Medicaid beneficiaries to spend at least 80
hours per month performing activities that include
working, looking for work, job-skills training, education, and community service. Id. at 13a. The requirement applies only to the ACA’s adult-expansion population, and it contains exemptions for beneficiaries who
are medically frail or pregnant, are caring for a dependent child under age six, are participating in a substancetreatment program, or are full-time students. Gresham
Administrative Record (A.R.) 21, 28. Arkansas explained that the proposed changes were expected to “increase the sustainability of the Arkansas Works program,” to “test innovative approaches to promoting personal responsibility and work,” to “encourag[e] movement up the economic ladder, and [to] facilitat[e] transitions from Arkansas Works to employer-sponsored insurance” or individual coverage offered on an ACA Exchange. Id. at 2057; see id. at 2058-2120. 5
In addition to the work and skill-building requirements, Arkansas’s demonstration project includes a provision that limits retroactive Medicaid coverage to a period of 30 days. App., infra, 136a.
That limitation is “intended to increase continuity of care by reducing gaps in coverage when benef iciaries churn on and off of Medicaid or sign up for Medicaid only when sick.” Ibid.; see id. at 142a.
5

10
In March 2018, the Secretary approved Arkansas’s
proposed amendments (with modifications not at issue
here) for a three-year period beginning June 1, 2018.
App., infra, 4a-6a, 129a-143a; see id. at 6a (work requirements to take effect in January 2019 for those aged
20-29). HHS’s approval letter observed that the work
and skill-building requirements would (among other
things) “facilitate transitions between and among” Arkansas’s Medicaid program, commercial (including
employer-sponsored) insurance, and coverage through
the Exchange established under the ACA. Id. at 130a;
see Gresham A.R. 14-15.
b. In August 2018, the plaintiffs in Gresham (who are respondents here)—nine Arkansas Medicaid beneficiaries—
brought suit challenging the Secretary’s approval of the
2018 amendments to Arkansas’s demonstration project,
including its work and skill-building requirements. App.,
infra, 6a, 22a-24a, 33a; Gresham Am. Compl. ¶¶ 13-21.
Arkansas intervened to defend its project. Gresham
D. Ct. Docket entry (Sept. 6, 2018). In March 2019, after
the 2018 amendments had been in effect for nearly ten
months, the district court granted summary judgment
for the plaintiffs, vacated the Secretary’s approval of
the amendments, and remanded to the agency for further proceedings. App., infra, 22a-59a.
The district court in Gresham relied on two decisions
it had issued in related litigation challenging the Secretary’s approval of a demonstration project in Kentucky.
See App., infra, 24a-25a, 37a-52a (discussing Stewart v.
Azar, 313 F. Supp. 3d 237 (D.D.C. 2018) (Stewart I ), and
Stewart v. Azar, 366 F. Supp. 3d 125 (D.D.C. 2019) (Stewart II ), appeal dismissed, Nos. 19-5095 and 19-5097 (D.C.
Cir. Jan. 8, 2020)). In Stewart I, the court vacated HHS’s

11
approval of Kentucky’s demonstration project that included similar work and skill-building requirements.
313 F. Supp. 3d at 250-274. The court concluded that the
agency had not adequately considered “the effect of [the]
demonstration project on the State’s ability to help provide medical coverage,” which the court identified as the
principal objective of the Medicaid statute. Id. at 272;
see id. at 259-274.
On remand, HHS reopened the comment period regarding Kentucky’s proposed demonstration project, and
in November 2018, after reviewing additional comments,
it reapproved the project. See Letter from Paul Mango,
Chief Principal Deputy Administrator and Chief of
Staff, CMS, to Carol H. Steckel, Commissioner, Kentucky Dep’t for Medicaid Servs. (Nov. 20, 2018),
https://go.usa.gov/xwHTq. In March 2019, the district
court in Stewart II again granted summary judgment to
the plaintiffs and vacated HHS’s reapproval. See Stewart II, 366 F. Supp. 3d at 135-156. The court acknowledged the Secretary’s determination that work and
skill-building requirements are likely to advance the
statutory objective of providing coverage. See id. at
134, 148. As the agency had explained, by facilitating
the transition of adults from Medicaid to commercial
coverage, such requirements enhance the f iscal sustainability of a State’s Medicaid program and free up scarce
resources that may be used to provide coverage to other
needy persons—including optional coverage for the
ACA’s adult-expansion population itself. See ibid. The
court also agreed that HHS may “take into account f iscal sustainability in determining under [Section 1315]
whether a demonstration project promotes the objectives of the Act.” Id. at 149. But the court concluded
that the Secretary may not approve a demonstration

12
project based on that rationale without making a finding
supported by substantial evidence that the project will
in fact result in savings for the State. Ibid.
In its decision in Gresham, issued the same day as
Stewart II, the district court similarly concluded that
HHS had failed adequately to address “whether and
how [Arkansas’s] project would implicate the ‘core’ objective of Medicaid: the provision of medical coverage
to the needy.” App., infra, 51a. The Gresham court
acknowledged the government’s contention that the
work and skill-building requirements, like those in Kentucky, will “help adults ‘transition from Medicaid to
f inancial independence,’ thereby enhancing ‘the f iscal
sustainability of Arkansas’s Medicaid program’—an objective of the Act.” Id. at 49a (citation omitted). But the
court rejected that contention. Id. at 49a-51a. The
court first reasoned that HHS’s letter approving Arkansas’s demonstration project had not specifically articulated the f iscal-sustainability rationale on which the
agency had elaborated in its letter reapproving Kentucky’s demonstration project. Id. at 59a. But the court
nevertheless went on to address that contention on its
merits and rejected it for the reasons stated in its simultaneous decision in Stewart II. Id. at 50a.
2. a. Philbrick concerns the Secretary’s approval in
2018 of an amendment requested by New Hampshire to
an existing demonstration project (now called Granite
Advantage) that HHS had previously approved and
through which New Hampshire had provided coverage
for the ACA’s optional expansion population. App., infra, 70a. New Hampshire proposed to add a requirement
that certain adult Medicaid beneficiaries spend 100
hours per month in work or skill-building activities like
those required under the Arkansas project. See id. at

13
150a. As in Arkansas’s project, that requirement applies
only to the ACA’s adult-expansion population, and it is
subject to exemptions similar to those in the Arkansas
project. See ibid. In November 2018, the Secretary approved the New Hampshire project for a five-year period
beginning January 1, 2019. See id. at 144a-171a. 6
b. In March 2019, the plaintiffs in Philbrick (who are
respondents here)—four New Hampshire Medicaid
beneficiaries—brought suit challenging the Secretary’s
approval of New Hampshire’s demonstration project.
App., infra, 75a; Philbrick Compl. ¶¶ 16-19. The New
Hampshire Department of Health and Human Services
intervened to defend its project. Philbrick D. Ct. Docket
entry (Apr. 25, 2019). Following its decisions in Stewart
II and Gresham, the district court granted summary
judgment for the Philbrick plaintiffs and vacated the
Secretary’s approval of New Hampshire’s demonstration project. See App., infra, 64a-106a.
As in its prior decisions, the district court in Philbrick
concluded that the Secretary had “failed to adequately
consider” the “core objective of the Medicaid Act” of
“furnish[ing] health-care coverage to the needy.” App.,
infra, 80a; see id. at 79a-98a. And as in Gresham, the
court again relied on its decision in Stewart II in rejecting the government’s contention that work and skillbuilding requirements advance that objective by enhancing the f iscal sustainability of a State’s Medicaid program
and by facilitating the transition of Medicaid recipients to
other coverage. See id. at 90a-97a. The Philbrick court
“offer[ed] an abbreviated restatement of ” that reasoning.
Id. at 80a.

New Hampshire’s project also includes a limitation on retroactive coverage. App., infra, 144a.
6

14
3. The federal government and the States appealed. 7
a. The court of appeals in Gresham affirmed. App.,
infra, 1a-19a. It agreed with the district court that “the
principal objective of Medicaid is providing health care
coverage.” Id. at 9a-10a; see id. at 9a-12a. The court of
appeals concluded that, in approving Arkansas’s demonstration project under Section 1315, the Secretary had focused instead on “three alternative objectives”: “ ‘improving health outcomes,’ ” “ ‘address[ing] behavioral and social factors that influence health outcomes,’ ” and “ ‘incentiviz[ing] beneficiaries to engage in their own health care
and achieve better health outcomes.’ ” Id. at 12a (citation
omitted). The court concluded that those goals are not objectives of the Medicaid program in and of themselves
within the meaning of Section 1315. Id. at 13a.
The court of appeals then addressed the government’s contention that the work and skill-building requirements would promote the objective of providing
health coverage by facilitating transitions of Medicaid
beneficiaries to commercial coverage and, in turn, enhancing the f iscal sustainability of Arkansas’s Medicaid
program and enabling the State to spend scarce resources on other needy individuals. App., infra,
13a-16a. The court read HHS’s approval letter not to
have relied on that rationale in approving Arkansas’s
demonstration project, stating that the letter did not
discuss commercial coverage and describing the rationale as a “post hoc rationalization[ ].” Id. at 14a; see
id. at 13a-14a. But instead of remanding for the agency
The federal government and Kentucky also appealed the district
court’s judgment in Stewart II, and that appeal was briefed and argued together with Gresham. But the Stewart II appeal became
moot when Kentucky terminated the demonstration project at issue
in that case. App., infra, 7a.
7

15
to provide additional explanation concerning that rationale, the court proceeded to address and reject that
rationale on its merits. Id. at 14a-16a.
The court of appeals held that the Secretary could
not properly “have rested his decision on the objective
of transitioning beneficiaries away from government
benefits through either financial independence or commercial coverage.” App., infra, 14a. The court did not
question the central premises of the government’s argument on this point: that States’ Medicaid dollars are
finite; that requirements that help beneficiaries transition to commercial coverage free up scarce resources,
which can then be used to provide health-care coverage
to other needy persons; and that the demonstration’s
requirements may facilitate such transitions. See id. at
14a-16a. Instead, the court held that HHS could not
rely on “financial independence or transition to commercial coverage” because those goals are not themselves statutory objectives of the Medicaid program.
Id. at 16a; see id. at 14a-16a. The court stated that
“[t]he text of the statute includes one primary purpose,
which is providing health care coverage.” Id. at 16a. And
it noted that, unlike in the TANF and SNAP programs—
where Congress has enacted work and work-related
requirements—in the Medicaid statute “Congress has
not conditioned the receipt of Medicaid benefits on fulfilling work requirements or taking steps to end receipt
of governmental benefits.” Id. at 14a.
Having thus “defined” “the objective of Medicaid,”
the court of appeals held that the Secretary’s approval
of Arkansas’s demonstration project was arbitrary and
capricious for failing to consider the potential effect of
such requirements on coverage. App., infra, 16a; see
id. at 16a-19a. The court cited public comments during

16
the approval process that had described “the potential
for substantial coverage loss” and data postdating the
Secretary’s approval of Arkansas’s project indicating
that approximately one-fourth of beneficiaries subject
to the work requirement lost coverage following its implementation. Id. at 16a-17a. The court did not separately analyze the demonstration’s limit on retroactive
coverage, see p. 9 n.5, supra, but it affirmed the judgment vacating that aspect as well.
b. The appeals in Philbrick were held in abeyance
pending the court of appeals’ decision in Gresham. Following the court’s decision in Gresham, the government
moved unopposed for summary affirmance in Philbrick,
without prejudice to seeking further appellate review.
App., infra, 20a-21a. The government observed that
Gresham had “rejected the agency’s view” that “ ‘healthy
outcomes, financial independence [and] transition to
commercial coverage’ ” are “valid objectives for a demonstration project because they are potential means of
achieving the concededly valid purpose of providing
more health care coverage to the needy in a world of
limited resources.” Philbrick Gov’t C.A. Mot. for Summ.
Affirmance 4 (Mar. 12, 2020) (citation omitted). A panel
of the court of appeals, which included the author of the
Gresham decision, granted the motion, citing the government’s acknowledgment that “the disposition of this
case is controlled by” Gresham. App., infra, 20a-21a.
REASONS FOR GRANTING THE PETITION

In establishing the Medicaid program, Congress
prescribed a wide range of requirements that a State’s
Medicaid program must satisfy. 42 U.S.C. 1396a. But
Congress also authorized the Secretary to approve experiments by States that in the Secretary’s judgment

17
are “likely to assist in promoting the objectives” of Medicaid and to “waive compliance with any of the requirements” in Section 1396a that he “finds necessary to enable” such an experiment. 42 U.S.C. 1315(a)(1). Notwithstanding that broad statutory authority, the court of
appeals has concluded that the Secretary may not exercise his power to permit a State to test requirements designed to free up scarce Medicaid resources, which allows the State to provide coverage to other needy persons.
The court of appeals’ decisions are incorrect and warrant this Court’s review. The court’s holding that HHS
may not approve requirements that may serve as means
to the ultimate end of providing coverage reflects a fundamental misreading of the statutory text and context.
And its conclusion that work and skill-building requirements specifically are impermissible objects of experimentation in this context cannot be squared with history. Following past experiments with such requirements in another federal benefit program—approved
under the same statutory authority, Section 1315—
Congress codified such requirements in other statutes.
The court of appeals’ holding that Section 1315 does
not permit such demonstration projects also casts a
shadow on multiple other States’ approved or pending
demonstration projects. And its reasoning threatens to
impede innovations that may make States’ Medicaid
programs more effective and sustainable. Nor is there
any reason to await conflicting decisions from other
courts: under the applicable venue statute, future plaintiffs will have the ability and incentive to bring suit in
the same district. The petition for a writ of certiorari
should be granted.

18
I. THE COURT OF APPEALS’ DECISIONS INVALIDATING
THE DEMONSTRATION PROJECTS ARE INCORRECT

The court of appeals concluded that the Secretary
may not approve a Medicaid demonstration project under 42 U.S.C. 1315 to test whether work-related and
other requirements can serve as a means of achieving
the objective of providing health coverage. App., infra,
12a-16a. That conclusion is incorrect and rests on a basic
misunderstanding of Section 1315’s text, context, and purpose.
A. The Secretary Has Broad Statutory Authority To Approve
Projects To Test Features That In His Judgment Are Likely
To Assist In Promoting The Objectives Of Medicaid

As a condition of participating in the Medicaid program and receiving federal financial assistance, the Medicaid statute requires a State to submit a plan for its program that comports with a wide array of detailed statutory requirements. See 42 U.S.C. 1396a. As it had done
in the context of other federal benefit programs, however,
Congress recognized that allowing experimentation with
variations from those requirements could yield lessons
and experience that might improve the Medicaid program
itself. Section 1315 authorizes the Secretary to approve
experiments, called “demonstration project[s],” designed
to test variations that might better serve the Medicaid
statute’s overarching aims. 42 U.S.C. 1315(a). It provides
in relevant part:
In the case of any experimental, pilot, or demonstration project which, in the judgment of the Secretary, is likely to assist in promoting the objectives of
* * * [Title XIX of the Social Security Act, i.e., the
Medicaid statute] * * * in a State or States—

19
(1) the Secretary may waive compliance with
any of the requirements of section * * * 1396a of
this title * * * to the extent and for the period he
finds necessary to enable such State or States to
carry out such project.
42 U.S.C. 1315(a)(1).
That conferral of authority is conspicuous for its
breadth and for the discretion it entrusts to the agency.
Section 1315(a) permits “any * * * demonstration project” that the Secretary deems “likely to assist in promoting the objectives of ” Medicaid. 42 U.S.C. 1315(a). And it
authorizes waiving compliance with “any * * * requirements” imposed by Section 1396a “to the extent and for
the period [the Secretary] finds necessary.” 42 U.S.C.
1315(a)(1). The text makes clear Congress’s intent to give
the Secretary broad discretion to authorize experiments
in this context. The provision’s history confirms that intention. See Senate Report 19 (Section 1315(a) was enacted to ensure that federal requirements would not
“stand in the way of experimental projects designed to
test out new ideas and ways of dealing with the problems of public welfare recipients”).
The wide latitude that Section 1315’s text accords the
Secretary leaves a correspondingly limited role for courts.
The provision’s text permitting the Secretary to approve
any project that, “in the judgment of the Secretary,” is
“likely to assist in promoting the objectives” of Medicaid,
42 U.S.C. 1315(a), and to determine the scope and duration of waivers of the statutory requirements as he “finds
necessary,” 42 U.S.C. 1315(a)(1), “exudes deference” to
the Secretary’s determination. Webster v. Doe, 486 U.S.
592, 600 (1988). And Section 1315’s language referring
to a project the Secretary deems “likely to assist in promoting” Medicaid’s objectives (42 U.S.C. 1315(a)) calls

20
for an “agency’s predictive judgment,” which this Court
has long recognized “merits deference.” FCC v. Fox
Television Stations, Inc., 556 U.S. 502, 521 (2009); see
FCC v. National Citizens Comm. for Broad., 436 U.S.
775, 813-814 (1978). The statutory text and context thus
establish that any judicial review of the Secretary’s determination must be highly deferential.
The appropriate degree of deference is greater still
because demonstration projects are time-limited experiments that can “influence policy making at the State and
Federal level, by testing new approaches that can be
models for programmatic changes nationwide or in other
States.” Medicaid Program; Review and Approval Process for Section 1115 Demonstrations, 77 Fed. Reg.
11,678, 11,680 (Feb. 27, 2012). The purpose of such experiments is not to impose permanent policies that the
agency has concluded will achieve a particular outcome,
but instead to test a hypothesis. And an experiment can
further the statute’s goals whether or not it yields the
results the agency anticipates—either by validating a
hypothesis that might lead to new innovations, or by refuting a hypothesis, helping Congress and HHS avoid
mistaken policies. Demonstrations “can document policies that succeed or fail,” and “the degree to which they
do so informs decisions about the demonstration at issue, as well as the policy efforts of other States and at
the Federal level.” Id. at 11,679; accord C.K. v. New
Jersey Dep’t of Health & Human Servs., 92 F.3d 171,
187 (3d Cir. 1996) (Section 1315 “experiments are supposed to demonstrate the failings or success of such
programs”). The costs and risks of such experimentation are much smaller at the state level than on a nation-

21
wide basis, and the experiments take place under a statute that affords States flexibility in designing their own
Medicaid programs to begin with.
Any judicial review of decisions approving demonstration projects is accordingly circumscribed. As Chief
Judge Friendly observed in Aguayo v. Richardson,
473 F.2d 1090 (2d Cir. 1973), cert. denied, 414 U.S. 1146
(1974), “it is legitimate for an administrator to set a lower
threshold for persuasion when he is asked to approve a
program that is avowedly experimental and has a fixed
termination date than a proposal * * * which is irreversible.” Id. at 1103 (footnote omitted); see id. at
1103-1108 (upholding approval under Section 1315 of a
demonstration project that established work requirements for AFDC recipients). Judicial review consists
only of asking “whether the Secretary had a rational basis for determining” that the demonstrations at issue
were “ ‘likely to assist in promoting’ ” the objective of
providing health care coverage. Id. at 1105.
B. The Secretary Properly Approved Demonstration Projects
To Test Work And Other Requirements That Might Enable
States To Stretch Scarce Medicaid Resources Further

1. The Secretary acted well within his broad authority under Section 1315 in approving Arkansas’s demonstration project at issue in Gresham and New Hampshire’s project at issue in Philbrick. The court of appeals stated that “the principal objective of Medicaid is
providing health care coverage.” App., infra, 9a-10a
(citing 42 U.S.C. 1396-1). Assuming arguendo that providing such coverage is the exclusive objective of the
Medicaid program, the Secretary has appropriately determined that testing measures designed to help States
stretch their Medicaid dollars—in turn enabling States
to expand or maintain coverage for needy individuals—

22
is “likely to assist in promoting” (42 U.S.C. 1315(a)) that
objective.
A State’s provision of health-care coverage through
its Medicaid program depends on finite state resources.
That is why Congress authorized federal financial assistance for States. That understanding is also reflected
in the very provision on which the court of appeals relied. Section 1396-1 authorizes federal funding “[f ]or
the purpose of enabling each State, as far as practicable
under the conditions in such State, to furnish” both
“medical assistance on behalf of families with dependent children and of aged, blind, or disabled individuals,
whose income and resources are insufficient to meet the
costs of necessary medical services,” and certain “rehabilitation and other services” for “such families and individuals.” 42 U.S.C. 1396-1 (emphasis added).
As this Court has recognized, requirements that enable States to stretch limited resources promote the objectives of public-welfare programs. In upholding a State’s
work requirements in the context of the AFDC program, this Court emphasized that States may “attempt
to promote self-reliance and civic responsibility” in order “to assure that limited state welfare funds be spent
on behalf of those genuinely incapacitated and most in
need, and to cope with the f iscal hardships enveloping
many state and local governments.” New York State
Dep’t of Soc. Servs. v. Dublino, 413 U.S. 405, 413 (1973).
A plurality of the Court echoed that understanding in
the context of Medicaid in Pharmaceutical Research &
Manufacturers of America v. Walsh, 538 U.S. 644,
666-667 (2003), which upheld drug-rebate and priorauthorization requirements that were designed to keep
borderline populations out of Medicaid and thus conserve scarce state resources.

23
Opportunities for stretching limited state resources
are particularly significant in the context of Medicaid,
given the discretion the statute affords to States to tailor
their Medicaid programs. Although coverage for certain
categories of individuals and for certain benefits is mandatory, States are otherwise generally free to provide additional coverage. Indeed, the majority of Medicaid
spending goes toward optional benefits and populations that States have elected but are not required to
cover—including, of particular relevance here, the adultexpansion population that became optional as a result of
this Court’s decision in NFIB. See pp. 3-4, supra. And
even with respect to coverage that is mandatory, the Medicaid statute gives States significant latitude to determine
the amount, scope, and duration of coverage, see Alexander v. Choate, 469 U.S. 287, 303 (1985), and the rates they
pay providers, see Armstrong v. Exceptional Child Ctr.,
Inc., 575 U.S. 320, 328 (2015); see also App., infra, 147a
n.1 (noting States’ “considerable flexibility in the design
of their Medicaid programs,” including to provide optional
coverage).
Every Medicaid dollar a State saves is a dollar that
it can spend providing coverage for additional individuals or providing additional benefits. Savings also may
enable a State that faces financial strain and is considering paring back its optional coverage to continue
providing some or all of that coverage. Demonstration
projects that test whether particular adjustments to the
Medicaid statute’s default requirements can yield such
savings in a manner compatible with the broader statutory framework thus can “assist in promoting” the “objective[ ]” (42 U.S.C. 1315(a)) of providing coverage. As
HHS explained, demonstration projects “provide an op-

24
portunity for [S]tates to test policies that ensure the f iscal sustainability of the Medicaid program, better ‘enabling each [S]tate, as far as practicable under the conditions in such [S]tate’ to furnish medical assistance, while
making it more practicable for [S]tates to furnish medical assistance to a broader range of persons in need.”
App., infra, 146a; see id. at 165a.
2. The Secretary acted well within his discretion
under Section 1315 in determining that the Arkansas
and New Hampshire demonstration projects are likely
to assist in promoting Medicaid’s objectives. The challenged work and skill-building requirements test whether
such requirements can help States stretch their limited
Medicaid resources further. App., infra, 145a-148a,
153a-156a; see id. at 129a-136a.
a. Both demonstration projects require certain
working-age, nondisabled adults to engage in a specified number of hours of work or skill-building activities
(such as job-skills training or education). See App., infra, 130a-132a, 148a-150a. Arkansas’s project, for example, requires individuals within the ACA’s expansion
population (subject to various exemptions) to spend at
least 80 hours per month working or performing other
activities such as seeking work, job-skills training or
other education, or community service. See id. at 130a;
see also id. at 149a-150a (New Hampshire project requiring 100 hours per month, subject to similar limitations and exemptions).
Those requirements are modeled on work requirements that have been statutory conditions of eligibility
since 1996 for cash assistance under the TANF program
and food assistance under SNAP—conditions that Congress enacted following demonstration projects experi-

25
menting with such requirements under the AFDC program that TANF replaced. See pp. 6-7, supra. Under
TANF, a State may require 30 hours per week of qualifying activities for a one-parent family (on average,
120 hours per month) and 35 hours per week (140 hours
per month) for a two-parent family. 42 U.S.C. 607(c);
45 C.F.R. 261.30-261.32; see 42 U.S.C. 1396u-1(b)(3)(A).
The Medicaid statute itself incorporates TANF’s requirement to an extent, permitting a State to terminate the
Medicaid benefits of certain adults whose TANF benefits
are terminated for failure to comply with TANF’s workrelated requirements. 42 U.S.C. 1396u-1(b)(3)(A). And
under SNAP, able-bodied adults without dependents
must engage in at least 20 hours per week (on average, 80
hours per month) of work or certain other activities to receive SNAP benefits for more than three months in a
36-month period. 7 U.S.C. 2015(o); 7 C.F.R. 273.24.
b. As HHS explained, demonstration projects under
Medicaid enable the States to test whether and to what
extent such work and skill-building requirements can
help enable a State “to stretch its limited Medicaid resources.” App., infra, 155a. Enabling a State to conserve its resources, HHS observed, “w[ould] assist in
ensuring the long-term f iscal sustainability of the program and preserving the health care safety net for those
* * * residents who need it most.” Id. at 155a-156a. And
it could “allow[ ] [a] [S]tate to provide services to Medicaid beneficiaries that it could not otherwise provide.”
Id. at 156a. For example, New Hampshire had informed HHS that, without the ability to undertake the
demonstration project, it would be required to terminate coverage of the expansion population. Id. at 155a.
HHS found that “[i]t furthers the Medicaid program’s

26
objectives to allow [S]tates to experiment with innovative means of deploying their limited state resources in
ways that may allow them to provide services beyond
the legal minimum.” Id. at 156a; see id. at 165a.
HHS has identified two potential ways by which
work and skill-building requirements could help enable
States to stretch limited Medicaid resources, which the
demonstration projects would test.
i. First, including those requirements would “help
the [S]tate[s] and CMS evaluate whether” they enable
non-exempt adults in the expansion population to “transition from Medicaid to financial independence and
commercial insurance.” App., infra, 151a. The requirements are designed to give covered individuals a strong
incentive to acquire the skills and experience needed for
sustained employment. See id. at 132a-136a, 145a-147a,
151a-153a, 159a. Sustained employment may in turn
cause a Medicaid beneficiary’s income to increase above
the threshold for Medicaid eligibility—approximately
$17,600 for a single-person household—freeing up the
funds the State would otherwise spend providing coverage to that individual to provide coverage for others. See
id. at 153a, 155a-156a; see also 42 U.S.C. 1396(e)(14)(I),
1396a(a)(10)(A)(i)(VIII); CMS, HHS, Federal Poverty
Level (FPL), https://go.usa.gov/xwt9D.
As HHS further explained, an individual who loses eligibility for Medicaid because he or she obtains sustained
employment and increased income may obtain commercial health-care coverage. App., infra, 153a. The individual “may receive an offer of employer-sponsored insurance.” Ibid. Alternatively, the individual may obtain
federally subsidized coverage through an Exchange.
Ibid. To make such coverage more affordable, Con-

27
gress has authorized billions of dollars in annual premium tax credits to help individuals pay for insurance
sold on the Exchanges. See 26 U.S.C. 36B. The vast
majority (approximately 87%) of people who buy coverage on an Exchange do so with tax credits. See King v.
Burwell, 135 S. Ct. 2480, 2493 (2015). For example, for
individuals whose household income is below 200% of
the federal poverty level, the tax credit covers approximately 80% of the premium. 8
HHS determined that, if the work and skill-building
requirements operate as intended—by “help[ing] individuals achieve financial independence and transition
into commercial coverage”—then “the demonstration[s]
may reduce dependency on public assistance while still
promoting Medicaid’s purpose of helping [S]tates furnish medical assistance by allowing [the States] to
stretch [their] limited Medicaid resources.” App., infra,
155a. “[A]llow[ing] [S]tates to experiment” with the requirements to examine whether in fact they function in
that fashion thus “furthers the Medicaid program’s objectives.” Ibid.
ii. Second, HHS determined that work and skillbuilding requirements may lead to increased health and
wellness of beneficiaries, which in turn reduces the cost of
providing them health-care coverage. See App., infra,
145a-156a, 151a-154a. As HHS explained, “measures designed to improve health and wellness may reduce the volume of services furnished to beneficiaries, as healthier,
more engaged beneficiaries tend to receive fewer medical
services and are generally less costly to cover.” Id. at
146a. “Promoting improved health and wellness” thus
See Congressional Budget Office, An Analysis of Health Insurance Premiums Under the Patient Protection and Affordable Care
Act 19-20 (Nov. 30, 2009), https://go.usa.gov/xpfCH.
8

28
“ultimately helps to keep health care costs at more sustainable levels,” further enabling a State to “stretch its
limited Medicaid resources.” Id. at 155a. And an overarching purpose of “furnish[ing] medical assistance and
other services to vulnerable populations” is “advancing
the health and wellness of the individual receiving them.”
Id. at 145a.
As HHS has additionally explained, “research has
shown” that the types of activities required by the work
and skill-building requirements are “correlated with improved health and wellness.” App., infra, 133a-134a.
And “CMS has long supported policies that recognize
meaningful work as essential to,” among other things,
the “well-being” and “improved health of people with disabilities.” Id. at 134a. HHS accordingly determined that
States “should be able to design and test incentives,” including work and skill-building requirements, for Medicaid beneficiaries to undertake those activities, potentially resulting in improved health for beneficiaries and
lower per capita costs for States. Ibid. 9
Permitting States to experiment with that approach
comported with Congress’s own judgments and HHS’s
past practice. In the ACA, Congress authorized grants
for States that give Medicaid beneficiaries incentives
for various “healthy behaviors,” including “[c]easing use
Recent research during the COVID-19 pandemic indicates that
factors such as a lack of economic participation, social isolation, and
other economic stressors have negative impacts on mental and
physical health. See, e.g., Nirmita Panchal et al., The Implications
of COVID-19 for Mental Health and Substance Use, Kaiser Family
Found. (Apr. 21, 2020), https://www.kff.org/coronavirus-covid19/issue-brief/the-implications-of-covid-19-for-mental-health-andsubstance-use/. Structured properly, community-engagement incentives and requirements that increase such participation may
have a positive effect on beneficiary health and economic mobility.
9

29
of tobacco products,” “[c]ontrolling or reducing their
weight,” “[l]owering their cholesterol,” or “[a]voiding
the onset of diabetes or, in the case of a diabetic, improving the management of that condition.” ACA Tit.
IV, Subtit. B, § 4108(a), 124 Stat. 561-562. In 2012, HHS
had encouraged States to develop demonstration projects “aimed at promoting healthy behaviors” and “accountability tied to improvement in health outcomes.”
CMS FAQ 15. And in 2016, HHS approved an Arizona
project requiring Medicaid recipients to pay premiums,
which recipients could avoid by adopting healthy behaviors. 10
The Secretary thus had an ample basis to determine
that permitting the States to test the work and skillbuilding requirements is “likely to assist in promoting
the objectives” of Medicaid. 42 U.S.C. 1315(a). Under
the statute’s plain terms, nothing more was required.
C. The Court Of Appeals Fundamentally Misconstrued
The Secretary’s Authority Under 42 U.S.C. 1315

The court of appeals nevertheless concluded that the
Secretary exceeded his authority under 42 U.S.C. 1315
by allowing the States to test whether work and skillbuilding requirements (among others) advance the Medicaid statute’s objectives. App., infra, 9a-16a, 20a-21a.
That conclusion rests on a basic misunderstanding of
Section 1315.
1. The court of appeals in Gresham began from the
premise that “the primary objective of Medicaid is to provide access to medical care.” App., infra, 12a. Even assuming arguendo that providing access to medical care is
the program’s exclusive objective, the court mistakenly
Arizona 2016 Letter 1-3. As noted above, in its 2016 letter, HHS
declined to approve a work requirement. Ibid.; see p. 8 n.3, supra.
10

30
concluded that in exercising his authority under Section
1315 the Secretary must focus exclusively on “providing
health care coverage” simpliciter and not on measures
that may be means to that end. Id. at 9a-10a; see id. at
12a-16a. The court held that the Secretary could not lawfully “rest[ ] his decision” to allow the testing of work and
skill-building requirements “on the objective of transitioning beneficiaries away from government benefits
through either financial independence or commercial
coverage.” Id. at 14a. Doing so, the court reasoned, would
contravene Medicaid’s “one primary purpose, which is
providing health care coverage without any restriction
geared to healthy outcomes, financial independence, or
transition to commercial coverage.” Id. at 16a.
That remarkably cramped reading of the Secretary’s
authority cannot be reconciled with Section 1315. Nothing in that provision precludes the Secretary from approving demonstration projects to test measures that may
help indirectly advance the Medicaid objective of providing coverage. To the contrary, the text authorizes “any
* * * demonstration project which, in the judgment of
the Secretary, is likely to assist in promoting the objectives of ” Medicaid. 42 U.S.C. 1315(a) (emphasis added).
That language naturally encompasses measures that are
means to achieve the Medicaid objective of furnishing
medical assistance.
Context reinforces that reading. Section 1315 authorizes experiments to test whether particular adjustments
to the default Medicaid requirements advance the statute’s aims. In that setting, it makes perfect sense that
Congress allowed projects to evaluate measures one step
removed from the provision of coverage itself. It is implausible, moreover, that Congress failed to appreciate

31
the potential interplay of various aspects of a State’s Medicaid program on its ability to provide coverage, or that
Congress intended the Secretary to ignore those interactive effects. Cf. Aguayo, 473 F.2d at 1103-1104 (upholding
AFDC demonstration project incorporating work requirement and explaining that “Congress must have realized” that paying benefits to families that were able to
earn income would “diminish the funds available for cases
where they were not”).
The court of appeals’ reliance on the fact that the
Medicaid statute, unlike the TANF and SNAP statutes,
generally does not itself expressly condition eligibility
on working as a means of “ending the dependence of
needy parents on government benefits,” App., infra,
14a (brackets and citation omitted), was misplaced for
similar reasons. Those are permanent provisions applicable nationwide. This case involves temporary, Statespecific experiments. Moreover, the Secretary here
noted the potential of work requirements to reduce dependency on public assistance not merely as an end in
itself but also as a means of helping stretch limited Medicaid funds further. See pp. 26-27, supra. The court’s
reliance on those other programs’ work requirements is
even more puzzling, given that they are the outgrowth
of earlier AFDC demonstration projects approved under Section 1315 on which the projects at issue here are
modeled.
2. The court of appeals in Gresham went on to hold
that the Secretary’s approval of Arkansas’s demonstration project was arbitrary and capricious, but that holding rested on the court’s misunderstanding of Section
1315. App., infra, 16a-19a. The court concluded that
“the Secretary disregarded th[e] statutory purpose” of
providing coverage. Id. at 19a. But that conclusion fails

32
to account for the Secretary’s judgment that work and
skill-building requirements (among others) can be
means of helping States to provide coverage.
The court of appeals’ summary affirmance of the district court’s order vacating the Secretary’s approval in
Philbrick—by a panel that included the author of
Gresham—confirms that its rejection of the Secretary’s
approvals rests on its misreading of the statute. HHS’s
letter approving New Hampshire’s demonstration project in Philbrick made unmistakably clear the Secretary’s judgment that the project, including its work and
skill-building requirements, would advance the Medicaid objective of furnishing coverage by means of
“[h]elping the [S]tate stretch its limited Medicaid resources.” App., infra, 155a. The district court in Philbrick acknowledged the Secretary’s determination but rejected it because in the court’s view the record did not contain a definitive finding by HHS supported by substantial
evidence showing that the project would in fact achieve
that result. See id. at 88a-95a. That analysis overlooked
the critical feature of demonstration projects as experiments, designed to test whether such hypotheses are true.
As the government acknowledged on appeal in Philbrick, however, the court of appeals’ intervening decision in Gresham “control[ led]” because that decision
had categorically “rejected the agency’s view” that
“ ‘healthy outcomes, financial independence or transition to commercial coverage’ ” are “valid objectives for
a demonstration project because,” among other reasons, “they are potential means of achieving the concededly valid purpose of providing more health care coverage to the needy in a world of limited resources.” Philbrick Gov’t C.A. Mot. for Summ. Affirmance 4. The court
of appeals evidently agreed: it granted the government’s

33
request for summary affirmance on the ground that
Gresham “controlled.” App., infra, 20a. 11
II. THE COURT OF APPEALS’ RULINGS PRESENT A
QUESTION OF SUBSTANTIAL PRACTICAL IMPORTANCE
THAT WARRANTS THIS COURT’S REVIEW

The court of appeals’ decisions erroneously invalidating the Secretary’s approvals of two States’ demonstration projects present an issue of exceptional importance to the federal government and States that
have obtained, are seeking, or may seek approval for
such projects. Most immediately, the decisions below
preclude Arkansas and New Hampshire from undertaking experiments to test adjustments to their statewide
Medicaid programs that the States and the Secretary
determined may have significant value. While those
demonstration projects remain in limbo, the States are
deprived of the advantages that their projects may produce, and the Secretary and other States are deprived
of the lessons and experience that those experiments
may yield. If this Court grants review and reverses the
judgments below, the States will be able to implement
those projects once public-health conditions related to
COVID-19 allow.
For the same reason, although the court of appeals in Gresham
alternatively (and erroneously) held that the Secretary had not adequately articulated the agency’s position that stretching resources is
a means of achieving the objective of providing coverage, App., infra,
12a-13a, that additional holding does not diminish the court’s error in
interpreting the statute. The Gresham court went on to address the
Secretary’s position on the merits. Id. at 13a-16a. And on that basis,
in Philbrick, it summarily affirmed the district court’s judgment vacating the Secretary’s approval of New Hampshire’s demonstration
project, which had set forth the Secretary’s position in considerable
detail. Id. at 20a-21a.
11

34
In addition, the decisions below will jeopardize, and
might prove fatal to, as many as 17 other States’ demonstration projects that incorporate similar requirements
and that have been approved or for which approval is
pending. See p. 8, supra. If the court of appeals’ decision
in Gresham is allowed to stand, it very likely will be binding in litigation over any of those other projects. Under
the applicable venue statute, any plaintiff challenging
the Secretary’s approval of other projects may likewise
bring suit in the District Court for the District of Columbia. See 28 U.S.C. 1391(e)(1). And because Gresham is
now controlling circuit precedent, plaintiffs have every
reason to do so. Suits filed in that district challenging
approved demonstration projects in Indiana and Michigan are already underway. 12 No sound reason exists to
await decisions from other courts of appeals in suits that
are unlikely to be brought elsewhere. This Court should
review the D.C. Circuit’s holding before it becomes entrenched as a de facto nationwide rule.
Moreover, the court of appeals’ reasoning casts a
cloud over other demonstration-project components beyond the work and skill-building requirements centrally
at issue in these cases. A separate provision of the Arkansas demonstration project limits retroactive coverage for members of the ACA’s adult-expansion population to a period of 30 days. See App., infra, 131a. That
provision is similar to limits on retroactive coverage
that HHS previously approved as part of other demonstration projects. See, e.g., C.A. App. 132, 134, 137, 143;
see also App., infra, 149a, 155a-156a (New Hampshire).
As the Secretary explained, it is designed to encourage
See Rose v. Azar, No. 19-cv-2848 (D.D.C. f iled Sept. 23, 2019)
(Indiana project); Young v. Azar, No. 19-cv-3526 (D.D.C. f iled Nov.
22, 2019) (Michigan project).
12

35
beneficiaries to obtain and maintain health coverage,
even when healthy, which in turn may increase use of
preventive services that improve health outcomes.
App., infra, 136a, 141a-142a, 153a-154a, 169a. Without
specifically addressing that limitation, the court of appeals vacated the approval of it as well.
By severely curtailing the Secretary’s authority to
approve demonstration projects, the decisions below
may have the unintended consequence of discouraging
States from providing optional Medicaid coverage. It is
not unusual for a State to pair optional coverage with a
demonstration project that tests new requirements.
See, e.g., Spry v. Thompson, 487 F.3d 1272, 1276 (9th
Cir. 2007). The uncertainty engendered by the decision
below and the risk of protracted litigation that prevents
implementation of a demonstration project may dissuade other States from electing to provide or maintain
optional coverage, undermining what the court of appeals described as Medicaid’s core aim.
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
EDWIN S. KNEEDLER
Deputy Solicitor General
JONATHAN C. BOND
Assistant to the Solicitor
General
MARK B. STERN
ALISA B. KLEIN
Attorneys

JULY 2020

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 19-5094
Consolidated with 19-5096
CHARLES GRESHAM, ET AL., APPELLEES
v.
ALEX MICHAEL AZAR, II, SECRETARY,
UNITED STATES DEPARTMENT OF HEALTH AND
HUMAN SERVICES IN HIS OFFICIAL CAPACITY, ET AL.,
APPELLANTS

STATE OF ARKANSAS, APPELLEE
Argued:
Decided:

Oct. 11, 2019
Feb. 14, 2020

Appeals from the United States District Court
for the District of Columbia
(No. 1:18-cv-01900)
Before: PILLARD, Circuit Judge, and EDWARDS
and SENTELLE, Senior Circuit Judges.
Opinion for the Court filed by Senior Circuit Judge
SENTELLE.
SENTELLE, Senior Circuit Judge: Residents of
Kentucky and Arkansas brought this action against the
Secretary of Health and Human Services. They contend that the Secretary acted in an arbitrary and capri(1a)

2a
cious manner when he approved Medicaid demonstration requests for Kentucky and Arkansas. The District
Court for the District of Columbia held that the Secretary did act in an arbitrary and capricious manner because he failed to analyze whether the demonstrations
would promote the primary objective of Medicaid—to
furnish medical assistance. After oral argument, Kentucky terminated the challenged demonstration project
and moved for voluntary dismissal. We granted the
unopposed motion. The only question remaining before us is whether the Secretary’s authorization of Arkansas’s demonstration is lawful. Because the Secretary’s approval of the plan was arbitrary and capricious,
we affirm the judgment of the district court.
I.

Background

Originally, Medicaid provided health care coverage
for four categories of people: the disabled, the blind, the
elderly, and needy families with dependent children.
42 U.S.C. § 1396-1. Congress amended the statute in 2010
to expand medical coverage to low-income adults who
did not previously qualify. Id. at § 1396a(a)(10)(A)(i)(VIII);
NFIB v. Sebelius, 567 U.S. 519, 583 (2012). States
have a choice whether to expand Medicaid to cover this
new population of individuals. NFIB, 567 U.S. at 587.
Arkansas expanded Medicaid coverage to the new population effective January 1, 2014, through their participation in private health plans, known as qualified health
plans, with the state paying premiums on behalf of
enrollees. Appellees’ Br. 14; Gresham v. Azar, 363
F. Supp. 3d 165, 171 (D.D.C. 2019).
Medicaid establishes certain minimum coverage
requirements that states must include in their plans.

3a
42 U.S.C. § 1396a. States can deviate from those requirements if the Secretary waives them so that the
state can engage in “experimental, pilot, or demonstration project[s].” 42 U.S.C. § 1315(a). The section authorizes the Secretary to approve “any experimental, pilot, or demonstration project which, in the judgment of
the Secretary, is likely to assist in promoting the objectives” of Medicaid. Id.
Arkansas applied to amend its existing waiver under
§ 1315 on June 30, 2017. Arkansas Administrative Record 2057 (“Ark. AR”). Arkansas gained approval for
its initial Medicaid demonstration waiver in September
2013. In 2016, the state introduced its first version of
the Arkansas Works program, encouraging enrollees to
seek employment by offering voluntary referrals to the
Arkansas Department of Workforce Services. Dissatisfied with the level of participation in that program, Arkansas’s new version of Arkansas Works introduced
several new requirements and limitations. The one
that received the most attention required beneficiaries
aged 19 to 49 to “work or engage in specified educational, job training, or job search activities for at least
80 hours per month” and to document such activities.
Id. at 2063. Certain categories of beneficiaries were
exempted from completing the hours, including beneficiaries who show they are medically frail or pregnant,
caring for a dependent child under age six, participating
in a substance treatment program, or are full-time students. Id. at 2080-81. Nonexempt “beneficiaries who
fail to meet the work requirements for any three months
during a plan year will be disenrolled . . . and will
not be permitted to re-enroll until the following plan
year.” Id. at 2063.

4a
Arkansas Works included some other new requirements in addition to the much-discussed work requirements. Typically, when someone enrolls in Medicaid,
the “medical assistance under the plan . . . will be
made available to him for care and services included under the plan and furnished in or after the third month
before the month in which he made application.” 42
U.S.C. § 1396a(a)(34). Arkansas Works proposed to
eliminate retroactive coverage entirely. Ark. AR 2057,
2061. It also proposed to lower the income eligibility
threshold from 133% to 100% of the federal poverty line,
meaning that beneficiaries with incomes from 101% to
133% of the federal poverty line would lose health coverage. Id. at 2057, 2060-61, 2063. Finally, Arkansas
Works eliminated a program in which it used Medicaid
funds to assist beneficiaries in paying the premiums for
employer-provided health care coverage. Id. at 2057,
2063, 2073. Arkansas instead used Medicaid premium
assistance funds only to help beneficiaries purchase a
qualified health plan available on the state Health Insurance Marketplace, requiring all previous recipients
of employer-sponsored coverage premiums to transition
to coverage offered through the state’s Marketplace.
Id. at 2057, 2063, 2073.
On March 5, 2018, the Secretary approved most of
the new Arkansas Works program via a waiver effective
until December 31, 2021, but with a few changes. He
approved the work requirements but under the label of
“community engagement.” Id. at 2. The Secretary
authorized Arkansas to limit retroactive coverage to
thirty days before enrollment rather than a complete
elimination of retroactive coverage. Id. at 3, 12. He
also approved Arkansas’s decision to terminate the

5a
employer-sponsored coverage premium assistance program. Id. at 3. The Secretary did not, however, permit Arkansas to limit eligibility to persons making less
than or equal to 100% of the federal poverty line. Id.
at 3 n.1, 11. Instead, the Secretary kept the income eligibility threshold at 133% of the federal poverty line.
Id. at 3 n.1, 11.
In the approval letter, the Secretary analyzed whether
Arkansas Works would “assist in promoting the objectives of Medicaid.” Id. at 3. The Secretary identified
three objectives that he asserted Arkansas Works would
promote: “improving health outcomes; . . . address[ing] behavioral and social factors that influence health
outcomes; and . . . incentiviz[ing] beneficiaries to
engage in their own health care and achieve better
health outcomes.” Id. at 4. In particular, the Secretary stated that Arkansas Works’s community engagement requirements would “encourage beneficiaries to
obtain and maintain employment or undertake other
community engagement activities that research has
shown to be correlated with improved health and wellness.” Id. Further, the Secretary thought the shorter
timeframe for retroactive eligibility would “encourage
beneficiaries to obtain and maintain health coverage,
even when they are healthy,” which, in turn, promotes
“the ultimate objective of improving beneficiary health.”
Id. at 5. The letter also summarized concerns raised
by commenters that the community engagement requirement would “caus[e] disruptions in care” or “create
barriers to coverage” for beneficiaries who are not exempt. Id. at 6-7. In response, the Secretary noted
that Arkansas had several exemptions and would “implement an outreach strategy to inform beneficiaries
about how to report compliance.” Id.

6a
The new work requirements took effect for those
aged 30 to 49 on June 1, 2018, and for those aged 20 to
29 on January 1, 2019. Gresham, 363 F. Supp. 3d at
172. Charles Gresham along with nine other Arkansans filed an action for declaratory and injunctive relief
against the Secretary on August 14, 2018. The district
court on March 27, 2019, entered judgment vacating the
Secretary’s approval, effectively halting the program.
Gresham, 363 F. Supp. 3d at 176-85. In its opinion supporting the judgment, the district court relied on Stewart v. Azar, 313 F. Supp. 3d 237 (D.D.C. 2018) (Stewart
I), which is the district court’s first opinion considering
Kentucky’s similar demonstration, Gresham, 363 F. Supp.
3d at 176. In Stewart I, the district court turned to the
provision authorizing the appropriations of funds for
Medicaid, 42 U.S.C. § 1396-1, and held that, based on the
text of that appropriations provision, the objective of
Medicaid was to “furnish . . . medical assistance” to
people who cannot afford it. Stewart I, 313 F. Supp. 3d
at 260-61.
With its previously articulated objective of Medicaid
in mind, the district court then turned to the Secretary’s
approval of Arkansas Works. First, the district court
noted that the Secretary identified three objectives that
Arkansas Works would promote: “(1) ‘whether the
demonstration as amended was likely to assist in improving health outcomes’; (2) ‘whether it would address
behavioral and social factors that influence health outcomes’; and (3) ‘whether it would incentivize beneficiaries to engage in their own health care and achieve better
health outcomes.’ ” Gresham, 363 F. Supp. 3d at 176
(quoting Ark. AR 4). But “[t]he Secretary’s approval
letter did not consider whether [Arkansas Works] would
reduce Medicaid coverage. Despite acknowledging at

7a
several points that commenters had predicted coverage
loss, the agency did not engage with that possibility.”
Id. at 177. The district court also explained that the
Secretary failed to consider whether Arkansas Works
would promote coverage. Id. at 179. Instead, the
Secretary considered his alternative objectives, primarily healthy outcomes, but the district court observed
that “ ‘focus on health is no substitute for considering
Medicaid’s central concern:
covering health costs’
through the provision of free or low-cost health coverage.” Id. (quoting Stewart I, 313 F. Supp. 3d at 266).
“In sum,” the district court held:
the Secretary’s approval of the Arkansas Works
Amendments is arbitrary and capricious because it
did not address—despite receiving substantial comments on the matter—whether and how the project
would implicate the “core” objective of Medicaid:
the provision of medical coverage to the needy.
Id. at 181. The district court entered final judgment on
April 4, 2019, and the Secretary filed a notice of appeal
on April 10, 2019.
This case was originally a consolidated appeal from
the district court’s judgment in both the Arkansas and
Kentucky cases. The district court twice vacated the
Secretary’s approval of Kentucky’s demonstration for
the same failure to address whether Kentucky’s program would promote the key objective of Medicaid.
Stewart v. Azar, 366 F. Supp. 3d 125, 156 (D.D.C. 2019)
(Stewart II); Stewart I, 313 F. Supp. 3d at 274. On December 16, 2019, Kentucky moved to dismiss its appeal
as moot because it “terminated the section [1315] demonstration project.” Intervenor-Def.-Appellant’s Mot. to
Voluntarily Dismiss Appeal 1-2 (Dec. 16, 2019), ECF No.

8a
1820334. Neither the government nor the appellees
opposed the motion. Gov’t’s Resp. (Dec. 18, 2019),
ECF No. 1820655; Appellees’ Resp. (Dec. 20, 2019),
ECF No. 1821219.
Although the Secretary has considerable discretion
to grant a waiver, we reject the government’s contention
that such discretion renders his waiver decisions unreviewable. The Administrative Procedure Act’s (APA)
exception from judicial review for an action committed
to agency discretion is “very narrow,” Citizens to Preserve Overton Park, Inc. v. Volpe, 401 U.S. 402, 410
(1971); see also Dep’t of Commerce v. New York, 139
S. Ct. 2551, 2568 (2019), barring judicial review only in
those “rare instances” where “there is no law to apply,”
Overton Park, 401 U.S. at 410 (internal quotation marks
and citation omitted). The Medicaid statute provides
the legal standard we apply here: The Secretary may
only approve “experimental, pilot, or demonstration
project[s],” and only insofar as they are “likely to assist
in promoting the objectives” of Medicaid, 42 U.S.C.
§ 1315(a). Section 1315 approvals are not among the
rare “categories of administrative decisions that courts
traditionally have regarded as committed to agency discretion.” Dep’t of Commerce, 139 S. Ct. at 2568.
Additionally, the government asked that we address
“the reasoning of the district court’s opinion in Stewart
and the underlying November 2018 HHS approval of the
Kentucky demonstration,” and second that we vacate
the district court’s judgment against the federal defendants in the Kentucky case Stewart II, 66 F. Supp. 3d 125.
Gov’t’s Resp. 1-2. The appellees opposed both of those
additional requests. Appellees’ Resp. 1-4. We granted
the motion to voluntarily dismiss but declined to vacate

9a
the district court’s judgment against the federal defendants in Stewart II. As to the government’s first request, we do not rely on the Secretary’s reasoning in the
November 2018 approval of Kentucky’s demonstration
when considering the Secretary’s approval of Arkansas’s demonstration.
“We review de novo the District Court’s grant of
summary judgment, which means that we review the
agency’s decision on our own.” Castlewood Prods.,
L.L.C. v. Norton, 365 F.3d 1076, 1082 (D.C. Cir. 2004).
Therefore, we will review the Secretary’s approval of
Arkansas Works in accordance with the Administrative
Procedure Act and will set it aside if it is “arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.” 5 U.S.C. § 706(2)(A); see also C.K.
v. New Jersey Dep’t of Health & Human Servs., 92 F.3d
171, 181-82 (3d Cir. 1996) (applying the arbitrary and capricious standard of review to a waiver under § 1315);
Beno v. Shalala, 30 F.3d 1057, 1066-67 (9th Cir. 1994)
(same); Aguayo v. Richardson, 473 F.2d 1090, 1103-08
(2d Cir. 1973) (same). An agency action that “entirely
failed to consider an important aspect of the problem,
offered an explanation for its decision that runs counter
to the evidence before the agency, or is so implausible
that it could not be ascribed to a difference in view or
the product of agency expertise” is arbitrary and capricious. Motor Vehicle Mfrs. Ass’n of U.S., Inc. v. State
Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983).
II.

DISCUSSION
A.

Objective of Medicaid

The district court is indisputably correct that the
principal objective of Medicaid is providing health care

10a
coverage. The Secretary’s discretion in approving or
denying demonstrations is guided by the statutory directive that the demonstration must be “likely to assist
in promoting the objectives” of Medicaid. 42 U.S.C.
§ 1315. While the Medicaid statute does not have a
standalone purpose section like some social welfare statutes, see, e.g., 42 U.S.C. § 601(a) (articulating the purposes of the Temporary Assistance for Needy Families
program); 42 U.S.C. § 629 (announcing the “objectives”
of the Promoting Safe and Stable Families program), it
does have a provision that articulates the reasons underlying the appropriations of funds, 42 U.S.C. § 1396-1.
The provision describes the purpose of Medicaid as
to furnish (1) medical assistance on behalf of families
with dependent children and of aged, blind, or disabled individuals, whose income and resources are insufficient to meet the costs of necessary medical services, and (2) rehabilitation and other services to help
such families and individuals attain or retain capability for independence or self-care.
Id. In addition to the appropriations provision, the
statute defines “medical assistance” as “payment of part
or all of the cost of the following care and services or the
care and services themselves.” 42 U.S.C. § 1396d(a).
Further, as the district court explained, the Affordable
Care Act’s expansion of health care coverage to a larger
group of Americans is consistent with Medicaid’s general purpose of furnishing health care coverage. See
Stewart I, 313 F. Supp. 3d at 260 (citing Pub. L. No. 111148, 124 Stat. 119, 130, 271 (2010)). The text consistently focuses on providing access to health care coverage.

11a
Both the First and Sixth Circuits relied on Medicaid’s
appropriations provision quoted above in concluding
that “[t]he primary purpose of Medicaid is to enable
states to provide medical services to those whose ‘income and resources are insufficient to meet the costs of
Pharm. Research &
necessary medical services.’ ”
Mfrs. of Am. v. Concannon, 249 F.3d 66, 75 (1st Cir.
2001) (quoting 42 U.S.C. § 1396 (2000)), aff ’d, 538 U.S.
644 (2003); Price v. Medicaid Dir., 838 F.3d 739, 742 (6th
Cir. 2016). Similarly, the Ninth Circuit relied on both
the appropriations provision and the definition of “medical assistance” when describing Medicaid as “a federal
grant program that encourages states to provide certain
medical services” and identifying a key element of “medical assistance” as the spending of federally provided
funds for medical coverage. Univ. of Wash. Med. Ctr.
v. Sebelius, 634 F.3d 1029, 1031, 1034-35 (9th Cir. 2011).
Beyond relying on the text of the statute, other
courts have consistently described Medicaid’s objective
as primarily providing health care coverage. For example, the Third Circuit succinctly stated, “We recognize, of course, that the primary purpose of medicaid is
to achieve the praiseworthy social objective of granting
health care coverage to those who cannot afford it.” W.
Va. Univ. Hosps., Inc. v. Casey, 885 F.2d 11, 20 (3d Cir.
1989), aff ’d, 499 U.S. 83 (1991). Likewise, the Supreme
Court characterized Medicaid as a “program . . .
[that] provides joint federal and state funding of medical
care for individuals who cannot afford to pay their own
medical costs.” Ark. Dep’t of Health & Human Servs.
v. Ahlborn, 547 U.S. 268, 275 (2006); see also Virginia ex
rel. Hunter Labs., L.L.C. v. Virginia, 828 F.3d 281, 283
(4th Cir. 2016) (quoting Ahlborn in the section of the decision explaining the important aspects of Medicaid).

12a
The statute and the case law demonstrate that the
primary objective of Medicaid is to provide access to
medical care. There might be secondary benefits that
the government was hoping to incentivize, such as
healthier outcomes for beneficiaries or more engagement in their health care, but the “means [Congress] has
deemed appropriate” is providing health care coverage.
MCI Telecomms. Corp. v. Am. Tel. & Tel. Co., 512 U.S.
218, 231 n.4 (1994). In sum, “the intent of Congress is
clear” that Medicaid’s objective is to provide health care
coverage, and, as a result, the Secretary “must give effect to [that] unambiguously expressed intent of Congress.” Chevron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc., 467 U.S. 837, 842-43 (1984).
Instead of analyzing whether the demonstration
would promote the objective of providing coverage,
the Secretary identified three alternative objectives:
“whether the demonstration as amended was likely to
assist in improving health outcomes; whether it would
address behavioral and social factors that influence
health outcomes; and whether it would incentivize beneficiaries to engage in their own health care and achieve
better health outcomes.” Ark. AR 4. These three alternative objectives all point to better health outcomes
as the objective of Medicaid, but that alternative objective lacks textual support. Indeed, the statute makes
no mention of that objective.
While furnishing health care coverage and better
health outcomes may be connected goals, the text specifically addresses only coverage. 42 U.S.C. § 1396-1.
The Supreme Court and this court have consistently reminded agencies that they are “bound, not only by the
ultimate purposes Congress has selected, but by the

13a
means it has deemed appropriate, and prescribed, for
the pursuit of those purposes.” MCI Telecomms., 512
U.S. at 231 n.4; see also Waterkeeper All. v. EPA, 853
F.3d 527, 535 (D.C. Cir. 2017); Colo. River Indian Tribes
v. Nat’l Indian Gaming Comm’n, 466 F.3d 134, 139-40
(D.C. Cir. 2006). The means that Congress selected to
achieve the objectives of Medicaid was to provide health
care coverage to populations that otherwise could not afford it.
To an extent, Arkansas and the government characterize the Secretary’s approval letter as also identifying
transitioning beneficiaries away from governmental
benefits through financial independence or commercial
coverage as an objective promoted by Arkansas Works.
Ark. Br. 14, 37-42; Gov’t Br. 24-25, 32. This argument
misrepresents the Secretary’s letter. The approval
letter has a specific section for the Secretary’s determination that the project will assist in promoting the objectives of Medicaid. Ark. AR 3-5. The objectives articulated in that section are the health-outcome goals
quoted above. That section does not mention transitioning beneficiaries away from benefits. The district
court’s discussion of the Secretary’s objectives confirms
our interpretation of this letter. It identifies the Secretary’s alternative objective as “improv[ing] health
outcomes.” Gresham, 363 F. Supp. 3d at 179. There
is no reference to commercial coverage in the Secretary’s approval letter, and the only reference to beneficiary financial independence is in the section summarizing public comments. In response to concerns about
the community engagement requirements creating barriers to coverage, the Secretary stated, “Given that employment is positively correlated with health outcomes,
it furthers the purposes of the Medicaid statute to test

14a
and evaluate these requirements as a means to improve
beneficiaries’ health and to promote beneficiary independence.” Ark. AR 6. But “[n]owhere in the Secretary’s approval letter does he justify his decision based
. . . on a belief that the project will help Medicaideligible persons to gain sufficient financial resources to
be able to purchase private insurance.” Gresham, 363
F. Supp. 3d at 180-81. We will not accept post hoc rationalizations for the Secretary’s decision. See State
Farm, 463 U.S. at 50.
Nor could the Secretary have rested his decision on
the objective of transitioning beneficiaries away from
government benefits through either financial independence or commercial coverage. When Congress wants
to pursue additional objectives within a social welfare
program, it says so in the text. For example, the purpose section of TANF explicitly includes “end[ing] the
dependence of needy parents on government benefits by
promoting job preparation, work, and marriage” among
the objectives of the statute. 42 U.S.C. § 601(a)(2).
Also, both TANF and the Supplemental Nutrition Assistance Program (SNAP) condition eligibility for benefits upon completing a certain number of hours of work
per week to support the objective of “end[ing] dependence of needy parents on government benefits.” 42
U.S.C. §§ 601(a)(2), 607(c) (TANF); 7 U.S.C. § 2015(d)(1)
(SNAP). In contrast, Congress has not conditioned the
receipt of Medicaid benefits on fulfilling work requirements or taking steps to end receipt of governmental
benefits.
The reference to independence in the appropriations
provision and the cross reference to TANF cannot support the Secretary’s alternative objective either. The

15a
reference to “independence” in the appropriations provision is in the context of assisting beneficiaries in
achieving functional independence through rehabilitative and other services, not financial independence from
government welfare programs. 42 U.S.C. § 1396-1.
Medicaid also grants states the “[o]ption” to terminate
Medicaid benefits when a beneficiary who receives both
Medicaid and TANF fails to comply with TANF’s work
requirements. See 42 U.S.C. § 1396u-1(b)(3)(A). The
provision gives states, therefore, the ability to coordinate benefits for recipients receiving both TANF and
Medicaid. It does not go so far as to incorporate TANF
work requirements and additional objectives into Medicaid.
Further, the history of Congress’s amendments to
social welfare programs supports the conclusion that
Congress did not intend 42 U.S.C. § 1396u-1(b)(3)(A) to
incorporate TANF’s objectives and work requirements
into Medicaid. In 1996, SNAP already included work
requirements to maintain eligibility. 7 U.S.C. § 2015(d)(1)
(1994). Also in 1996, Congress passed the Personal Responsibility and Work Opportunity Reconciliation Act,
which replaced Aid to Families with Dependent Children with TANF and added work requirements. Personal Responsibility and Work Opportunity Reconciliation Act of 1996, Pub. L. No. 104-193, sec. 103, § 407, 110
Stat. 2105, 2129-34. At the same time, it added 42
U.S.C. § 1396u-1(b)(3)(A) to Medicaid. Id. at sec. 114,
§ 1931, 110 Stat. at 2177-80. The fact that Congress did
not similarly amend Medicaid to add a work requirement for all recipients—at a time when the other two
major welfare programs had those requirements and Congress was in the process of amending welfare statutes—

16a
demonstrates that Congress did not intend to incorporate work requirements into Medicaid through § 1396u1(b)(3)(A).
In short, we agree with the district court that the alternative objectives of better health outcomes and beneficiary independence are not consistent with Medicaid.
The text of the statute includes one primary purpose,
which is providing health care coverage without any restriction geared to healthy outcomes, financial independence or transition to commercial coverage.
B.

The Approvals Were Arbitrary and Capricious

With the objective of Medicaid defined, we turn to the
Secretary’s analysis and approval of Arkansas’s demonstration, and we find it wanting. In order to survive arbitrary and capricious review, agencies need to address
“important aspect[s] of the problem.” State Farm, 463
U.S. at 43. In this situation, the loss of coverage for
beneficiaries is an important aspect of the demonstration approval because coverage is a principal objective
of Medicaid and because commenters raised concerns
about the loss of coverage. See, e.g., Ark. AR 1269-70,
1277-78, 1285, 1294-95.
A critical issue in this case is the Secretary’s failure
to account for loss of coverage, which is a matter of importance under the statute. The record shows that the
Arkansas Works amendments resulted in significant
coverage loss. In Arkansas, more than 18,000 people
(about 25% of those subject to the work requirement)
lost coverage as a result of the project in just five months.
Ark. Dep’t of Human Servs., Arkansas Works Program 8
(Dec. 2018), https://humanservices.arkansas.gov/images/

17a
uploads/011519_AWReport.pdf. Additionally, commenters on the Arkansas Works amendments detailed the potential for substantial coverage loss supported by research evidence. Ark. AR 1269-70, 1277-78, 1285, 129495, 1297, 1307-08, 1320, 1326, 1337-38, 1341, 1364-65,
1402, 1421. The Secretary’s analysis considered only
whether the demonstrations would increase healthy outcomes and promote engagement with the beneficiary’s
health care. Id. at 3-5. The Secretary noted that
some commenters were concerned that “these requirements would be burdensome on families or create barriers to coverage.” Id. at 6. But he explained that Arkansas would have “outreach and education on how to
comply with the new community engagement requirements” and that Centers for Medicare and Medicaid
Services could discontinue the program if data showed
that it was no longer in the public interest. Id. The
Secretary also concluded that the “overall health benefits to the [a]ffected population . . . outweigh the
health-risks with respect to those who fail to” comply
with the new requirements. Id. at 7. While Arkansas
did not have its own estimate of potential coverage loss,
the estimates and concerns raised in the comments were
enough to alert the Secretary that coverage loss was an
important aspect of the problem. Failure to consider
whether the project will result in coverage loss is arbitrary and capricious.
In total, the Secretary’s analysis of the substantial
and important problem is to note the concerns of others
and dismiss those concerns in a handful of conclusory
sentences. Nodding to concerns raised by commenters
only to dismiss them in a conclusory manner is not a hallmark of reasoned decisionmaking. See, e.g., Am. Wild
Horse Pres. Campaign v. Perdue, 873 F.3d 914, 932

18a
(D.C. Cir. 2017) (critiquing an agency for “brush[ing]
aside critical facts” and not “adequately analyz[ing]” the
consequences of a decision); Getty v. Fed. Savs. & Loan
Ins. Corp., 805 F.2d 1050, 1055 (D.C. Cir. 1986) (analyzing whether an agency actually considered a concern rather than merely stating that it considered the concern).
True, the Secretary’s approval letter is not devoid of
analysis. It does contain the Secretary’s articulation of
how he thought the demonstrations would assist in promoting an entirely different set of objectives than the
one we hold is the principal objective of Medicaid. In
some circumstances it may be enough for the agency to
assess at least one of several possible objectives. See
Fresno Mobile Radio, Inc. v. FCC, 165 F.3d 965, 971
(D.C. Cir. 1999). But in such cases, the statute lists
several objectives, some of which might lead to conflicting decisions. Id.; see also Melcher v. FCC, 134 F.3d
1143, 1154 (D.C. Cir. 1998). For example, in both
Fresno Mobile Radio and Melcher, the statute at issue
included five separate objectives for FCC to consider
when creating auctions for licenses, including “the development and rapid deployment of new technologies,”
“promoting economic opportunity and competition,” and
the “efficient and intensive use of the electromagnetic
spectrum.” 47 U.S.C. § 309( j)(3). In Fresno Mobile
Radio, we recognized that these objectives could point
to conflicting courses of action, so the agency could give
precedence to one or several objectives over others without acting in an arbitrary or capricious manner. Fresno
Mobile Radio, 165 F.3d at 971; see also Melcher, 134
F.3d at 1154; Rural Cellular Ass’n v. FCC, 588 F.3d
1095, 1101-03 (D.C. Cir. 2009) (explaining that an agency
may not “depart from” statutory principles “altogether
to achieve some other goal”). The crucial difference in

19a
this case is that the Medicaid statute identifies its primary purpose rather than a laundry list. The primary
purpose is
to furnish (1) medical assistance on behalf of families
with dependent children and of aged, blind, or disabled individuals, whose income and resources are insufficient to meet the costs of necessary medical services, and (2) rehabilitation and other services to help
such families and individuals attain or retain capability for independence or self-care.
42 U.S.C. § 1396-1. Importantly, the Secretary disregarded this statutory purpose in his analysis. While we
have held that it is not arbitrary or capricious to prioritize one statutorily identified objective over another, it is
an entirely different matter to prioritize non-statutory objectives to the exclusion of the statutory purpose.
III.

CONCLUSION

Because the Secretary’s approval of Arkansas Works
was arbitrary and capricious, we affirm the district court’s
judgment vacating the Secretary’s approval.

20a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 19-5293
Consolidated with 19-5295
September Term, 2019
1:19-cv-00773-JEB
SAMUEL PHILBRICK, ON BEHALF OF THEMSELVES
AND ALL OTHERS SIMILARLY SITUATED, ET AL.,
APPELLEES

v.
ALEX M. AZAR, II, SECRETARY, UNITED STATES
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
ET AL., APPELLANTS
NEW HAMPSHIRE DEPARTMENT OF HEALTH AND
HUMAN SERVICES, APPELLEE
Filed:

May 20, 2020
ORDER

BEFORE: HENDERSON and RAO, Circuit Judges,
and SENTELLE, Senior Circuit Judge

Upon consideration of the unopposed motion for summary affirmance, it is
ORDERED that the motion for summary affirmance
be granted and the district court’s order filed July 29,
2019, be affirmed. The federal appellants acknowledge
that the disposition of this case is controlled by Gresham

21a
v. Azar, 950 F.3d 93 (D.C. Cir. 2020), and, accordingly,
the merits of the parties’ positions are so clear as to warrant summary action, see Taxpayers Watchdog, Inc. v.
Stanley, 819 F.2d 294, 297 (D.C. Cir. 1987) (per curiam).
Pursuant to D.C. Circuit Rule 36, this disposition will
not be published. The Clerk is directed to withhold issuance of the mandate herein until seven days after resolution of any timely petition for rehearing or petition
for rehearing en banc. See Fed. R. App. P. 41(b); D.C.
Cir. Rule 41.
Per Curiam
FOR THE COURT:

Mark J. Langer, Clerk
BY:

/s/
Manuel J. Castro
Deputy Clerk

22a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Civil Action No. 18-1900 (JEB)
CHARLES GRESHAM, ET AL., PLAINTIFFS
v.
ALEX MICHAEL AZAR II, ET AL., DEFENDANTS
Filed:

Mar. 27, 2019

MEMORANDUM OPINION

Adrian McGonigal is 40 years old and lives with his
brother in Pea Ridge, Arkansas. He used to have a job
working in the shipping department of Southwest Poultry, a food-service company located nearby, although he
received no medical insurance through his employer.
Like many Americans, he has several serious medical
conditions. Beginning in 2014, McGonigal was able to
receive medical care—including regular doctor visits
and numerous prescription drugs—through the state’s
expanded Medicaid program. In mid-2018, however,
McGonigal learned that he would be subject to new work
requirements, which he would have to report online, as
a condition of receiving health benefits. These were
imposed by the Arkansas Works Amendments (AWA),
approved by the U.S. Secretary of Health and Human
Services in March 2018. Despite his lack of access to,
and difficulty working with, computers, he was able to

23a
report his employment in June 2018, but he did not know
he needed to continue to do so each month. As a result,
when he went to pick up his prescriptions in October, the
pharmacist told him that he was no longer covered, and
his medicines would cost him $800. In the absence of
Medicaid, he could not afford the cost of the prescriptions and so did not pick them up. His health conditions then flared up, causing him to miss several days of
work, and Southwest Poultry fired him for his absences.
He thus lost his Medicaid coverage and his job.
Anna Book is 38 years old and lives in Little Rock.
She currently rents a room in an apartment but was
homeless for most of the last eight years. In July 2018,
she got a job as a dishwasher in a restaurant, for which
she works about 24 hours each week. Before that, she
was unemployed for two years. She nevertheless also
had health care provided through Arkansas’s Medicaid
program, which a local pastor helped her sign up for in
2014. Book learned last August that, pursuant to
AWA, she would have to report 80 hours each month of
employment or other activities to keep that coverage.
While she reported her compliance in August and September with the pastor’s help—she does not have reliable internet access—Book has several health conditions
and worries that she will not maintain sufficient hours
at her job to keep her coverage.
Russell Cook is 26 and also lives in Little Rock. He
is currently homeless. While he has spent time working as a landscaper, he is not presently employed and
has minimal job prospects. The state’s Medicaid program has previously given him access to health care for
various health conditions, including a torn Achilles tendon and serious dental problems. Cook, however, does

24a
not believe he will be able to comply with the new AWA
work requirements, which began applying to him in January 2019. Lacking access to the internet or a phone,
he also worries that he will be unable to report compliance with those requirements. He thus expects to lose
his Medicaid coverage.
These are three of the ten Arkansans who come to
this Court seeking to undo the work requirements the
state added in 2018 to its Medicaid program. They
sued the Secretary of Health and Human Services in August 2018, arguing that the federal government’s approval of the state’s new requirements violated the Administrative Procedure Act and the Constitution.
Plaintiffs’ suit does not offer an issue of first impression. Indeed, this Court just last summer considered a
challenge to the Secretary’s approval of very similar
changes to Kentucky’s Medicaid program—including
work or “community engagement” requirements—in
Stewart v. Azar, 313 F. Supp. 3d 237 (D.D.C. 2018)
(Stewart I). There, it vacated the agency’s decision because it had not adequately considered whether the program “would in fact help the state furnish medical assistance to its citizens, a central objective of Medicaid.”
Id. at 243. Plaintiffs point to the identical deficiency in
the record in this case. Despite the protestations in its
(and intervenor Arkansas’s) briefing, HHS conceded at
oral argument that the administrative decision in this
case shares the same problem as the one in Stewart I.
See Oral Argument Transcript at 6-7. The Court’s job
is thus easy in one respect: the Secretary’s approval
cannot stand.
Yet a separate question remains: what is the proper
remedy? In Stewart I, the Court vacated the approval

25a
and remanded to the Secretary. Here, however, the
Government argues that vacatur is improper both because, unlike Kentucky, AWA is already active and halting it would be quite disruptive, and because any error
is easily fixed, just as it has been for Kentucky. The
challengers disagree, positing that the deficiency in the
approval is substantial and that any resulting disruption
is outweighed by the ongoing harms suffered by the
more than 16,000 Arkansans who have lost their Medicaid coverage. Given the seriousness of the deficiencies
—which, as this Court explains in a separate Opinion issued today, the remand in Kentucky did not cure—and
the absence of lasting harms to the Government relative
to the significant ones suffered by Arkansans like Plaintiffs, the Court will vacate the Secretary’s approval and
remand for further proceedings.
I.

BACKGROUND

As it did in Stewart I, the Court begins with an overview of the relevant history and provisions of the Medicaid Act. See 313 F. Supp 3d. at 243-44. It then turns
to Arkansas’s challenged plan before concluding with
the procedural history of this case.
A.

Legal Background

1.

The Medicaid Act

Since 1965, the federal government and the states
have worked together to provide medical assistance to
certain vulnerable populations under Title XIX of the
Social Security Act, commonly known as Medicaid.
See 42 U.S.C. § 1396-1. The Centers for Medicare and
Medicaid Services (CMS), a federal agency within the
Department of Health and Human Services, has primary responsibility for overseeing Medicaid programs.

26a
Under the cooperative federal-state arrangement, participating states submit their “plans for medical assistance” to the Secretary of HHS. Id. To receive federal funding, those plans—along with any material
changes to them—must be “approved by the Secretary.”
Id.; see also 42 C.F.R. § 430.12(c). Currently, all states
have chosen to participate in the program.
To be approved, state plans must comply with certain
minimum parameters set out in the Medicaid Act. See
42 U.S.C. § 1396a (listing 83 separate requirements).
One such provision requires state plans to “mak[e] medical assistance available” to certain low-income individuals. Id. § 1396a(a)(10)(A). Until recently, that group
included pregnant women, children, and their families;
some foster children; the elderly; and people with certain disabilities. Id. In 2010, however, Congress enacted the Patient Protection and Affordable Care Act
(ACA), colloquially known as Obamacare, “to increase
the number of Americans covered by health insurance.”
Nat’l Fed. of Indep. Business v. Sebelius, 567 U.S. 519,
538 (2012). Under that statute, states can expand
their Medicaid coverage to include additional low-income
adults under 65 who would not otherwise qualify. See
42 U.S.C. § 1396a(a)(10)(A)(i)(VIII).
Generally, a state must cover all qualified individuals or
forfeit its federal Medicaid funding. Id. § 1396a(a)(10)(B).
That was originally so for the ACA expansion population
as well. See 42 U.S.C. § 1396c. In NFIB, however,
the Supreme Court held that Congress could not, consistent with the Spending Clause of the Constitution,
condition previously appropriated Medicaid funds on
the state’s agreeing to the expansion. See 567 U.S. at
584-85. The result was that states could choose not to

27a
cover the new population and lose no more than the
funds that would have been appropriated for that group.
Id. at 587. If, however, the state decided to provide
coverage, those individuals would become part of its
mandatory population. Id. at 585-87 (explaining that
Congress may “offer[] funds under the Affordable Care
Act to expand the availability of health care, and requir[e] that States accepting such funds comply with the
conditions on their use”). In that instance, the state
must afford the expansion group “full benefits”—i.e., it
must provide “medical assistance for all services covered under the State plan” that are substantially equivalent “in amount, duration, or scope . . . to the medical assistance available for [other] individual[s]” covered under the Act. See 42 U.S.C. § 1396d(y)(2)(B);
42 C.F.R. § 433.204(a)(2).
The Medicaid Act, in addition to defining who is entitled to coverage, also ensures what coverage those enrolled individuals receive. Under § 1396a, states must
cover certain basic medical services, see 42 U.S.C.
§§ 1396a(a)(10)(A), 1396d(a), and the statute limits the
amount and type of premiums, deductions, or other costsharing charges that a state can impose on such care.
Id. § 1396a(a)(14); see also id. § 1396o. Other provisions
require states to provide three months of retroactive coverage once a beneficiary enrolls, see id. § 1396a(a)(34), and
to ensure that recipients receive all “necessary transportation . . . to and from providers.” 42 C.F.R. § 431.53.
Finally, states must “provide such safeguards as may be
necessary to assure” that eligibility and services “will be
provided, in a manner consistent with simplicity of administration and the best interests of the recipients.”
42 U.S.C. § 1396a(a)(19).

28a
2.

Section 1115 of Social Security Act

Both before and after the passage of the ACA, a state
is not entirely locked in; instead, if it wishes to deviate
from the Medicaid Act’s requirements, it can seek a
waiver from the Secretary of HHS. See 42 U.S.C.
§ 1315. In enacting the Social Security Act (and, later,
the Medicaid program within the same title), Congress
recognized that statutory requirements “often stand in
the way of experimental projects designed to test out
new ideas and ways of dealing with the problems of public welfare recipients.” S. Rep. No. 1589, 87th Cong.,
2d Sess. 19, reprinted in 1962 U.S.C.C.A.N. 1943, 196162. To that end, § 1115 of the Social Security Act allows the Secretary to approve “experimental, pilot, or
demonstration project[s]” in state medical plans that
would otherwise fall outside Medicaid’s parameters.
The Secretary can approve only those projects that “in
[his] judgment . . . [are] likely to assist in promoting
the [Act’s] objectives.” 42 U.S.C. § 1315(a). As conceived, demonstration projects were “expected to be selectively approved by the Department and to be those
which are designed to improve the techniques of administering assistance.” Supra S. Rep. No. 1589 at 1962.
Once the Secretary has greenlighted such a project, he can
then waive compliance with the requirements of § 1396a
“to the extent and for the period . . . necessary to
enable [the] State . . . to carry out such project.” Id.
§ 1315(a)(1).
While the ultimate decision whether to grant § 1115
approval rests with the Secretary, his discretion is
not boundless. Before HHS can act on a waiver application, the state “must provide at least a 30-day public
notice[-]and[-]comment period” regarding the proposed

29a
program and hold at least two hearings at least 20 days
before submitting the application.
See 42 C.F.R.
§§ 431.408(a)(1), (3). Once a state completes those prerequisites, it then sends an application to CMS. Id.
§ 431.412 (listing application requirements). After the
agency notifies the state that it has received the waiver
application, a federal 30-day public-notice period commences, and the agency must wait at least 45 days before
rendering a final decision. Id. §§ 431.416(b), (e)(1).
B.

Factual Background

1.

Arkansas Works Amendments

Arkansas’s Medicaid program dates back to 1970.
For most of the program’s history, the state maintained
among the most stringent eligibility thresholds in the
nation for adults, covering only the aged, disabled, and
parents with very low incomes. See ECF 53-6, Exh. 54
(Ark. Health Care Independence Program Interim Report) at 16. That changed with the passage of the ACA.
While states had a choice after NFIB not to expand
Medicaid, Arkansas was one of those that opted to do so.
Under its expansion program, which began January 1,
2014, Medicaid-eligible persons were given the opportunity to enroll in private insurance plans financed by
the state. See AR 71. In its first two years, the program provided health coverage to more than 278,000
newly eligible individuals, helping to lower the uninsured rate from 19% to 11%. See AR 1274. The program became known as Arkansas Works in January
2017.
That month featured another significant change in
the political landscape, as the Trump administration
took over from President Obama. In March 2017, then-

30a
Secretary Thomas Price and CMS Director Seema
Verma sent a letter to all 50 governors announcing the
administration’s view that the ACA’s expansion of Medicaid was “a clear departure from the core, historical
mission of the program.” See AR 85. They thus
alerted states of the agency’s “intent to use existing Section 1115 demonstration authority” to help revamp Medicaid. See AR 86. Together they promised to find “a
solution that best uses taxpayer dollars to serve” those
individuals they deemed “truly vulnerable.” Id. Heeding HHS’s call, Governor Asa Hutchinson proposed
three substantial amendments to Arkansas Works under Section 1115. See AR 2057. First, he proposed to
shift income eligibility for the expansion population
from 133% to 100% of the Federal Poverty Line. Id.
Second, he proposed to “institute work requirements
as a condition” of continued Medicaid coverage. Id.
Third, he proposed to eliminate retroactive health
coverage. Id. The state did not estimate the effects
these amendments would have on Medicaid coverage.
CMS held a public-comment period from July 11 to August 10, 2017, and numerous organizations offered their
views and analysis of the changes.
On March 5, 2018, the Secretary approved the work
requirements and limits to retroactive coverage, concluding that they were “likely to assist in improving
health outcomes” and “incentivize beneficiaries to engage in their own health care.” AR 2-4. Under the
new work requirements, most able-bodied adults in the
Medicaid expansion population ages 19 to 49 must complete each month 80 hours of employment or other qualifying activities—or earn income equivalent to 80 hours
of work. Id. Compliance was required to be reported

31a
monthly through an online portal. See AR 29. Various groups of persons are exempt, including the medically frail, pregnant women, full-time students, and persons in drug- or alcohol-treatment programs. See AR
28. Nonexempt individuals who do not report sufficient qualifying hours for any three months in a plan
year are disenrolled from Medicaid for the remainder of
that year and not permitted to re-enroll until the following plan year. See AR 14, 30-31. The work requirements took effect for persons age 30 to 49 on June 1,
2018, and for persons age 20 to 29 on January 1, 2019.
See ECF No. 26-3 (Arkansas Works Eligibility and Enrollment Monitoring Plan) at 7-8. As to retroactive
coverage, the Secretary approved a reduction from the
three months required by the Act to one month; the
more drastic proposal of eliminating such coverage entirely was abandoned, as was the Governor’s request to
reduce eligibility down to 100% of the FPL. See AR
12, 22.
According to Arkansas’s Department of Human Services, only a small percentage of the persons required to
report compliance with the work requirements actually
did so during the first six months of the program. In
October, for example, only 12.3% (1687 out of 13653) of
persons not exempt from the requirements reported any
kind of qualifying activity. See ECF No. 42-1 (Arkansas Works Reports June-November 2018) at 47, 52.
Since the program began, more than 16,900 individuals
have lost Medicaid coverage for some period of time for
not reporting their compliance. Id. at 18, 27, 36, 45.
It is not known what percentage of these individuals
completed the work requirements but did not report
versus those who did not engage in the work itself.

32a
2.

Kentucky HEALTH

Arkansas was not the only state interested in the new
administration’s proposal to rethink the Medicaid Expansion. The Commonwealth of Kentucky proposed a
demonstration project—called Kentucky HEALTH—
with similar community-engagement requirements and
cutbacks to retroactive coverage. (It also contained
other elements not relevant here.) Kentucky, unlike
Arkansas, did estimate the coverage effects of its project, explaining that thousands of persons would lose
their Medicaid benefits over the course of the project;
indeed, their estimate corresponded to about 95,000 persons losing Medicaid for one full year. As it did in Arkansas, the Secretary approved that project on the ground
that it was likely to “improv[e] health outcomes” and “increas[e] individual engagement in health care decisions.”
Stewart I, 313 F. Supp. 3d at 258 (quoting AR 7).
Before the project took effect, several Medicaid recipients challenged the Secretary’s approval in this Court.
They argued, among other things, that the agency had
failed to adequately explain why Kentucky HEALTH
promoted the objectives of Medicaid and that approval
of the project exceeded HHS’s statutory authority.
The Court concluded that the plaintiffs were right in one
central and dispositive respect: “[T]he Secretary never
adequately considered whether Kentucky HEALTH
would in fact help the state furnish medical assistance to
its citizens, a central objective of Medicaid.” Id. at 243.
It therefore vacated the Secretary’s approval and remanded the matter to the agency for further consideration. Id. at 273.
HHS has since reopened the comment period and
subsequently reapproved Kentucky’s project, offering

33a
additional explanation for why the project advances the
objectives of the Medicaid Act. The parties have now
come back to the Court and filed cross-motions for summary judgment in that case. The Court issues a separate Opinion today resolving those motions, which it will
refer to as Stewart II.
C.

Procedural History

Several Arkansas residents filed this lawsuit in August 2018. They assert that the Secretary’s approval
of the Arkansas Works Amendments was arbitrary and
capricious, in excess of his statutory authority, and in
violation of the Take Care Clause of the Constitution.
Because it was designated as related to Stewart I, see
ECF No. 2, the case was directed to this Court. While
Defendants objected to the related-case designation, see
ECF No. 17, the Court determined that the cases’ common legal and factual issues militated in favor of its retaining the matter. See Minute Order of Sept. 12, 2018.
The State of Arkansas has since intervened as a Defendant, and numerous amici have also joined the fray. Dueling Cross-Motions for Summary Judgment are now
ripe.
II.

LEGAL STANDARD

The parties have cross-moved for summary judgment on the administrative record. The summaryjudgment standard set forth in Federal Rule of Civil
Procedure 56(c), therefore, “does not apply because of
the limited role of a court in reviewing the administrative record.” Sierra Club v. Mainella, 459 F. Supp. 2d
76, 89 (D.D.C. 2006); see also Bloch v. Powell, 227
F. Supp. 2d 25, 30 (D.D.C. 2002), aff ’d, 348 F.3d 1060
(D.C. Cir. 2003). “[T]he function of the district court is

34a
to determine whether or not as a matter of law the evidence in the administrative record permitted the agency
to make the decision it did.” Sierra Club, 459 F. Supp.
2d. at 90 (quotation marks and citation omitted).
“Summary judgment is the proper mechanism for deciding, as a matter of law, whether an agency action is supported by the administrative record and consistent with
the [Administrative Procedure Act] standard of review.”
Loma Linda Univ. Med. Ctr. v. Sebelius, 684 F. Supp. 2d
42, 52 (D.D.C. 2010) (citation omitted).
The Administrative Procedure Act “sets forth the full
extent of judicial authority to review executive agency
action for procedural correctness.” FCC v. Fox Television Stations, Inc., 556 U.S. 502, 513 (2009). It requires courts to “hold unlawful and set aside agency action, findings, and conclusions” that are “arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.” 5 U.S.C. § 706(2). Agency action
is arbitrary and capricious if, for example, the agency
“entirely failed to consider an important aspect of the
problem, offered an explanation for its decision that
runs counter to the evidence before the agency, or is so
implausible that it could not be ascribed to a difference
in view or the product of agency expertise.” Motor Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm Mut. Auto.
Ins. Co., 463 U.S. 29, 43 (1983).
In other words, an agency is required to “examine the
relevant data and articulate a satisfactory explanation
for its action including a rational connection between the
facts found and the choice made.” Id. at 43 (quoting
Burlington Truck Lines v. United States, 371 U.S. 156,
168 (1962)) (internal quotation marks omitted). Courts,
accordingly, “do not defer to the agency’s conclusory or

35a
unsupported suppositions,” United Techs. Corp. v.
Dep’t of Def., 601 F.3d 557, 562 (D.C. Cir. 2010) (quoting
McDonnell Douglas Corp. v. Dep’t of the Air Force, 375
F.3d 1182, 1187 (D.C. Cir. 2004)), and “agency ‘litigating
positions’ are not entitled to deference when they are
merely [agency] counsel’s ‘post hoc rationalizations’ for
agency action, advanced for the first time in the reviewing court.” Martin v. Occupational Safety & Health
Review Comm’n, 499 U.S. 144, 156 (1991) (citation omitted). Although a reviewing court “may not supply a
reasoned basis for the agency’s action that the agency
itself has not given,” a decision that is not fully explained
may, nevertheless, be upheld “if the agency’s path may
reasonably be discerned.” Bowman Transp., Inc. v.
Arkansas-Best Freight System, Inc., 419 U.S. 281, 28586 (1974) (citation omitted).
III. ANALYSIS

The Court, as it must, first addresses whether there
is subject-matter jurisdiction before proceeding to the
merits of Plaintiffs’ challenges.
A.

Jurisdiction

Unlike in Stewart I, Defendants do not contest Plaintiffs’ standing to challenge the Secretary’s approval of
the Arkansas Works Amendments as a whole. The
Court, nevertheless, has an independent duty to assure
that it has subject-matter jurisdiction in this case. See
Kaplan v. Cent. Bank of Islamic Repub. of Iran, 896 F.3d
501, 509 (D.C. Cir. 2018). To establish standing under
Article III, Plaintiffs must show that they have suffered
a concrete injury that is fairly traceable to the challenged conduct and that is likely to be redressed by a

36a
favorable judicial decision. See Lujan v. Defs. of Wildlife, 504 U.S. 555, 590 (1992). On review, the Court easily concludes that at least one Plaintiff has established
all three elements. Consider, for example, Adrian
McGonigal, whom we encountered in this Opinion’s
opening paragraph. He attests that he has lost his Medicaid coverage as a result of the community-engagement
requirement and has thus been unable to pay for certain
medical bills and prescription drugs. See ECF No.
27-3 (McGonigal Declaration).
Or look to Russell
Cook, also mentioned in the introduction, who avers that
he will be unable to meet the community-engagement
requirement once it applies to him and thus believes that
loss of his health-care coverage is imminent. See ECF
No. 27-7 (Cook Declaration). From these declarations
and others submitted with Plaintiffs’ Motion, there is little doubt that at least one Plaintiff has suffered an injury (or will suffer an injury in the future)—the loss of
Medicaid coverage—that is attributable to the Secretary’s approval of AWA, and that a favorable decision
from the Court would redress it. See NB ex rel. Peacock v. District of Columbia, 682 F.3d 77, 82-83 (D.C.
Cir. 2012).
While standing is thus easily established for their
claim challenging the project as a whole, the state of Arkansas attacks Plaintiffs’ standing to make one of their
arguments. It specifically says that no Plaintiff may
challenge Arkansas Works’ online-only reporting requirements because the state changed its policy before
this suit so as to allow reporting by phone or in person.
See ECF No. 39 (Arkansas MSJ) at 34. There is no
need for the Court to weigh in here. Because it resolves this case based on the challenge to the Arkansas
Works Amendments writ large, the Court declines to

37a
decide whether certain Plaintiffs have standing to challenge this particular part of the project.
B.

Merits

With that threshold issue easily dispatched, the Court
turns to the merits. Plaintiffs’ central position is identical to that of the challengers in Stewart I: the Arkansas Works Amendments “fundamentally alter the design and purpose of Medicaid.” ECF No. 27 (MSJ) at
13. They thus assail the Secretary’s approval of the
Amendments on similar fronts. First, with regard to
the project as a whole, Plaintiffs assert that HHS did not
sufficiently consider whether it would promote the objectives of Medicaid, including how it would affect the
provision of medical assistance to the needy. Second,
they maintain that the Secretary lacked statutory authority to approve numerous aspects of AWA. Finally,
Plaintiffs posit that a letter CMS issued in January 2018
violates the APA because it did not go through notice
and comment. As in Stewart I, the Court only needs to
consider the first of these contentions: “whether the
Secretary acted arbitrarily or capriciously in concluding
that [Arkansas Works] was ‘likely to assist in promoting
the objectives’ of the Medicaid Act.” Stewart I, 313
F. Supp. 3d at 259 (quoting 42 U.S.C. § 1315(a)).
Under that deferential standard, the Court “is not
empowered to substitute its judgment for that of the
agency.” Citizens to Preserve Overton Park, Inc. v.
Volpe, 401 U.S. 402, 416 (1971). Nor can it “presume
even to comment upon the wisdom of [Arkansas’s] effort
at [Medicaid] reform.” C.K. v. N.J. Dep’t of Health &
Human Servs., 92 F.3d 171, 181 (3d Cir. 1996). Still, it
is a fundamental principle of administrative law that

38a
“agencies are required to engage in reasoned decisionmaking.” Michigan v. EPA, 135 S. Ct. 2699, 2706 (2015)
(internal quotation marks omitted). This means that
an agency must “examine all relevant factors and record
evidence.” Am. Wild Horse Pres. Campaign v. Perdue,
873 F.3d 914, 923 (D.C. Cir. 2017). At minimum, the
Secretary cannot “entirely fail[] to consider an important aspect of the problem.” Motor Vehicle Mfrs.
Ass’n v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43
(1983). Rather, he must “adequately analyze . . .
the consequences” of his actions. See Am. Wild Horse,
873 F.3d at 932. In doing so, “[s]tating that a factor
was considered . . . is not a substitute for considering it.” Getty v. Fed. Savs. & Loan Ins. Corp., 805 F.2d
1050, 1055 (D.C. Cir. 1986). The agency must instead
provide more than “conclusory statements” to prove it
“consider[ed] [the relevant] priorities.” Id. at 1057.
With that framework in mind, Plaintiffs’ position is
simple: “The purpose of [] Medicaid” is to enable states
“to furnish health care coverage to people who cannot
otherwise afford it.” MSJ at 1, 15. Yet the Secretary,
just as in Stewart I, “failed to consider adequately” the
impact of the proposed project on Medicaid coverage.
See Am. Wild Horse, 873 F.3d at 923. Indeed, he neither offered his own estimates of coverage loss nor grappled with comments in the administrative record projecting that the Amendments would lead a substantial
number of Arkansas residents to be disenrolled from
Medicaid. Those omissions, they urge, make his decision arbitrary and capricious.
Plaintiffs are correct. As Opening Day arrives, the
Court finds its guiding principle in Yogi Berra’s aphorism, “It’s déjà vu all over again.” In other words, as

39a
the Secretary’s failures here are nearly identical to
those in Stewart I, the Court’s analysis proceeds in the
same fashion. It begins with the basic deficiencies in
the Secretary’s approval in this case and then examines
Defendants’ counterarguments.
1.

The Secretary’s Consideration of Medicaid’s
Objectives

Before approving a demonstration or pilot project,
the Secretary must identify the objectives of Medicaid
and explain why the project is likely to promote them.
As it did in Stewart I, the Court assumes that the Secretary’s identification of those objectives is entitled to
Chevron deference. That is, in reviewing his interpretation, the Court must first ask whether “Congress has
directly spoken to the precise question at issue,” and, if
not, whether “the agency’s answer is based on a permissible construction of the statute.” Chevron U.S.A., Inc.
v. Nat’l Res. Def. Council, Inc., 467 U.S. 837, 842-43
(1984). According such deference is not of much practical significance here, however, because the Secretary
agrees with the Court’s understanding of a “core objective” of the Medicaid Act. See ECF No. 52 (HHS Reply) at 5.
In Stewart I, the Court explained that “one of Medicaid’s central objectives” is to “furnish medical assistance” to persons who cannot afford it. See 313 F. Supp.
3d at 243, 261, 266, 273. That conclusion followed ineluctably from § 1396-1 of the Act, which provides that
Congress appropriated Medicaid funds “[f]or the purpose
of enabling each State, as far as practicable under the
conditions in such State, to furnish (1) medical assistance . . . [to] individuals[] whose income and resources are insufficient to meet the costs of necessary

40a
medical services, and (2) rehabilitation and other services to help such families and individuals attain or retain capability for independence or self-care.” Case
law discussing the program’s objectives confirms as
much. See, e.g., Schweiker v. Hogan, 453 U.S. 569, 571
(1982) (explaining that Congress established Medicaid
“for the purpose of providing federal financial assistance to States that choose to reimburse certain costs of
medical treatment for needy persons”); W. Va. Univ.
Hosps. Inc. v. Casey, 885 F.2d 11, 20 (3d Cir. 1989)
(“[T]he primary purpose of [M]edicaid is to achieve the
praiseworthy social objective of granting health care
coverage to those who cannot afford it.”).
Defendants, as mentioned, agree that providing
health coverage to the needy is a purpose of the Act.
See ECF No. 37 (HHS MSJ) at 12; Ark. MSJ at 13. In
Arkansas’s words, “[T]hat Medicaid coverage is a Medicaid objective is readily apparent from the substantive
provisions of the statute.” Ark. MSJ at 13. The Secretary, in fact, refers to the provision of medical care to
eligible persons as “Medicaid’s core objective.” HHS
Reply at 5 (emphasis added). HHS nevertheless did
not consider whether AWA would advance or impede
that objective.
In his approval letter, the Secretary explained that
he considered the following objectives of the Medicaid
Act:
(1) “whether the demonstration as amended
was likely to assist in improving health outcomes”; (2)
“whether it would address behavioral and social factors
that influence health outcomes”; and (3) “whether it
would incentivize beneficiaries to engage in their own
health care and achieve better health outcomes.” AR
4. Those are substantially the same objectives HHS

41a
considered when it first approved the Kentucky program. See Stewart I, 313 F. Supp. 3d at 261-62.
What the Court said in that case thus holds true here:
“While those may be worthy goals, there [i]s a notable
omission from the list”—namely, whether the project
would “help or hurt [Arkansas] in ‘funding . . . medical services for the needy.’ ” Id. (quoting Alexander v.
Choate, 469 U.S. 287, 289 n.1 (1985)). By his own description, the Secretary “entirely failed to consider” this
question. See State Farm, 463 U.S. at 43.
The Government conceded as much at oral argument,
stating that HHS’s Arkansas approval letter no more
addresses the program’s effects on Medicaid coverage
than the Kentucky approval letter before the Court in
Stewart I. See Tr. at 6-7. Because this is a separate
administrative decision on review in a separate case,
however, a brief assessment of the deficiency is instructive. To “adequately analyze” the issue of coverage,
Am. Wild Horse, 873 F.3d at 932, the Secretary needed
to consider whether the demonstration project would be
likely to cause recipients to lose coverage and whether
it would cause others to gain coverage. He did neither.
a. Risk to Coverage
The Secretary’s approval letter did not consider
whether AWA would reduce Medicaid coverage. Despite acknowledging at several points that commenters
had predicted coverage loss, the agency did not engage
with that possibility. For example, after mentioning
that commenters had “expressed concerns that these requirements would . . . create barriers to coverage,”
the Secretary responded that “[t]he state has pledged to
do beneficiary outreach and education on how to comply” and has created an “easy” online reporting system.

42a
See AR 6. He also pointed to exemptions built into the
project and to Arkansas’s assurances that it will allow
for “reasonable modifications” for beneficiaries unable
to meet the requirements. Id. But those statements
did not grapple with the coverage issue. Not only did
they fail to address whether coverage loss would occur
as predicted, but they also ignored that commenters had
projected that such loss would happen regardless of the
exemptions and the education and reporting processes;
indeed, some comments pinpointed online-only reporting as a source of coverage loss. See, e.g., AR 1272,
1287.
Later, HHS noted again many commenters’ view that
community-engagement requirements would “create
barriers to coverage for non-exempt people who might
have trouble accessing care.” AR 6. Instead of addressing that issue, however, it merely said: “We believe that the community engagement requirements create appropriate incentives for beneficiaries to gain employment.” Id. That position says nothing about the
risk of coverage loss those requirements create. The
bottom line: the Secretary did no more than acknowledge
—in a conclusory manner, no less—that commenters
forecast a loss in Medicaid coverage. But “[s]tating
that a factor was considered . . . is not a substitute
for considering it.” Getty, 805 F.2d at 1055. His decision thus falls short of the kind of “reasoned decisionmaking” the APA requires. See Michigan, 135
S. Ct. at 2706.
Defendants argue that the Secretary did not need to
—and perhaps was not even able to—provide a numeric
estimate of coverage loss. See HHS MSJ at 21; Ark.
MSJ at 24. While producing an empirical prediction of

43a
coverage loss does not seem like too much to ask of the
expert agency tasked with supervising Medicaid programs in all 50 states, the Court does not need to decide
whether such an estimate is required. Here, numerous
commenters predicted that substantial coverage loss
would occur; a table cataloguing the relevant comments
is included at the end of this Opinion in an Appendix.
See, e.g., AR 1269 (Arkansas Advocates noting that requirement “will increase the rate of uninsured Arkansans”); AR 1277 (American Congress Obstetricians and
Gynecologists explaining that “[t]he experience of the
TANF program . . . demonstrates that imposing
work requirements on Medicaid beneficiaries would
. . . lead to the loss of health care coverage for substantial numbers of people who are unable to work or
face major barriers to finding and retaining employment.”); see also ECF No. 33 (Amicus Brief of Deans,
Chairs, and Scholars) at 14. Under these circumstances, the agency must grapple with the risk of coverage loss. See Nat’l Lifeline Assoc. v. FCC, 915 F.3d 19,
30-31 (D.C. Cir. 2019).
The Secretary should explain, for example, whether
it agrees with the commenters’ coverage predictions.
If so, it might elucidate whether it expects the loss to be
minor or substantial, and how that weighs against the
advancement of other Medicaid objectives. Nothing close
to this appears in the Secretary’s approval letter. That
does not mean that the Government must “recit[e] and
refut[e] every objection submitted in opposition to the
proposed demonstration.” HHS MSJ at 22. It just
means that, at a minimum, the agency cannot “entirely
fail[] to consider an important aspect of the problem,”
repeatedly raised in the comment period. See State
Farm, 463 U.S. at 43.

44a
Arkansas maintains that the Secretary did not need
to consider any reduction in coverage because it—unlike
Kentucky—did not predict that the project would even
cause coverage loss. See Ark. MSJ at 24. But the
state’s failure in that respect does not alter HHS’s inquiry. Under the Medicaid Act, the Secretary may approve only those demonstration projects that are “likely
to assist in promoting the objectives of [Medicaid],” and
the parties agree that the provision of health coverage
is a “central” objective of the Act. See 42 U.S.C.
§ 1315(a); HHS MSJ at 12-13; Ark. MSJ at 13. Whether a state gives the Secretary excellent data or no data
at all about coverage, his duty remains the same: to
determine whether the proposed project will promote
the objectives of the Act, including whether it advances
or hinders the provision of health coverage to the needy.
If it were otherwise, HHS could approve a project that
would decimate Medicaid coverage without so much as
addressing the issue where the state did not submit its
own estimate of coverage loss. Even putting to one
side the agency’s affirmative obligation to address coverage loss, however, the Secretary unquestionably has a
duty to consider that issue where multiple commenters
provide credible forecasts that it will occur. See, e.g.,
AR 1269, 1277, 1285, 1294-95. Here, as has been said,
the agency had and neglected that duty.
In a last attempt to resist this conclusion, the Secretary says that he did not need to consider coverage because he had no obligation to offer any explanation of his
decision to approve a demonstration project. See HHS
MSJ at 22-23; see also Tr. at 9. For support, HHS
points to the regulations governing its approval of
demonstration projects, which do not explicitly require
the Secretary to respond to comments or articulate the

45a
basis for his decision. See HHS MSJ at 22 (discussing
42 C.F.R. § 431.416). The APA, however, requires
more. Where an agency decision is judicially reviewable, as the Court has already held this one is, see Stewart I, 313 F. Supp. 3d at 254-56, the Government “must
give a reason that a court can measure . . . against
the ‘arbitrary or capricious’ standard of the APA.”
Kreis v. Sec’y of Air Force, 866 F.2d 1508, 1514-15 (D.C.
Cir. 1989); see also Coburn v. McHugh, 679 F.3d 924, 934
(D.C. Cir. 2012) (“At the very least, the Board must ‘provide an explanation that will enable the court to evaluate
the agency’s rationale at the time of decision.’ ”) (quoting
Pension Benefit Guar. Corp. v. LTV Corp., 496 U.S. 633,
654 (1990)). HHS’s regulations—which require CMS
to maintain and publish an administrative record of public comments, any CMS responses, and a written approval or disapproval letter—are fully consonant with
this axiomatic administrative-law requirement. See
42 C.F.R. § 431.416(f ). The argument that no explanation for the Secretary’s decision is required thus does
not save it.
b. Promote Coverage
At the same time that he failed to consider the risk to
coverage, the Secretary identified only one element of
the Amendments that might promote health coverage.
In a single sentence, he noted that “a more limited period of retroactive eligibility will encourage beneficiaries to obtain and maintain health coverage, even when
they are healthy.” AR 8. Little needs to be said on
this score. It is well established that “conclusory or
unsupported suppositions” do not satisfy the agency’s
obligation to engage in reasoned decisionmaking. See
McDonnell Douglas Corp. v. U.S. Dep’t of Air Force, 375

46a
F.3d 1182, 1187 (D.C. Cir. 2004). That is particularly
so in the face of numerous comments taking the opposite
position. As the American Congress of Obstetricians
and Gynecologists, among others, explained, limiting
retroactive coverage may lead “Medicaid-eligible persons [to] wait even longer to have their conditions
treated to avoid incurring medical bills they cannot
pay.” AR 1279. And when they do eventually arrive
for treatment, they will be covered for less time than
they would have been before AWA took effect, by definition reducing their Medicaid coverage. See AR 1338
(National Health Law Program describing this risk).
HHS’s brief reference to the potential coverage-promoting
effects of the changes to retroactive eligibility thus does
not get it across the line.
2.

Counterarguments

Defendants offer two separate reasons for the Court
to overlook the Secretary’s failure to consider coverage,
neither of which is persuasive. They say first that the
Arkansas Works Amendments promote several other
important objectives of Medicaid, including the health of
Medicaid-eligible persons. Second, Defendants maintain that any deficiency in the administrative record in
this case is cured by the agency’s subsequent approval
of Kentucky’s similar project on remand from the
Court’s decision in Stewart I.
a. Other Objectives
Defendants justify the proposed demonstration project on the ground that, regardless of its effect on Medicaid coverage, it advances other objectives of the Act.
HHS specifically insists, as it did in Stewart I, that the
Secretary was on solid ground in finding that the project

47a
would improve health outcomes, thereby advancing the
goals of Medicaid. See HHS MSJ at 17-18. Faced with
this argument previously, this Court expressed skepticism that health, generally construed, was properly
considered an objective of the Act. See Stewart I, 313
F. Supp. 3d at 266. It ultimately held that the agency’s
“focus on health is no substitute for considering Medicaid’s central concern: covering health costs” through
the provision of free or low-cost health coverage. Id.
The Court reached the same conclusion in response to
assertions that Kentucky HEALTH promoted independence and self-sufficiency. Id. at 271-72. HHS
has offered no argument here that calls those conclusions into question.
Arkansas presses the point in a somewhat different
way, asserting that the provision of Medicaid coverage
is (1) the purpose only of Medicaid appropriations, not
Medicaid, (2) in “irreconcilable tension” with other purposes of the Act, and (3) not applicable to the Medicaid
expansion population. See Ark. MSJ at 10-22. At the
same time, it concedes, seemingly in conflict with its
other contentions, that it is “readily apparent” that
providing “Medicaid coverage for Medicaid-eligible people” is “an objective of Medicaid.” Id. at 13. The
Court has said this before and will say it again: if, as
Arkansas and HHS admit (and this Court has found),
ensuring Medicaid coverage for the needy is a key objective of the Act, the Secretary’s failure to consider the
effects of the project on coverage alone renders his decision arbitrary and capricious; it does not matter that
HHS deemed the project to advance other objectives of
the Act.

48a
While the Court might stop there, a brief foray into
Arkansas’s arguments is nevertheless worthwhile. As
to the first, Medicaid is an appropriations statute enacted pursuant to “Congress’s power under the Spending Clause.” NFIB, 567 U.S. at 542. What better
place could the purpose of a spending program be found
than in the provision that sets up the “purpose” of its
appropriations? Arkansas’s second objection is even
more puzzling. The Court does not understand how
the objectives of a statute all agree was designed to provide free or low-cost medical care to the needy could
nevertheless stand in “irreconcilable tension” with the
goal of providing free or low-cost medical care to that
population. The third sits on more comprehensible
ground, though it yields Arkansas no more success.
Addressing the purpose of the Medicaid expansion in
Stewart I, the Court explained that “the Medicaid statute
—taken as a whole—confirms that Congress intended to
provide medical assistance to the expansion population.”
313 F. Supp. 3d at 269. HHS conceded as much in that
case. Id. Neither party has offered any reason to retreat from that determination.
Defendants’ attempts to find refuge in other purposes of the Act and the propriety of Chevron deference
as to those purposes are thus all hat, no cattle. Because they agree that the provision of low-cost medical
care to Medicaid-eligible persons is a “core” purpose of
the Act, see HHS Reply at 5, there is no legally significant dispute over the meaning of the Medicaid Act.
What matters, instead, is the question addressed above:
whether the Secretary adequately considered this issue.
As has been made abundantly clear, he did not. Perhaps understanding as much, HHS largely attempts to

49a
justify its approval of the project in this case not on the
Arkansas record but on another record entirely.
b. Kentucky Remand
This brings the Court to the argument that leads off
the Secretary’s Reply Brief: that his approval of AWA
“is amply justified by the reasoning in his November 20,
2018, approval of Kentucky’s materially similar project.” HHS Reply at 1. In particular, HHS argues
that the project on review here will, like the one approved on remand in Kentucky, help adults “transition
from Medicaid to financial independence,” thereby enhancing “the fiscal sustainability of Arkansas’s Medicaid
program”—an objective of the Act. Id. at 6. The
Government clarified at oral argument that this is not
merely a contention against vacatur—although it was
principally offered as such—but also an argument in favor of sustaining the Secretary’s approval entirely.
See Tr. at 8-10. The Court addresses the latter position here, leaving the remedy question for the end. In
short, three weighty and independent rationales require
rejecting HHS’s assertion that the Amendments should
be approved based on the record in the Kentucky remand proceeding.
First, it runs headlong into the “fundamental rule of
administrative law” that a reviewing court “must judge
the propriety of such action solely by the grounds invoked by the agency.” SEC v. Chenery Corp., 332 U.S.
194, 196 (1947). Nowhere in the Secretary’s approval letter does he justify his decision based on concerns about
the sustainability of Arkansas’s Medicaid program, or
on a belief that the project will help Medicaid-eligible
persons to gain sufficient financial resources to be able
to purchase private insurance. And the Court “may not

50a
accept [] counsel’s post hoc rationalizations for agency action.” State Farm, 463 U.S. at 50; see also Burlington
Truck Lines, 371 U.S. at 168-69 (“Chenery requires that
an agency’s discretionary order be upheld, if at all, on
the same basis articulated in the order by the agency
itself.”). The Government responded at oral argument
that the Secretary did not need to provide any basis for
his decision approving Arkansas’s proposed project, so
it does not matter on what justification his decision is
judicially upheld. See Tr. at 9-10. The Court has already explained why that assertion is inconsistent with
the APA, see supra at 20-21, and it will not spill more
ink on the matter here.
HHS’s argument suffers from a second and equally
significant flaw. The demonstration project under consideration in Kentucky involves different considerations
from the Arkansas project, and the rationales in favor of
approving one may well not apply to approving the
other. The Secretary said as much in opposing this
case’s designation as related to the Kentucky one. See
ECF No. 17 (“The two cases involve two separate approvals of two distinct projects in two different States.”).
Consider the principal arguments the Secretary relies
upon on remand in Kentucky. First, he says that the
project promotes coverage because in its absence, the
expansion population would have no Medicaid coverage.
See Stewart v. Azar, No. 18-152, ECF No. 108 (HHS
MSJ) at 18-20. A necessary ingredient of this argument appears to be that the Kentucky Governor has conditioned the Commonwealth’s continued expansion of
Medicaid on the Secretary’s approval of the proposed
project. Id. at 19. There is no suggestion that Arkansas’s Governor has made any similar kind of threat with
regard to the Arkansas Works Amendments. Second,

51a
the Secretary justifies the Kentucky program on the
ground that it advances the fiscal sustainability of the
state’s Medicaid program, which is at risk due to Kentucky’s dire budgetary situation. Id. at 15-18. Yet
there is no assertion that Arkansas is suffering from
similar fiscal problems. The Government’s argument
that the Kentucky approval justifies the decision on review in this case is particularly unpersuasive considering these significant differences.
The final reason to reject this argument is the simplest: the justification the Secretary has given for sustaining Kentucky’s program on remand is insufficient
and the Court today rejects it in its latest Opinion in
Stewart. See Stewart v. Azar, No. 18-152, Slip Opinion
at 3 (Mar. 27, 2019) (Stewart II). If the explanation
does not even justify affirmance of Kentucky’s project,
it cannot support upholding a different administrative
decision approving a different state’s project.
* * *
In sum, the Secretary’s approval of the Arkansas
Works Amendments is arbitrary and capricious because
it did not address—despite receiving substantial comments on the matter—whether and how the project
would implicate the “core” objective of Medicaid: the
provision of medical coverage to the needy. Neither
his consideration of other Medicaid Act objectives nor
his subsequent approval of Kentucky’s separate demonstration project cure that deficiency. This failure infected the Secretary’s approval of AWA as a whole, such
that those Amendments are invalid. The Court will
thus grant Plaintiffs full relief on their arbitrary-and-

52a
capricious claim, removing any need to address their separate statutory-authority, APA notice-and-comment, and
constitutional arguments.
C.

Remedy

That leaves only the question of the proper remedy,
which in these circumstances is not small beer. When
a court concludes that agency action is unlawful, “the
practice of the court is ordinarily to vacate the rule.”
Ill. Pub. Telecomms. Ass’n v. FCC, 123 F.3d 693, 693
(D.C. Cir. 1997); Reed v. Salazar, 744 F. Supp. 2d 98, 119
(D.D.C. 2010) (“[T]he default remedy is to set aside
Defendants’ action.”); Sierra Club v. Van Antwerp, 719
F. Supp. 2d 77, 78 (D.D.C. 2010) (“[B]oth the Supreme
Court and the D.C. Circuit Court have held that remand,
along with vacatur, is the presumptively appropriate
remedy for a violation of the APA.”). “[A]lthough vacatur is the normal remedy, [courts] sometimes decline
to vacate an agency’s action.” Allina Health Servs. v.
Sebelius, 746 F.3d 1102, 1110 (D.C. Cir. 2014). That
decision depends on the “seriousness of the order’s deficiencies (and thus the extent of doubt whether the agency
chose correctly) and the disruptive consequences of an interim change.” Allied-Signal, Inc. v. U.S. Nuclear Reg.
Comm’n, 988 F.2d 146, 150-51 (D.C. Cir. 1993) (citation
omitted); see also Standing Rock Sioux Tribe v. U.S.
Army Corps of Engineers, 282 F. Supp. 3d 91, 103
(D.D.C. 2017) (declining to vacate when agency “largely
complied” with statute and could likely substantiate
prior conclusions on remand).
In Stewart I, the Court concluded that both factors
supported vacatur. The Government’s failure to consider an objective of Medicaid was a “major shortcoming” going “to the heart” of his decision. See 313

53a
F. Supp. 3d at 273. And vacatur was not overly disruptive because the project had “yet to take effect” and the
plaintiffs could suffer “serious harm[s]” were Kentucky
HEALTH allowed to be implemented pending further
proceedings. Id. While the journey is somewhat different in this case, the Court arrives at the same destination.
1. Seriousness of Deficiencies
The first factor does not favor the Government. For
starters, in Stewart I, the Court concluded that the same
legal error was a “major shortcoming” going “to the
heart of the Secretary’s decision.” 313 F. Supp. 3d at
273. It explained that the D.C. Circuit has “repeatedly
vacated agency actions with that flaw.” Id. Defendants respond that the Secretary has cured the error
identified in Stewart I on remand, so it will assuredly be
able to cure this one upon remand, too. See HHS MSJ
at 28-29; see also Ark. MSJ at 37-38. Not so. As explained at length in Stewart II, the Court finds that the
remand has not cured this “major shortcoming.” See
Slip Op. at 3, 14-45. Because the agency failed to provide a legally sufficient rationale upon remand from
Stewart I, the Court is even less sanguine that it will be
able to do so in this case than when it vacated the Secretary’s Kentucky approval the first time.
This does not mean it will be impossible for the
agency to justify its approval of a demonstration project
like this one. The Court’s decision does not go that far.
But after at least two attempts for Kentucky, it has yet
to do that analysis. Indeed, HHS may find it more difficult to offer a sufficient rationale in its second attempt
in this case than in Kentucky. Arkansas does not ap-

54a
pear to face the kind of fiscal issues asserted in Kentucky; instead, the state’s data suggest that the Medicaid expansion has reduced the amount Arkansas will
spend on health care for this population between 2017
and 2021. See ECF No. 53-6, Exh. 55 (Final Report of
Arkansas Health Reform Legislative Task Force) (explaining that if Arkansas rejects Medicaid expansion,
“the negative impact to the state budget is approximately $438 [million]” during this time frame). It
stands to reason that the state will have an uphill climb
making the case that the expansion has pressed its annual
budget, such that eligible persons should be pushed off
the rolls. Such fiscal considerations would, in any
event, need to be balanced against the more than 16,000
persons who have already lost their coverage because of
the new requirements. See Arkansas Works Reports
at 18, 27, 36, 45. The upshot is that the road to cure the
deficiency in this case is, at best, a rocky one, strongly
weighing in favor of vacatur.
2. Seriousness of Disruption
The second factor is a closer call. Arkansas began
implementing its demonstration project in June 2018,
imposing work requirements on adults ages 30-49 and
implementing the changes to retroactive coverage; it began enforcing work requirements as to adults ages 1929 in January 2019. HHS and Arkansas assert that
any interruption in the project would be enormously disruptive because it would interfere with the “State’s data
collection efforts,” HHS Reply at 22, and “undermine”
its “extensive efforts to educate Arkansas Works beneficiaries” on the work requirements. See Ark. MSJ at
38-39. They emphasize that, because the Kentucky

55a
program had not yet taken effect at the time of its vacatur, these concerns were not present in Stewart I. Id.
The Court is not insensitive to the practical concerns
Defendants raise about pausing enforcement of the
Amendments, nor does it take lightly the effect of its
ruling upon the state today. For the reasons that follow, however, it finds that the probable disruptions are
not so significant as to require deviation from the ordinary rule of vacatur.
Consider first the nature and extent of the disruptions. If the Court vacates the Secretary’s approval of
AWA, the state would no longer condition certain Medicaid recipients’ coverage on reporting 80 hours of qualifying activities each month and would restore the number of months of retroactive coverage to three. In
other words, vacatur would return matters to the way they
were before the project was approved. Both changes,
HHS asserts, will disrupt the state’s data-collection efforts. See HHS MSJ at 29. If Arkansas—as the party
responsible for collecting and analyzing data from the
project—has concerns about data collection in the event
of vacatur, it does not say as much. See Ark. MSJ at
38-40 (mentioning only disruptive effects on education
and outreach); ECF No. 45 (Ark. Reply) (same). Indeed, one amicus points out that the Secretary approved
this project without “a proposed evaluation design.”
See Amicus Brief of Deans, Chairs, and Scholars at 19-20.
The Court assumes, however, that vacatur would interrupt the state’s efforts to collect data on the effects
of the work requirements and changes to retroactive
coverage. While such concerns are not insignificant,
they are tempered in the context of this case. Experi-

56a
mental projects are intended to help states like Arkansas “test out new ideas” for providing medical coverage
to the needy, thereby influencing the trajectory of the
federal-state Medicaid partnership down the line. See
supra S. Rep. No. 1589 at 1961. If, after further consideration or after prevailing on appeal, the Secretary
and Arkansas wish to move ahead with work requirements, they will remain able to do so in the future. And
if they are dissatisfied with the data gathered from the
initial months of the project because of the interruption
caused by vacatur, Defendants could extend the project
for an additional period of time to collect more information. This is not to minimize the importance of data
collection in the context of an experimental project; it is
just to say that vacatur will have little lasting impact on
HHS’s or Arkansas’s interests. That distinguishes this
case from others in which the D.C. Circuit has declined
to vacate on account of irreversible harms that such
a remedy would inflict on the status quo. See AlliedSignal, 988 F.2d at 151.
Defendants also maintain that vacatur will harm “Arkansas’s education and outreach efforts.” Ark. MSJ at
39. In that regard, they explain that a decision invalidating the work requirements will be confusing to Medicaid recipients who have just recently been informed
that they have to meet those requirements. Id. at 3839. The Court grants that vacatur of work requirements that have already been implemented may send
mixed messages. But any disruption in this respect is
not sufficiently significant to avoid vacatur. For one
thing, Defendants have expressed confidence throughout this case that they can communicate with Medicaid

57a
recipients regarding the terms of the work requirements. See HHS MSJ at 8; Ark MSJ at 27, 34-35. If
that is so, they should be able to inform them that the
requirements are paused for now and, if later reapproved, that they are put back into effect. It bears
mentioning here, however, that the State’s outreach efforts may well be falling severely short. Notably, only
12.3% of persons not exempt from the requirements reported any kind of qualifying activity. See Arkansas
Works Reports June-November 2018 at 47, 52. The
numbers are even lower for several other months. Id.
Arkansas might use the time while the program is
paused to consider whether and how to better educate
persons about the requirements and how to satisfy
them. Admittedly, vacatur could make such outreach
complicated. Ultimately, however, the Court finds that
the harms to prior and ongoing education do not tip the
scales against vacatur.
In fact, the structure of the Amendments, considered
with the timing of this Opinion, renders vacatur less disruptive that might be expected. As mentioned before,
Arkansas Works recipients only lose coverage after
three months of non-compliance with the work requirements. See AR 31. And the three-month clock starts
over at the beginning of the calendar year. Id. Because fewer than three months have elapsed in 2019, the
work requirements have not yet resulted in anyone’s being disenrolled, as such actions cannot take place until
April 1. As a consequence, vacatur of the Amendments
will not require Arkansas to re-enroll persons who
have lost their coverage, with the administrative and
communication-related headaches that might entail.
Instead, it just requires them to communicate to provid-

58a
ers that they should not disenroll persons moving forward on account of the requirements. The bottom line:
“This is not a case in which the ‘egg has been scrambled,’
and it is too late to reverse course.” Allina Health, 746
F.3d at 1110-11 (quoting Sugar Cane Growers Co-op of
Fla. v. Veneman, 289 F.3d 89, 97 (D.C. Cir. 2002)).
Finally, the Court emphasizes that the disruptions to
Arkansas’s administration of its Medicaid program must
be balanced against the harms that Plaintiffs and persons like them will experience if the program remains in
effect. Cf. A.L. Pharma, Inc. v. Shalala, 62 F.3d 1484,
1492 (D.C. Cir. 1995) (explaining that vacatur inappropriate because “nothing in the record suggests that significant harm would result from allowing the approval to
remain in effect pending the agency’s further explanation”); see also Tr. at 13 (conceding that court should consider harms to Plaintiffs as part of equitable inquiry into
vacatur). Arkansas’s own numbers confirm that in 2018,
more than 16,000 persons have lost their Medicaid. Defendants offer no reason to think the numbers will be different in 2019; indeed, once the requirements apply to persons aged 19-29, they seem likely to rise. See Arkansas
Works Reports at 18, 27, 36, 45. Weighing the harms
these persons will suffer from leaving in place a legally deficient order against the disruptions to the State’s datacollection and education efforts due to vacatur renders a
clear answer: the Arkansas Works Amendments cannot
stand.
IV. CONCLUSION

For the foregoing reasons, the Court will grant Plaintiffs’ Motion for Summary Judgment and deny Defend-

59a
ants’ Cross-Motions. A separate Order consistent with
this Opinion will issue this day, remanding the matter to
HHS.
/s/ JAMES E. BOASBERG
JAMES E. BOASBERG
United States District Judge
Date:

Mar. 27, 2019

60a
APPENDIX A
Arkansas Health
Plan Component

CommunityEngagement
Requirement

Comments

AR 1269 (Arkansas Advocates
for Children & Families) (noting that the requirement “will
increase the rate of uninsured
Arkansans” based on comparable effect in TANF program) AR 1277 (American
Congress of Obstetricians and
Gynecologists, et al.) (“The
experience of the TANF program
. . .
demonstrates
that imposing work requirements on Medicaid beneficiaries would . . . lead to the
loss of health care coverage
for substantial numbers of
people who are unable to work
or face major barriers to finding and retaining employment.”); AR 1285 (Families
USA) (“The presence of the
requirement itself will be a
barrier to enrollment, causing
some eligible working individuals to forego applying for
coverage, and will make it
more difficult for some statutorily eligible individuals to
maintain coverage.”); AR 1291
(AARP) (expressing concern

61a
that requirements would “present an unnecessary barrier to
health coverage for a sector of
Arkansas’s population for
whom coverage is critical”);
AR 1294 (Cystic Fibrosis
Foundation) (“We are concerned that this definition [of
medically unfit] does not specify what will qualify an individual for exemption, and that
people with cystic fibrosis may
lose coverage because they are
unable to satisfy the requirement due to health status.”);
AR 1308 (Arkansas Hospital
Association) (“These proposed changes
. . .
will
likely lead to increases in
churn, gaps in coverage, uninsurance and uncompensated
care for hospitals and other
providers.”); AR 1326 (Legal
Aid of Arkansas) (noting that
the requirement “would exclude individuals . . . who
are partially employable but
suffer due to chronic health
conditions”); AR 1337 (National Health Law Program)
(“The end result of this policy
will likely be fewer people
with Medicaid coverage and

62a
more uninsured people delaying treatment.”); AR 1341
(Nat’l Alliance on Mental Illness) (“NAMI Arkansas is
concerned that the implementation of mandatory work requirements could cause substantial numbers of people
with mental illness to lose
health coverage, making it difficult to access mental health
care.”); AR 1364-65 (Urban
Institute Study) (detailing
“coverage losses” as consideration for pending Medicaid
work-related
requirements
nationwide and noting “potential adverse impacts on enrollees who have high health care
needs but who do not qualify
for disability benefits”); AR
1402 (Medicaid and CHIP
Payment and Access Commission) (listing an impact on coverage as implication of Medicaid work requirement and
noting almost every state proposing requirement had estimated a coverage loss). AR
1421 (Kaiser Family Foundation Issue Brief) (arguing that
based on the TANF experience, “a work requirement

63a

Retroactive
Eligibility

might result in eligible people
losing coverage”).
AR 1292 (AARP) (warning
lack of retroactive coverage
would increase debt obligations on previous beneficiaries
and would “increase the burden of uncompensated care on
providers”); AR 1297 (Human
ARC) (“Gaps of time without
medical coverage for the lowincome population that are eligible and applying for Medicaid will be significant.”); AR
1307 (Arkansas Hospital Association) (“AHA is concerned
that the waiver of retroactive
eligibility will result in unanticipated and avoidable gaps
in coverage and healthcare
debt.”); AR 1320 (Cancer Action Network) (stating waiver
of retroactive eligibility “could
place a substantial financial
burden on enrollees and cause
significant disruptions in
care”); AR 1338 (National
Health Law Program) (“The
entirely predictable result will
be . . . more individuals
experiencing gaps in coverage
when some providers refuse to
treat them.”).

64a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

Civil Action No. 19-773 (JEB)
SAMUEL PHILBRICK, ET AL., PLAINTIFFS
v.
ALEX M. AZAR II, ET AL., DEFENDANTS
Filed:

July 29, 2019

MEMORANDUM OPINION

In November 2018, the Secretary of Health and Human Services approved the State of New Hampshire’s
proposal to impose work requirements on a significant
share of its Medicaid recipients. Under the proposal,
most non-disabled Medicaid beneficiaries ages 19 to 64
would be required to demonstrate that they have completed 100 hours of qualifying employment or other
“community-engagement” activities each month (or
show that they satisfy an exemption) or risk losing their
health-care coverage. Four New Hampshire residents
have challenged the Secretary’s approval in this Court,
arguing that it violates the Administrative Procedure
Act and the Constitution.
The issues presented in this case are all too familiar.
In the past year or so, this Court has resolved challenges
to similar programs in Kentucky and Arkansas, each
time finding the Secretary’s approval deficient. See

65a
Stewart v. Azar, 366 F. Supp. 3d 125, 131 (D.D.C. 2019)
(Stewart II); Gresham v. Azar, 363 F. Supp. 3d 165, 169
(D.D.C. 2019); Stewart v. Azar, 313 F. Supp. 3d 237, 243
(D.D.C. 2018) (Stewart I). The overriding shortcoming
in the agency’s decisions in those cases was its failure to
adequately consider the requirements’ effects on Medicaid coverage. Despite conceding that providing medical care to the needy is “Medicaid’s core objective,”
Gresham, 363 F. Supp. 3d at 176 (citation omitted), HHS
did not “offer its own estimates of coverage loss or grapple with comments in the administrative record projecting that the proposal would lead a substantial number of
residents to be disenrolled from Medicaid.” Id. at 175
(cleaned up).
Plaintiffs argue that the Secretary’s approval of New
Hampshire’s plan suffers from the same deficiency and
thus must meet the same fate. The Court concurs.
On their face, these work requirements are more exacting than Kentucky’s and Arkansas’s, mandating 100
monthly hours—as opposed to 80—of employment or
other qualifying activities. They also encompass a
larger age range than in Arkansas, which applied the requirements only to persons 19 to 49. Yet the agency
has still not contended with the possibility that the project would cause a substantial number of persons to lose
their health-care coverage. That omission is particularly startling in light of information before the Secretary about the initial effects of Arkansas’s markedly
similar project—namely, that more than 80% of persons
subject to the requirements had reported no compliance
information for the initial months, and nearly 16,900
people had lost coverage. The agency’s rejoinders—
that the requirements advance other asserted purposes

66a
of Medicaid, such as the health and financial independence of beneficiaries and the fiscal sustainability of the
safety net—are identical to those this Court rejected
with respect to HHS’s 2018 approval of Kentucky’s program. Perhaps seeing the writing on the wall, the Government conceded at oral argument that its reasoning
was deficient in these respects under the analysis in the
Court’s prior Opinions.
In short, we have all seen this movie before. The
Secretary has significant discretion to approve demonstration projects that promote the objectives of the
Medicaid Act, and it is not for the Court to second guess
his policy decisions or substitute its judgment for his.
“But courts retain a role, and an important one, in ensuring that agencies have engaged in reasoned decisionmaking.” Judulang v. Holder, 565 U.S. 42, 53 (2011). At the
heart of this review is an assessment of “whether the decision was based on a consideration of the relevant factors.” Id. (citation omitted). For the fourth time,
HHS has fallen short of this fundamental administrativelaw requirement. The Court will, accordingly, grant
summary judgment to Plaintiffs and vacate the Secretary’s approval of New Hampshire’s communityengagement requirements.
I.

BACKGROUND

The Court begins with a now-familiar overview of the
relevant history and provisions of the Medicaid Act. It
then turns to New Hampshire’s challenged plan before
concluding with the procedural history of this case.
A.

The Medicaid Act

Since 1965, the federal government and the states
have worked together to provide medical assistance to

67a
certain vulnerable populations under Title XIX of the
Social Security Act, commonly known as Medicaid.
See 42 U.S.C. § 1396-1. The Centers for Medicare and
Medicaid Services (CMS), a federal agency within the
Department of Health and Human Services, has primary responsibility for overseeing Medicaid programs.
Under the cooperative federal-state arrangement, participating states submit their “plans for medical assistance” to the Secretary of HHS. Id. To receive federal funding, those plans—along with any material
changes to them—must be “approved by the Secretary.”
Id.; see also 42 C.F.R. § 430.12(c). Currently, all states
have chosen to participate in the program.
To be approved, state plans must comply with certain
minimum parameters set out in the Medicaid Act. See
42 U.S.C. § 1396a (listing 86 separate requirements).
One such provision requires state plans to “mak[e] medical assistance available” to certain low-income individuals. Id. § 1396a(a)(10)(A). Until recently, that group
included pregnant women, children, and their families;
some foster children; the elderly; and people with certain disabilities. Id. In 2010, however, Congress enacted the Patient Protection and Affordable Care Act
(ACA), colloquially known as Obamacare, “to increase
the number of Americans covered by health insurance.”
Nat’l Fed’n of Indep. Business v. Sebelius, 567 U.S. 519,
538 (2012). Of relevance here, that statute required
participating states to expand Medicaid coverage to additional low-income adults under 65 who did not previously qualify. See 42 U.S.C. § 1396a(a)(10)(A)(i)(VIII).
Generally, a state must cover all qualified individuals or
forfeit its federal Medicaid funding. Id. § 1396a(a)(10)(B);

68a
id. § 1396c. That was originally so for the ACA expansion population as well. Id. § 1396c. In NFIB, however, the Supreme Court held that Congress could not,
consistent with the Spending Clause of the Constitution,
condition a state’s entire Medicaid funds on its agreeing
to the expansion. See 567 U.S. at 584-85. As a result,
states could choose not to cover the new population and
lose no more than the funds that would have been appropriated for that group. Id. at 587. If the state, conversely, does decide to provide coverage, those individuals would become part of its mandatory population.
Id. at 585-87 (explaining that Congress may “offer[]
funds under the Affordable Care Act to expand the
availability of health care, and require[] that States accepting such funds comply with the conditions on their
use”). In that instance, the state must afford the expansion group “full benefits”—i.e., it must provide “medical
assistance for all services covered under the State plan”
that are substantially equivalent “in amount, duration,
or scope . . . to the medical assistance available
for [other] individual[s]” covered under the Act. See
42 U.S.C. § 1396d(y)(2)(B); 42 C.F.R. § 433.204(a)(2).
The Medicaid Act, in addition to defining who is entitled to coverage, also ensures what coverage those enrolled individuals receive. Under § 1396a, states must
cover certain basic medical services, see 42 U.S.C.
§§ 1396a(a)(10)(A), 1396d(a), and the statute limits the
amount and type of premiums, deductions, or other costsharing charges that a state can impose on such care.
Id. § 1396a(a)(14); see also id. § 1396o. Other provisions require states to provide up to three months of retroactive coverage once a beneficiary enrolls, id.
§ 1396a(a)(34), and to ensure that recipients receive all

69a
“necessary transportation . . . to and from providers.” 42 C.F.R. § 431.53. Finally, states must “provide such safeguards as may be necessary to assure that
eligibility” and services “will be provided, in a manner
consistent with simplicity of administration and the best
interests of the recipients.” 42 U.S.C. § 1396a(a)(19).
Both before and after the passage of the ACA, a state
accepting federal Medicaid funds is not entirely locked
in; instead, if it wishes to deviate from certain of
the Act’s requirements, it can seek a waiver from the
Secretary of HHS. See 42 U.S.C. § 1315. In particular, Section 1115 of the Social Security Act allows the
Secretary to approve “experimental, pilot, or demonstration project[s] which, in [his] judgment . . . ,
[are] likely to assist in promoting the [Act’s] objectives.”
42 U.S.C. § 1315(a). As conceived, experimental projects were “expected to be selectively approved by the
Department and to be those which are designed to
improve the techniques of administering assistance.”
S. Rep. No. 1589, 87th Cong., 2d Sess. 19, reprinted in
1962 U.S.C.C.A.N. 1943, 1962. Once the Secretary has
greenlighted such a project, he can then waive compliance with the requirements of § 1396a “to the extent and
for the period . . . necessary to enable [the] State
. . . to carry out such project.” Id. § 1315(a)(1).
While the ultimate decision whether to grant § 1115
approval rests with the Secretary, his discretion is
not boundless. Before HHS can act on a waiver application, the state “must provide at least a 30-day public
notice[-]and[-]comment period” regarding the proposed
program and hold at least two hearings at least 20 days
before submitting the application.
See 42 C.F.R.

70a
§§ 431.408(a)(1), (3). Once a state completes those prerequisites, it then sends an application to CMS. Id.
§ 431.412 (listing application requirements). After the
agency notifies the state that it has received the waiver
application, a federal 30-day public-notice period commences, and the agency must wait at least 45 days before rendering a final decision.
Id. §§ 431.416(b),
(e)(1).
B.

Factual Background

1. New Hampshire Granite Advantage
In 2014, New Hampshire, like many states, expanded
Medicaid under the ACA to previously uninsured adults
whose income is 133 percent of the federal poverty line
or less. See AR 17; AR 1949. More than 53,000 individuals have received coverage as a result, helping to reduce the State’s uninsured rate by 45 percent. Id. at
4384. Since 2015, the State has covered this population
through Section 1115 demonstration projects that deviate from traditional Medicaid delivery mechanisms—
first adopting a premium-assistance model and later
shifting to a managed-care system. Id. at 4379. While
New Hampshire has had an interest in work requirements dating back to 2016, id. at 99, it proposed to
amend its demonstration to add the work and communityengagement requirements under consideration in this
suit in 2018. Id. at 4377.
As proposed, the project—now called Granite
Advantage—requires most non-disabled adults aged 19
to 64 to complete 100 hours per month of employment or
other community activities. Id. at 4. Certain categories of beneficiaries are exempt, including caregivers for
a dependent child, pregnant women, and the medically

71a
frail. Id. at 5. If a beneficiary does not demonstrate
compliance with the work requirements in a particular
month, she will be sent a notice stating that her Medicaid will be terminated the following month if she does
not make up the hours or show that she qualifies for an
exemption. Id. Once a beneficiary’s coverage is suspended, it can be reactivated by completing 100 hours of
qualifying activities or obtaining an exemption. Id. at
5, 7. Separately, New Hampshire requested as part of
these amendments that HHS allow the State to eliminate all retroactive coverage. Id. at 4377.
The Secretary approved the amendments on November 30, 2018, explaining that they promoted the purposes of the Medicaid Act because they would improve
the “health and wellness” of beneficiaries and enhance
the “fiscal sustainability of the Medicaid program.” Id.
at 1-2. With respect to commenters’ concerns that
some beneficiaries would lose coverage, the agency responded that “the demonstration will provide coverage
to individuals that the state is not required to cover”—
namely, the ACA expansion population. Id. at 10. Indeed, because “the state plans to end its current coverage of the new adult group” in the event the project were
not approved, HHS says, Granite Advantage necessarily
increases coverage. Id. at 6, 10. The agency further
explained that the requirements were “not designed to
encourage” coverage loss and are “intended to [be]
achievable,” citing certain exemptions and safeguards
that are meant to reduce the likelihood of persons improperly losing their Medicaid. Id. at 10-11.
While the new requirements could have been implemented under this approval beginning January 1, 2019,
id. at 1, they have still not been put into full effect.

72a
New Hampshire, after several initial delays, required
beneficiaries to submit qualifying hours or proof of an
exemption this past June. See ECF No. 1 (Complaint),
¶ 10. Under that timeframe, persons who did not satisfy the reporting obligations would lose their coverage
on August 1. Id. As of July 8, 2019, however, approximately 17,000 non-exempt beneficiaries (out of about
25,000 total) had not reported any compliance information to the New Hampshire Department of Health
and Human Services. See ECF No. 44-2 (Jeffrey A.
Meyers Letter, July 8, 2019) at 3. Citing this consideration and emphasizing the difficulty the State has had in
communicating with persons subject to the communityengagement requirements, the Department announced
that it was further delaying implementation until September 30, 2019. See ECF No. 44 (Notice) at 2. Under the new implementation plan, Medicaid beneficiaries who do not report compliance with the requirements
would lose coverage beginning December 1. Around the
same time, the New Hampshire Legislature amended the
program in several respects, including by expanding the
scope of the exemptions. The State explained that it
plans to seek reapproval of such amendments from CMS
over the next several months. See Oral Argument
Transcript (Provisional) at 3, 17.
2. Other CMS Approvals
New Hampshire is not the only state that has been
interested in work requirements. As noted at the
start, CMS has approved similar proposals submitted by
Kentucky and Arkansas, each of which has been challenged and struck down in this Court. Kentucky’s
program—called Kentucky HEALTH—mirrors New

73a
Hampshire’s in many respects. As relevant here, it requires non-exempt adults aged 19 to 64 who receive coverage through the expansion to complete and report 80
hours per month of qualifying activities, such as employment, education, or job training. See Stewart I, 313
F. Supp. 3d at 246. The failure to do so or to report an
exemption results in the termination of Medicaid coverage. Id. at 246-47.
Before the requirements took effect in the Commonwealth, several Medicaid recipients sought judicial review of HHS’s approval. Id. at 248. They argued,
among other things, that the agency had failed to adequately explain why Kentucky HEALTH promoted the
objectives of Medicaid and that the approval of the project exceeded the Secretary’s statutory authority. The
Court agreed with Plaintiffs in one central and dispositive respect: “[T]he Secretary never adequately considered whether Kentucky HEALTH would in fact help
the state furnish medical assistance to its citizens, a central objective of Medicaid.” Id. at 243. It therefore
vacated the Secretary’s approval and remanded the
matter to the agency for further consideration. Id. at
273-74. HHS subsequently reopened the comment period and reapproved Kentucky’s project on November
20, 2018. The agency reasoned, along substantially
similar lines as it did ten days later when it approved
New Hampshire’s project, that Kentucky HEALTH advanced the Medicaid Act’s objectives because it would 1)
promote the health and financial independence of beneficiaries, a justification the Court had found wanting in
the first round, 2) increase coverage because it allows
Kentucky to cover the expansion population when it
would not do so otherwise, and 3) advance the fiscal sus-

74a
tainability of the state’s Medicaid program. See Stewart II, 366 F. Supp. 3d at 138. Believing these justifications still unsatisfactory, the Bluegrass State plaintiffs returned to this Court, which again concurred.
Concluding that the agency’s previous rationales fared
no better and that its new explanation still failed to
grapple with the possibility of coverage loss, the Court
vacated the approval. Id. at 138-39.
Arkansas’s project, named the Arkansas Works
Amendments, followed a similar, although abbreviated,
path. The State proposed to require most able-bodied
beneficiaries in the expansion population aged 19 to 49
to complete 80 hours of qualifying employment or other
activities. See Gresham, 363 F. Supp. 3d at 172. Nonexempt individuals who did not report sufficient qualifying hours for three consecutive months in a calendar
year would be disenrolled from Medicaid for the remainder of that year. Id. The Secretary approved the requirements on March 5, 2018, and their roll-out was
staged through 2018 and early 2019. Id. During the
first six months after implementation, however, “only a
small percentage of the persons required to report compliance . . . actually did so”—in October 2018, only
12.3% reported any kind of qualifying activities—and
more than 16,900 persons lost Medicaid coverage for
some period of time as a result. Id. Several beneficiaries challenged the program under the APA, and,
finding the Secretary’s explanation deficient for the
same reasons as in its first Kentucky decision, the Court
vacated his approval. Id. at 175. The Court’s decisions as to both of those cases are now on appeal before
the D.C. Circuit. See Case Nos. 19-5094, 19-5095,
19-5096, 19-5097. No oral argument date has yet been
set.

75a
C.

Procedural History

Believing with Shakespeare that what’s past is prologue, four New Hampshire residents filed this lawsuit
on March 20, 2019. Like the plaintiffs in Arkansas and
Kentucky, they assert that the Secretary’s approval of
the proposed community-engagement requirements violates the APA and the Constitution. Because it was
designated as related to Stewart and Gresham, the case
was directed to this Court. See ECF Nos. 2-3. The
State of New Hampshire has since intervened as a Defendant, and numerous amici have also weighed in.
Dueling Cross-Motions for Summary Judgment are now
ripe, and the Court held a hearing on July 23, 2019.
II.

LEGAL STANDARD

The parties have cross-moved for summary judgment
on the administrative record. The summary-judgment
standard set forth in Federal Rule of Civil Procedure
56(c), therefore, “does not apply because of the limited
role of a court in reviewing the administrative record.”
Sierra Club v. Mainella, 459 F. Supp. 2d 76, 89 (D.D.C.
2006); see also Bloch v. Powell, 227 F. Supp. 2d 25, 30
(D.D.C. 2002), aff ’d, 348 F.3d 1060 (D.C. Cir. 2003).
“[T]he function of the district court is to determine
whether or not as a matter of law the evidence in the
administrative record permitted the agency to make the
decision it did.” Sierra Club, 459 F. Supp. 2d. at 90
(quotation marks and citation omitted). “Summary
judgment is the proper mechanism for deciding, as a
matter of law, whether an agency action is supported by
the administrative record and consistent with the [Administrative Procedure Act] standard of review.”
Loma Linda Univ. Med. Ctr. v. Sebelius, 684 F. Supp. 2d
42, 52 (D.D.C. 2010) (citation omitted).

76a
The Administrative Procedure Act “sets forth the full
extent of judicial authority to review executive agency
action for procedural correctness.” FCC v. Fox Television Stations, Inc., 556 U.S. 502, 513 (2009). It requires courts to “hold unlawful and set aside agency action, findings, and conclusions” that are “arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.” 5 U.S.C. § 706(2). Agency action
is arbitrary and capricious if, for example, the agency
“entirely failed to consider an important aspect of the
problem, offered an explanation for its decision that
runs counter to the evidence before the agency, or is so
implausible that it could not be ascribed to a difference
in view or the product of agency expertise.” Motor Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm Mut. Auto.
Ins. Co., 463 U.S. 29, 43 (1983).
In other words, an agency is required to “examine the
relevant data and articulate a satisfactory explanation
for its action including a rational connection between the
facts found and the choice made.” Id. at 43 (quoting
Burlington Truck Lines, Inc. v. United States, 371 U.S.
156, 168 (1962)) (internal quotation marks omitted).
Courts, accordingly, “do not defer to the agency’s conclusory or unsupported suppositions,” United Techs.
Corp. v. Dep’t of Def., 601 F.3d 557, 562 (D.C. Cir. 2010)
(quoting McDonnell Douglas Corp. v. Dep’t of the Air
Force, 375 F.3d 1182, 1187 (D.C. Cir. 2004)), and “agency
‘litigating positions’ are not entitled to deference when
they are merely [agency] counsel’s ‘post hoc rationalizations’ for agency action, advanced for the first time in
the reviewing court.” Martin v. Occupational Safety &
Health Review Comm’n, 499 U.S. 144, 156 (1991) (citation omitted). Although a reviewing court “may not
supply a reasoned basis for the agency’s action that the

77a
agency itself has not given,” a decision that is not fully
explained may nevertheless be upheld “if the agency’s
path may reasonably be discerned.” Bowman Transp.,
Inc. v. Arkansas-Best Freight System, Inc., 419 U.S.
281, 285-86 (1974) (citation omitted).
III.

ANALYSIS

Just as their predecessors did, Plaintiffs here challenge the Secretary’s approval of New Hampshire’s
demonstration project on a number of different grounds,
including that it was arbitrary and capricious, in excess
of statutory authority, and in violation of the Take Care
Clause of the U.S. Constitution. As in its three previous Opinions, the Court need only address the first to
resolve this case. Before turning to that issue, however, it begins with jurisdiction.
A.

Jurisdiction

While Defendants largely do not contest whether
subject-matter jurisdiction exists in this case, the Court
has an independent duty to assure as much. See Steel
Co. v. Citizens for a Better Environment, 523 U.S. 83,
94-95 (1998). Two potential hurdles stand across Plaintiffs’ path. The first is whether the Secretary’s decision is “committed to agency discretion by law” and is
therefore unreviewable under the APA. See 5 U.S.C.
§ 701(a)(2). HHS insisted in Stewart I that its determination to approve a Section 1115 demonstration project fell within this exception to the general presumption
that administrative action is judicially reviewable. After a lengthy discussion, the Court agreed with “every
court which has considered the issue” and found that the
Secretary’s approval was “subject to APA review.”
313 F. Supp. 3d at 256 (quoting Beno v. Shalala, 30 F.3d

78a
1057, 1067 & n.24 (9th Cir. 1994)). Apart from a couple
of conclusory sentences in their Opposition and Reply,
Defendants no longer press this objection, and the Court
sees no reason to depart from its prior decision finding
HHS’s decision reviewable.
The second jurisdictional question is whether Plaintiffs have standing to bring this suit. Article III of the
Constitution limits the Court’s jurisdiction to “cases” or
“controversies.” The standing doctrine enforces this
requirement, assuring that courts only decide actual disputes between parties with personal stakes in the outcome. See Clinton v. City of New York, 524 U.S. 417,
429 (1998). To establish standing, Plaintiffs must show
that they have suffered (or will suffer in the future) a
concrete injury that is both fairly traceable to the challenged conduct and likely to be redressed by a favorable
judicial decision. See Lujan v. Defenders of Wildlife,
504 U.S. 555, 590 (1992). While Defendants disputed
the basis of the plaintiffs’ standing in Stewart I, in their
briefing this time around, they generally leave their
powder dry. Upon review, the Court can see why: at
least one Plaintiff clearly has standing.
Only a few sentences are needed to show as much.
Plaintiff Ian Ludders is a forty-year-old Medicaid recipient who will be subject to New Hampshire’s communityengagement requirements. See ECF No. 1 (Compl.),
¶¶ 146-56; ECF No. 19-3 (Declaration of Ian Ludders);
see also ECF 37-2 (Declaration of Henry Lipman) at 2.
Because he maintains a “subsistence lifestyle that prioritizes living off the land” and his work is agricultural and
thus largely seasonal, he does not expect that he will be
able to comply with the new requirements for multiple
months out of the year. See Compl., ¶¶ 147-56. Taken

79a
together, these facts satisfy each of the three standing
requirements: 1) there is a substantial risk that Ludders will lose his Medicaid coverage, thereby injuring
him; 2) this risk is traceable to the Secretary’s approval
of the requirements; and 3) a judicial decision vacating
them is likely to prevent the future injury. It may well
be that Plaintiffs apart from Ludders also have standing, but there is no need to delve into that issue here.
See Comcast Corp. v. FCC, 579 F.3d 1, 6 (D.C. Cir. 2009)
(“[I]f one party has standing in an action, a court need
not reach the issue of the standing of other parties when
it makes no difference to the merits of the case.”).
Defendants separately suggest that none of the
Plaintiffs has standing to challenge one aspect of the
Secretary’s approval: his decision to allow New Hampshire to eliminate retroactive Medicaid coverage. See
ECF No. 30 (HHS Cross-Mot.) at 24. As the Court explained in its prior Opinions, however, it is appropriate
to “examine[] the approval of the project as a whole,”
given the nature of Plaintiffs’ claim and the administrative action under review. Stewart I, 313 F. Supp. 3d at
253. That makes it unnecessary to decide whether any
Plaintiff has standing with respect to this particular
component of the Secretary’s approval.
B.

Merits

Turning to the merits, Plaintiffs principally submit
that the Secretary’s approval of the Granite Advantage
project is arbitrary and capricious because it did not adequately consider the effects of the demonstration project on Medicaid coverage. The Court, as discussed
above, found this argument persuasive in each of its
prior three decisions, and it continues to do so. The

80a
critical issues are thus whether the reasoning in the Secretary’s approval letter meaningfully differs from the
previous three, or whether attributes particular to New
Hampshire’s community-engagement program, as discussed in the approval, suggest coverage-loss concerns
will be less significant.
Defendants’ briefing does not attempt to distinguish
the approval letter or the program from those in Stewart I, Stewart II, and Gresham; indeed, it marches
through its arguments barely acknowledging that the
Court has decided these precise issues before and adversely to HHS. At oral argument, however, the Government effectively conceded that the Secretary’s reasoning in this case cannot be distinguished from his explanations in the prior ones. See Tr. at 2, 10. The
Court likewise finds the records to be indistinguishable.
As discussed in more detail below, CMS’s approval letter mirrors the one in Stewart II, with numerous key
paragraphs matching it word for word. And New
Hampshire’s proposed project presents, if anything,
greater coverage-loss concerns than Kentucky’s and Arkansas’s, given the hours requirement and the age range
to whom it applies.
The Court’s analysis unfolds in two parts. First, it
summarizes the now-familiar view that the core objective of the Medicaid Act is to furnish health-care coverage to the needy and explains why the Secretary failed
to adequately consider that objective here. Turning to
Defendants’ counterarguments—nearly all of which
were addressed at length in Stewart II—the Court will
offer an abbreviated restatement of why the agency’s
consideration of other Medicaid Act objectives does not
remedy this deficiency.

81a
1. Coverage as Objective of the Medicaid Act
The Secretary, as outlined above, can only approve
demonstration projects that are “likely to assist in
promoting the objectives” of the Medicaid Act. See
42 U.S.C. § 1315(a). Before greenlighting a project, he
must therefore identify the objectives of the Act and explain why the demonstration is likely to promote them.
The Court has assumed that the Secretary’s interpretation of those objectives is entitled to Chevron deference.
See Gresham, 363 F. Supp. 3d at 176. That is, in reviewing his understanding, the Court must first ask
whether “Congress has directly spoken to the precise
question at issue” and, if not, whether “the agency’s answer is based on a permissible construction of the statute.” Chevron U.S.A., Inc. v. Nat’l Res. Def. Council,
Inc., 467 U.S. 837, 842-43 (1984). Because all parties
agree that “Medicaid’s core objective” is to “furnish[]
medical assistance” to persons who cannot afford it, according such deference would have no practical significance with respect to this objective. See ECF No. 38
(HHS Reply) at 5; ECF No. 35 (Plaintiffs’ Reply) at 6;
see also Stewart I, 313 F. Supp. 3d at 260-62. The
Court will not repeat its discussion of why the provision
of medical assistance to beneficiaries—both recipients
of traditional Medicaid and members of the expansion
population—is the central purpose of the Act, but instead directs interested readers to its prior Opinions.
See Gresham, 363 F. Supp. 3d at 176; Stewart II, 366
F. Supp. 3d at 138; Stewart I, 313 F. Supp. 3d at 260-62.
Having correctly identified the provision of Medicaid
coverage as a core objective, the agency was required to
reasonably explain whether New Hampshire’s proposed
community-engagement requirements would advance

82a
or impede that goal. In other words, “the Secretary
needed to consider whether the demonstration project
would be likely to cause recipients to lose coverage and
whether it could cause others to gain coverage.”
Gresham, 363 F. Supp. 3d at 177. He once again neglected to do so on both counts.
a. Risk to Coverage
Before approving a proposed demonstration, the Secretary must address whether it creates a risk that beneficiaries will lose their Medicaid coverage. Unlike in
Stewart I and Gresham, here the agency at least mentioned the possibility of coverage loss in its approval.
That is step one. But “stating that a factor was considered . . . is not a substitute for considering it,”
Getty v. Fed. Savs. & Loan Ins. Corp., 805 F.2d 1050,
1055 (D.C. Cir. 1986); he must “adequately analyze
. . . the consequences” of his actions. Am. Wild
Horse Pres. Campaign v. Perdue, 873 F.3d 914, 932
(D.C. Cir. 2017). Here the Secretary fell well short.
For starters, he “never provided a bottom-line estimate of how many people would lose Medicaid” with
Granite Advantage in place. Stewart II, 366 F. Supp.
3d at 140 (quoting Stewart I, 313 F. Supp. 3d at 262).
In its proposal, New Hampshire estimated that the project would have no material effect on Medicaid enrollment, though it also hinted that coverage would otherwise have expanded given population growth. See AR
4386. The many commenters who addressed the issue
unanimously agreed that coverage loss would be substantial. The Kaiser Family Foundation, for example,
projected an enrollment loss between 6 and 17 percent,
corresponding to between 2600 and 7500 people losing
Medicaid. See AR 2532, 4384 (applying disenrollment

83a
rates to 44,000 non-frail adults subject to Granite Advantage). Appendix A documents numerous comments
and studies projecting the same or greater coverage
losses. See, e.g., AR 1949, 1953, 2132, 2208, 2210, 2238,
2241. When the Secretary approved the project, he
also had the benefit of data from the first several months
of Arkansas’s comparable project, which presented a
stark picture. See AR 2731-47. In that time, only
12.3% of non-exempt persons “reported any kind of
qualifying activity,” and “16,900 individuals ha[d] lost
Medicaid coverage for some period of time” as a result.
Gresham, 363 F. Supp. 3d at 172 (emphasis added).
Commenters explained that results were likely to be
similar in New Hampshire. See, e.g., AR 2563, 2963.
Indeed, because the State’s requirements are more
stringent than Arkansas’s in key respects—e.g., requiring 100 rather than 80 hours per month of activities and
applying to adults aged 19 to 64 rather than 19 to 49—
many projected that Granite Advantage would lead to
more coverage loss than Arkansas’s program. See,
e.g., AR 2258, 2542, 2575, 2586.
What does the Secretary think about all this? Does
he concur with New Hampshire’s apparent view that
coverage loss is going to be minimal, or does he agree
with the commenters that it is likely to be substantial?
Are the coverage losses in Arkansas likely to be replicated in New Hampshire? We have no idea, since the
approval letter offers no hints. While Defendants may
well be correct that HHS does not need to provide a precise numeric estimate of coverage loss, it can hardly be
disputed that the agency needs to address the magnitude of that loss. That is particularly so where the
comments uniformly assert—and the record evidence
from similar programs strongly suggests—that the loss

84a
will be substantial. The Secretary’s “failure to address” this “salient factor” renders his decision arbitrary and capricious. See Humane Soc’y of United
States v. Zinke, 865 F.3d 585, 606-07 (D.C. Cir. 2017).
HHS generally conceded at oral argument that the
Secretary did not consider coverage to a greater degree
in this case than in Stewart II. See Tr. at 10-11. In
their briefing, however, Defendants offer several responses worthy of discussion. The agency first insists
that it did consider the risk of coverage loss because it
mentioned that possibility at several points in its approval letter. For example, the Secretary explained
that “[t]he community engagement requirements may
impact overall coverage levels if the individuals subject
to the requirements choose not to comply with them.”
AR 6. This and statements like it butter few parsnips,
for acknowledging the possibility of coverage loss is not
the same as analyzing that possibility. See Getty, 805
F.2d at 1055. The letter gives no indication, as mentioned above, about the seriousness of the loss; for all
the reader gleans, the project could expel 75% of prior
Medicaid beneficiaries. It also neglects the possibility,
likewise discussed by numerous commenters, that many
beneficiaries will lose coverage merely because they are
not able to satisfy the administrative burden associated
with reporting their compliance. See AR 1484, 1489,
2132, 2241, 3406, 4564.
The Secretary also offers a second, more substantive
response to concerns about coverage loss. He says that
Granite Health was designed “to minimize coverage loss
due to noncompliance,” AR 11, citing the exemptions
built into the project, the procedural safeguards in-

85a
tended to prevent improper disenrollment, and the otherwise achievable nature of the requirements. Id. at 711. The State of New Hampshire likewise cites the
broader intentions of the program and the corresponding protections put in place to prevent coverage loss.
See ECF No. 37 (NH Reply) at 8. To state the obvious,
however, that a project is intended to avoid coverage
loss does not mean that it will do so. Similar intentions
existed and corresponding protections were put in place
in Kentucky, but the Commonwealth projected a coverage loss equivalent to 95,000 people losing Medicaid for
one year. Same with Arkansas, yet it found that nearly
17,000 lost coverage at some point in the first six months
alone. The commenters in this case explained as much,
since most of the exemptions or safeguards CMS mentions were baked into their comments about the likelihood of significant coverage loss. See, e.g., AR 1484,
2132, 2241. Ultimately, the agency’s explanation here
comes up short—just as it did in the previous three
cases—because it does not address whether and how
these design attributes bear on the actual magnitude of
coverage loss. See Stewart II, 366 F. Supp. 3d at 14243.
While Defendants offer two remaining arguments as
to why they have adequately considered coverage, both
are more properly addressed in subsequent sections.
Briefly, they assert that the project will not actually decrease coverage because it allows the State to cover a
population it would not otherwise cover—namely, the
ACA expansion group. The Court will analyze this argument in the ensuing section on whether the Secretary
adequately considered if the project would promote coverage. See infra Section III.B.1.b. Defendants also
maintain that any coverage loss is outweighed by the

86a
project’s promotion of other purposes of Medicaid,
including health, financial independence, and fiscal
sustainability. This point—which does not directly
bear on whether the Secretary has ever grappled with
coverage—will be addressed below in Section III.B.2.
b. Promote Coverage
The Secretary offers two possible reasons why Granite Advantage might improve the state’s ability to furnish medical assistance to the needy. The first can be
dispatched quickly. He says that the elimination of
retroactive eligibility may “encourage beneficiaries to
obtain and maintain health coverage, even when they
are healthy.” AR 12. Setting aside the equivocal nature of this assertion and the numerous comments to the
contrary in the record (AR 1479-80, 4565), this possibility has nothing to do with the coverage loss the community-engagement requirements might cause. To the
extent the Secretary believes that the elimination of retroactive coverage might (counterintuitively) increase
coverage, he needs to weigh the promotion side of the
scale against the risk-of-loss side when approving the
project. That did not happen. Indeed, such a calculus
would be difficult to undertake given the agency’s failure, discussed at length above, to characterize the magnitude of coverage loss presented by the community-engagement requirements.
Defendants’ second argument about coverage promotion is one the Court addressed at length in Stewart II:
because the State will “simply de-expand Medicaid” if
Granite Advantage is not approved, any coverage provided to the expansion population through the demonstration is properly understood as increasing Medicaid
coverage. See 366 F. Supp. 3d at 153; see also AR 10.

87a
In other words, “[a] demonstration that shrinks coverage may thus be coverage promoting for the purposes of
§ 1115 as long as the state threatens that if the demonstration is not approved, it will discontinue coverage entirely.” Stewart II, 366 F. Supp. 3d at 153; see HHS
Cross-Mot. at 17-18. In Stewart II, the Court addressed this point as a variant of the agency’s fiscalsustainability rationale because the ostensible reason
for Kentucky to de-expand absent approval was its fiscal
situation. In doing so, however, the Court noted that
the argument “does not depend on a state’s being in a
fiscally precarious position because it does not take into
account the reason the state wants to discontinue participating in the Medicaid program.” Stewart II, 366
F. Supp. 3d at 154.
This case proves the point. New Hampshire has not
justified its desire to de-expand absent approval of the
community-engagement requirements on fiscal concerns; indeed, the State explained at oral argument that
it was not facing such budgetary woes. See Tr. (Complete Transcript Pending). It ultimately does not matter how their argument is characterized; “[it] is both inconsistent with the Medicaid Act and arbitrary and capricious.” Id. at 153. Before briefly restating why
that is the case, the Court notes that HHS seems largely
to have abandoned any robust form of this argument on
appeal. See Stewart v. Azar, Case No. 19-5095, Appellant Brief at 37 (noting only that “it is permissible for
HHS to take the optional character of the coverage into
account when considering such applications”).
As the Court explained in Stewart II, this position is
unpersuasive for three interrelated reasons. To start,
Defendants incorrectly assume that “a state has additional

88a
discretion to diminish or condition eligibility for the
expansion—as opposed to the traditional—population.”
366 F. Supp. 3d at 153. They appear to divine this principle from the Supreme Court’s decision in NFIB, where
it found Congress’s decision to require states to expand
Medicaid unduly coercive under the Spending Clause.
See 567 U.S. at 583-85. But the remedy for this constitutional problem was simply to prevent the Secretary
from withdrawing “existing Medicaid funds for failure
to comply with the requirements set out in the expansion.” Id. at 585. After the decision, states were thus
left with a choice: accept ACA funds and “comply with
the conditions on their use” or decline ACA funds and
keep prior federal Medicaid appropriations. Id.; see
also id. at 586 (explaining that decision does not “affect
the Secretary’s ability to withdraw funds provided under the Affordable Care Act if a [s]tate that has chosen
to participate in the expansion fails to comply with the
requirements of that Act”). Since the Act otherwise
places the expansion population on the same plane as the
traditional population, states have no “additional discretion” in how to comply with Medicaid requirements as to
the expansion group. See Stewart II, 366 F. Supp. 3d
at 153.
While Defendants thus err in believing that their
treatment of the expansion population is undergirded
with any greater discretion than their administration of
any other part of the Medicaid program, their argument
about flexibility vis-à-vis the expansion population are
ultimately a red herring. That is because the entire
Medicaid program is optional for states. The Court does
not see why—if Defendants are correct that threats to terminate the expansion program can supply the baseline
for the Secretary’s § 1115 review—that argument would

89a
not be equally good as applied to traditional Medicaid.
Id. at 153. Their argument must thus posit that any
§ 1115 program that maintains any coverage for any set
of individuals promotes the objectives of the Medicaid
Act as long as the state threatens to terminate all of
Medicaid in the absence of waiver approval. The second problem with this position, then, is that it has no
limiting principle. Under the Secretary’s reasoning,
states may threaten to de-expand, or indeed do away
with all of, Medicaid if he does not approve whatever
waiver of whatever Medicaid requirements they wish to
obtain.
The Secretary could then always approve
those waivers, no matter how few people remain on
Medicaid thereafter, because “any waiver would be coverage promoting compared to a world in which the state
offers no coverage at all.” Id. at 154. This reading of
the Act would give HHS practically unbridled discretion
to implement the Medicaid Act as “an à la carte exercise,
picking and choosing which of Congress’s mandates it
wishes to implement.” Id. at 153-54. Apart from the
potential constitutional concerns such an interpretation
would raise, cf. Clinton, 524 U.S. at 440-47 (1998), it
clearly constitutes “an impermissible construction of the
statute . . . because [it] is utterly unreasonable in
[its] breadth.” Aid Ass’n for Lutherans v. U.S. Postal
Serv., 321 F.3d 1166, 1178 (D.C. Cir. 2003); see also
Agape Church, Inc. v. FCC, 738 F.3d 397, 410 (D.C. Cir.
2013).
The third and final reason to reject this reading is
perhaps the most important: it is inconsistent with the
text of § 1115. The statute requires the Secretary to
evaluate whether the project “is likely to assist in
promoting the objectives” of the Act. See 42 U.S.C.

90a
§ 1315. Against what baseline is he supposed to evaluate the project? The structure of the waiver provision
assumes the implementation of the Act. It confirms
that the relevant baseline is whether the waiver will promote the objectives of the Act as compared to compliance with the statute’s requirements, “not as compared
with a hypothetical future universe” where the Act has
no force. Stewart II, 366 F. Supp. 3d at 154. This is
so because the overarching provision authorizing these
waivers stipulates that, if the Secretary makes a judgment that a demonstration promotes the objectives of
the Act, he may then waive compliance with certain of
its provisions “to the extent and for the period . . .
necessary” to carry out the project. See 42 U.S.C.
§ 1315(a), (a)(1). That is, the provision contemplates a
limited waiver from compliance with the Act’s provisions. Particularly in light of what the Court has discussed above, understanding the baseline as such is the
only way this provision makes sense.
For these reasons, the Secretary cannot escape his
obligation to consider whether Granite Advantage poses
a risk to coverage or is likely to increase coverage by
emphasizing the optional nature of the expansion or by
citing New Hampshire’s plan to de-expand absent project approval.
2. Other Objectives of the Medicaid Act
Defendants argue that, regardless of whether the
Secretary properly considered Granite Advantage’s effects on coverage, he reasonably approved the project
on the ground that it is likely to advance several other
Medicaid objectives—namely, the health and financial
independence of beneficiaries and the fiscal sustainabil-

91a
ity of the safety net. HHS relied on those same objectives when it approved Kentucky’s project the second
time, and the Court addressed them at length in Stewart
II. Indeed, the approval letter reviewed in that decision
—which preceded New Hampshire’s by only ten days—
tracks the one here practically verbatim with respect to
these objectives. Compare AR 1-6 with Kentucky II
Approval Letter at 1-6. The agency acknowledged as
much during oral argument. See Tr. at 14-15. For
the same reasons the Court found that discussion wanting before, it finds it unpersuasive here.
a. Health
The Secretary asserts that “Granite Advantage is []
independently justified because the Secretary found
that it was likely to improve the health of Medicaid recipients.” Def. Cross-Motion at 16. Recognizing that
this Court has found that health is not a freestanding
objective of the Medicaid Act, the agency persists in the
contrary view on the ground that “there is little intrinsic
value in paying for services if those services are not advancing the health and wellness of individuals receiving
them.” Id. This position does not change the Court’s
mind. Assuming the Secretary’s interpretation is entitled to Chevron deference, it fails at step two because it
falls outside “the bounds of reasonableness.” Abbott
Labs v. Young, 920 F.2d 984, 988 (D.C. Cir. 1990). Medicaid, both as enacted and as later expanded by the ACA,
reflects Congress’s desire to “mak[e] healthcare more
affordable” for “needy populations.” Stewart II, 366
F. Supp. 3d at 144. Congress therefore designed a
scheme “to address not health generally but the provision of care to needy populations.” Id. The Secretary
cannot “extrapolate the objectives of the statute to a

92a
higher level of generality and pursue that aim in the way
he prefers.” Id. (citing Waterkeeper Alliance v. EPA,
853 F.3d 527, 535 (D.C. Cir. 2017)).
An example outside of the health-care context helps
illustrate the problem with Defendants’ interpretive leap.
Say that Congress passed an education statute designed
to encourage local control over education because it believed that decentralization was the best way to improve
the quality of education. Implementing this view, the
statute appropriates money to states that give local
school districts control over their own management and
curricula. Disagreeing with Congress’s view about local control, however, the Secretary of Education decides
she would like to fund experimental state programs that
require districts to adhere to strict national education
standards. She argues that this advances the purposes
of the statute because, in her expertise, national standards improve education, and education must have been
the statute’s goal since “there is little intrinsic value in
paying” for school expenses “if those services are not
advancing” students’ education. See AR 1. This species of argument, of course, would never fly, yet it is indistinguishable from CMS’s in this case, and it exposes
the weakness of HHS’s position. By defining a statute’s purposes up a level of generality, the Secretary can
justify actions as consistent with the law even if they are
clearly at odds with it. This scenario underscores that,
as the Court explained in Stewart I, a statute’s objectives are often bound up with the way Congress sought
to solve a particular problem. See 313 F. Supp. 3d at
266-67. Ignoring as much grants largely unbounded
discretion to agencies, whose exercise of that discretion
can veer far afield from anything resembling the statute
Congress wrote. Id. at 267-68.

93a
In any event, even assuming Defendants were correct that health is a freestanding objective of the Act,
the agency fell short “because it did not consider the
health benefits of the project relative to its harms to the
health of those who might lose their coverage.” Stewart II, 366 F. Supp. 3d at 145. As with the second Kentucky approval, commenters here made clear that these
health effects would be significant. See, e.g., AR 213132, 2223-24, 2242-43. The Secretary, moreover, needed
to weigh the net effects on health against the effects on
coverage more generally. Here he stumbled as well.
His neglect to address these considerations is independently fatal to Defendants’ argument that the project is supported by its effects on health alone.
b. Financial Independence
Defendants have previously justified the Secretary’s
approval on his judgment that community-engagement
requirements like those in Granite Advantage improve
beneficiaries’ financial independence. See AR 4-5; see
also Stewart II, 366 F. Supp. 3d at 145-46. This argument does not appear with much force in the Government’s papers here. To the extent Defendants still
press it, the Court rejects it for the reasons discussed at
length in Stewart I and Stewart II—namely, that financial independence is not an independent objective of the
Act and that the Secretary has not in any event adequately assessed “the benefits of self-sufficiency” and
weighed them “against the consequences of coverage
loss.” Stewart II, 366 F. Supp. 3d at 148.
c. Fiscal Sustainability
The agency’s principal argument this time around in
favor of upholding the Secretary’s decision is the same

94a
as it was in Stewart II: that he reasonably concluded
that the project would allow “New Hampshire to stretch
its limited Medicaid resources.” AR 6. Granite Advantage appears to enhance the fiscal sustainability of
the State’s safety net, according to HHS, because beneficiaries who were not previously working may transition to commercial coverage and become healthier. In
Stewart II, the Court agreed that fiscal sustainability
was a valid consideration in a Section 1115 project, but
it found the Secretary’s explanation for why the project
addressed that concern to be arbitrary and capricious.
See 366 F. Supp. 3d at 149-52. As the agency recognized at oral argument, HHS’s explanation in approving
Granite Advantage, which is practically identical to what
it said in Stewart II, likewise cannot clear the bar. See
Tr. at 14-15.
To start, HHS made no finding that Granite Advantage would save the state “any amount of money or
otherwise make the program more sustainable in some
way.” Id. at 149. With respect to savings, the Court
is not suggesting that the Secretary “must quantify
some exact amount . . . , but he must make some
finding that supports his conclusion that the project” addresses New Hampshire’s fiscal concerns. Id. at 14950. Two considerations make this analysis especially
important in this case.
First, the State has represented that it neither intends for the demonstration to reduce costs nor expects
it to do so. At oral argument, it explained that New
Hampshire is not encountering the same fiscal concerns
as Kentucky with respect to its Medicaid program and
that reducing health costs is not in fact an objective of
this demonstration project. See Tr. (Full Transcript

95a
Pending). Consistent with that position, New Hampshire’s waiver application projected “that spending
growth in the future [under Granite Advantage] will be
consistent with standard growth rates experienced in
the past.” AR 4399. The glaring disconnect between
the Secretary’s position and New Hampshire’s raises
substantial questions about how the agency came to believe the program would improve the State’s fiscal circumstances, underscoring the need for reasoned analysis of this issue.
Second, the record in this case contains substantial
reasons to doubt whether the program will save any
money given administrative costs and the possible rise
in uncompensated care that would accrue to the State.
See AR 1480, 1949, 2206, 2241-43, 2534, 2710-11; cf.
42 U.S.C. § 1396d(y)(1) (providing that federal government shall pay between 90 and 100 percent of costs to
expansion population). While the Secretary may well
have arrived at a different conclusion, he needed to explain how he got there in light of the nearly uniform evidence going the other direction.
The agency does propose several potential mechanisms by which the program could save the State money.
But those do not advance the ball because they are conclusory and unsupported by any evidence in the record.
The Secretary never explained, for example, why he
thinks that the program will transition beneficiaries to
commercial coverage, given the consistent evidence before him that nearly all Medicaid recipients are already
working, unable to work, or able to find only low-paying
jobs that do not offer or lead to commercial coverage.
See AR 1949, 2209-10, 2225, 2435; see also id. at 3587

96a
(explaining that work requirements only expected to apply to 6% of able and non-working beneficiaries and that
work opportunities for them are limited). That the
community-engagement requirements can be met
through education or volunteer activities, rather than
employment, gives more reason to wonder why the Secretary thought the program would expand access to
commercial coverage. Likewise, the agency has not
explained the sort of health benefits it expected would
accrue to beneficiaries as a result of the new requirements and how such benefits would save the State
money.
Apart from these failings, the Secretary’s fiscal-sustainability discussion suffers from another key flaw: it
did not “compare the benefit[s]” to the State’s safety net
“to the consequences for coverage.” Stewart II, 366 F.
Supp. 3d at 150. The D.C. Circuit’s decision in Pharmaceutical Research & Manufacturers of America v.
Thompson, 362 F.3d 817 (D.C. Cir. 2004), helps illustrate
how the agency fell short in this respect. There, the
court upheld HHS’s decision to impose a minor restriction on beneficiaries’ access to prescription drugs to try
to prevent borderline populations from becoming Medicaid eligible. Id. at 825. In doing so, the D.C. Circuit
discussed at length whether the agency had adequately
considered the burden on Medicaid recipients and reasonably explained why such imposition was necessary
under the circumstances. Id. at 825-26. This is just
the kind of analysis the Secretary never conducted here.
He neither addressed the magnitude of coverage loss
nor weighed that concern against the asserted fiscalsustainability benefits.

97a
This analysis is essential given the admonitions in
Thompson and the Supreme Court’s decision in Pharmaceutical Research & Manufacturers of America v.
Walsh, 538 U.S. 644 (2003) (plurality), that projects imposing significant burdens on Medicaid recipients may
not be consistent with the Act’s purposes. Id. at 66465 (“The fact that the [Program] . . . provid[es] benefits to needy persons and . . . curtail[s] the State’s
Medicaid costs . . . would not provide a sufficient
basis for upholding the program if it severely curtailed
Medicaid recipients’ access to prescription drugs.”);
Thompson, 362 F.3d at 826 (relying on “the absence of
any demonstrable significant impediment to Medicaid
services”). As explained in Stewart II, “That there are
limits on the extent to which fiscal sustainability can justify cuts like those outlined in these cases makes sense.
Most cuts to Medicaid services would reduce the cost of
Medicaid and thus advance the sustainability of the program to some extent. But it would be nonsensical to
conclude that any cut therefore always promotes the
Act’s objectives.” 366 F. Supp. 3d at 152.
In short, the Court finds that the Secretary’s assertion that Granite Advantage advances the purposes of
Medicaid because it would improve the fiscal sustainability of New Hampshire’s Medicaid program is arbitrary and capricious, especially where the State at argument generally disclaimed such motivation. In so concluding, the Court is not questioning the agency’s predictive judgments or evaluating the evidence before it
on this issue. It is simply looking for what the APA requires: a reasoned explanation that considers the factors relevant to the agency’s decision.

98a
d. Data Collection
The Secretary has one more arrow in his quiver. He
suggests that Granite Advantage advances the objectives of Medicaid regardless of what effect it has on beneficiary health and coverage because it helps the State
and agency collect useful data for future policymaking
purposes. See Def. Cross-Mot. at 22-3; AR 12. This
one holds no water. As a textual matter, the Secretary
is authorized to approve only those projects “likely to
assist in promoting the objectives” of the Medicaid Act.
See 42 U.S.C. § 1315(a). But no one is suggesting with
a straight face that a purpose of the Medicaid Act is to
collect data. A demonstration can hardly be justified,
therefore, solely on data-collection grounds. The practical consequences of the Government’s suggestion are
also alarming. If experimentation alone could justify a
project, then demonstrations with dire consequences for
Medicaid beneficiaries could be approved just for the
Government to gather information. Recognizing these
difficulties, HHS disclaimed any such position at oral argument, confirming that any demonstration project must
do more than collect data: it must also advance the
purposes of the Medicaid Act, including the core objective of providing medical assistance to the needy. See
Tr. at 14.
C.

Remedy

That leaves only consideration of the proper remedy.
Three sets of issues require attention.
First, the Court must decide whether, having arrived
at the conclusions outlined above, it should issue its decision now or instead wait until November, nearer in
time to when the community-engagement requirements

99a
are set to take effect. HHS, at oral argument, maintained that the Court should stay its pen because vacating the program will substantially disrupt New Hampshire’s implementation and outreach efforts and because the Court of Appeals may issue a decision in the
Kentucky and Arkansas cases in the interim. See Tr.
at 4-6. Neither factor, however, counsels in favor of delay. As to the former, the State of New Hampshire,
which is presumably best situated to understand the
consequences of a timely decision, asks the Court to issue its Opinion now rather than waiting until November.
It explained at oral argument that a decision would provide further clarity to the State while it compiles an
amended waiver application and considers how to implement its program moving forward. Id. (Complete
Transcript Pending). Citing the uncertainty attending
their circumstances and those of other Medicaid beneficiaries, Plaintiffs agree that the Court should not wait
to act. As to the latter, while it is possible that the
Court of Appeals will issue its decision between now and
November, it is also possible that the Circuit’s decision
will post-date the December 1 implementation. At this
point, no oral-argument date has been set. Either way,
that consideration does not outweigh New Hampshire’s
and Plaintiffs’ interests in seeking a timelier decision.
Second, the Court must consider whether to remand
this matter to the agency without vacating its underlying approval of New Hampshire’s demonstration.
When a court concludes that agency action is unlawful,
“the practice of the court is ordinarily to vacate the
rule.” Ill. Pub. Telecomms. Ass’n v. FCC, 123 F.3d
693, 693 (D.C. Cir. 1997); Sierra Club v. Van Antwerp,
719 F. Supp. 2d 77, 78 (D.D.C. 2010) (“[B]oth the Supreme Court and the D.C. Circuit Court have held that

100a
remand, along with vacatur, is the presumptively appropriate remedy for a violation of the APA.”). Remand
without vacatur may be appropriate, however, depending on the “seriousness of the order’s deficiencies (and
thus the extent of doubt whether the agency chose correctly) and the disruptive consequences of an interim
change.” Allied-Signal, Inc. v. U.S. Nuclear Regulatory Comm’n, 988 F.2d 146, 150-51 (D.C. Cir. 1993) (citation omitted); see also Standing Rock Sioux Tribe v.
U.S. Army Corps of Engineers, 282 F. Supp. 3d 91, 103
(D.D.C. 2017) (declining to vacate when agency “largely
complied” with statute and could likely substantiate
prior conclusions on remand).
In Stewart I, Stewart II, and Gresham, the Court
concluded that both factors supported vacatur. The
Secretary’s failure to consider an objective of Medicaid
is a “major shortcoming” going “to the heart” of his decisions. See 313 F. Supp. 3d at 273. As to Kentucky
HEALTH, vacatur was not overly disruptive because
the project had “yet to take effect” and the plaintiffs could
suffer “serious harm[s]” were Kentucky HEALTH allowed to be implemented pending further proceedings.
Id.; see also Stewart II, 366 F. Supp. 3d at 156. And as
to Arkansas, while vacatur would concededly have been
disruptive given that the program had already begun in
part, the seriousness of this disruption—which was
largely administrative in nature—had to be “balanced
against the harms that Plaintiffs and persons like them
will experience if the program remains in effect.”
Gresham, 363 F. Supp. 3d at 184.
Defendants do not dispute that vacatur is appropriate under this analysis. See HHS Cross-Mot. at 27-29
(declining to argue that Allied-Signal factors counsel

101a
against vacatur). And for good reason. Like the
prior three approvals, this one suffers from a significant
deficiency: the failure to address a central factor in its
decision. And vacatur will not be terribly disruptive,
given that New Hampshire has not fully implemented
the community-engagement requirements—indeed, the
State has continued to make legislative and executive
tweaks to the program since CMS approved it in late
2018.
Third, HHS argues that rather than vacating the November 2018 approval as a whole, this Court should tailor any relief solely to the four Plaintiffs and the aspects
of the program that they have successfully challenged.
Id. at 27-29. The Court is no more persuaded by this
contention than it was in Stewart II. See 366 F. Supp.
3d at 155. In an APA case, the “ordinary result” of the
Court’s finding an agency action unlawful is to vacate
that action—not to judicially re-write what the agency
did so that it somehow does not apply to a narrow group
of people or so that it persists piecemeal. See Harmon
v. Thornburgh, 878 F.2d 484, 495 n.21 (D.C. Cir. 1989).
The Court of Appeals, accordingly, has explained that
“if the plaintiff prevails” in challenging an agency action
under the APA, “the result is that the rule is invalidated,
not simply that the court forbids its application to a particular individual.” Nat’l Min. Ass’n v. U.S. Army
Corps of Engineers, 145 F.3d 1399, 1409 (D.C. Cir. 1998)
(quoting Lujan v. Nat’l Wildlife Fed., 497 U.S. 871, 913
(1990) (Blackmun, J., dissenting)).
Defendants offer no reason to deviate from the settled manner in which courts accord relief in APA cases;
indeed, they do not cite a single APA case in which relief
has been granted in this manner.
Plaintiffs have

102a
standing to challenge and have successfully challenged
the Secretary’s November 30, 2018, approval of the
amendments to Granite Advantage. The proper relief,
under these circumstances, is vacatur of that action.
IV. CONCLUSION

For the foregoing reasons, the Court will grant Plaintiffs’ Motion for Summary Judgment and deny Defendants’ Cross-Motion and Motion to Dismiss. A separate
Order consistent with this Opinion will issue this day.
/s/ JAMES E. BOASBERG
JAMES E. BOASBERG
United States District Judge
Date:

July 29, 2019

103a
APPENDIX A
Comments on Coverage Consequences of
Community-Engagement Requirements

AR 1484 (Disability Rights Center) (“Red tape and
paperwork requirements have been shown to reduce
enrollment in Medicaid and individuals coping with serious mental illness or physical impairments may face
particular difficulty meeting these requirements.”);
AR 1489 (American Cancer Society Cancer Action
Network) (“If work and community engagement is required as a condition of eligibility, many cancer patients, recent survivors, and those with other chronic
illnesses could find that they are ineligible for the lifesaving care and treatment services provided through
the state’s Medicaid program . . . The increase in
administrative requirements for enrollees to attest to
their working status would likely decrease the number of individuals with Medicaid coverage, regardless
of whether they are exempt.”); AR 1949 (Rights and
Democracy NH) (“[I]mposing work requirements for
people who need Medicaid Expansion to gain access to
health care will likely cause many people to lose coverage and increase levels of uncompensated care.”);
AR 1953 (Cystic Fibrosis Foundation) (“[M]any people may have trouble complying with new eligibility
requirements and for someone with [cystic fibrosis],
this could result in a life-threatening gap in coverage.”); AR 1956 (NH Community Behavioral Health
Association) (“We fear that the work requirement has
the very real potential to jeopardize care for individuals with mental illness if they lose their Medicaid coverage. . . . Asking people struggling with mental
illness to document their work by keeping track of

104a
every week’s pay stubs is an onerous requirement.”);
AR 2132 (American Diabetes Association) (“New
Hampshire’s proposal to limit access to Medicaid services through the implementation of work requirements will decrease access to care for low-income New
Hampshire residents with and at risk for diabetes and
increase state health care costs.”); AR 2201 (Lung
Cancer Alliance) (citing estimates that similar Iowa
waiver caused that “more than 3,000 beneficiaries” to
lose coverage and “become uninsured”); AR 2208
(Center on Budget and Policy Priorities &
Georgetown University Center for Children and Families) (“Kaiser conservatively estimates that between
25 and 50 percent of such enrollees are at risk of losing
coverage under work requirements. New Hampshire’s work requirement is especially onerous, because just one month of non-compliance can lead to
loss of coverage.”); AR 2224-25 (American Heart Association) (asserting that work requirements will reduce “access to healthcare services both in the short
and long term” for people with cardiovascular disease); AR 2238 (National Council on Aging) (“Extending work requirements would also particularly hurt
the rural residents of NH,” who make up 48% of NH’s
Medicaid population, because they are less likely to
have access to the internet or transportation and
therefore “risk losing coverage.”); AR 2241 (Center
for Law and Social Policy) (“The evidence from other
programs with similar requirements is that in spite of
official exemptions, in practice, individuals with disabilities are often not exempted and are more likely to
lose benefits.”); AR 2434 (CLASP Volatile Job Schedules and Access to Public Benefits Report) (finding
that tying benefits to work requirements, especially a

105a
specific number of hours, can be problematic because
“more than 40 percent of early career hourly-workers
(ages 26 to 32) receive one week or less advance notice
of their job schedules. Half of these workers have no
input into their schedules and three-quarters experience fluctuations in the number of hours they work,
with hours varying by more than eight hours per week
on average.”); AR 2530 (Kaiser Family Foundation Issue Brief) (considering national effects of a Medicaid
work requirement and concluding that, “[o]verall,
among the 23.5 million non-SSI, non-dual, nonelderly
Medicaid adults, disenrollment ranges from 1.4 million to 4.0 million under the scenarios considered”);
AR 2563 (New Futures) (stating that results of Arkansas’s similar program will likely reflect those of NH’s
program, and “[i]n the first month of implementation
of the Arkansas Works work requirement (June 2018)
fewer than six percent of the nearly 8,000 Medicaid
enrollees who did not declare an exemption were able
to satisfy the reporting requirement”); AR 2575
(Families USA) (“The coverage losses [caused by the
work requirement] will result in an increase in the
state’s uninsured population, lost health care access,
and worse health for low-income adults in New Hampshire.”); AR 2696 (National Health Law Program)
(“All evidence indicates that the work requirement
will lead to substantial numbers of individuals losing
Medicaid coverage. In Kentucky, which proposed a
similar work requirement, researchers have estimated that between 45,000 to 103,000 individuals
could lose coverage due to the work requirement
alone.”); AR 2963 (New Hampshire Fiscal Policy Institute) (“Work requirements implemented in Arkansas for certain populations starting in June 2018

106a
. . . provide an initial indication that similar requirements may reduce enrollment significantly in
New Hampshire.”); AR 3372 (Kaiser Family Foundation) (“Under the Medicaid work requirement programs, the population subject to Medicaid work requirements may have access to only low-wage, unstable, or low-quality jobs to meet the weekly/monthly
hours requirement[;] . . . ‘[p]olicies that promote
job growth without giving attention to the overall adequacy of the jobs may undermine health.’ ”); AR 3406
(Urban Institute) (“The red tape associated with work
requirements can cause people to lose access to vital
supports even when they are working or should be exempt from the requirements.”); AR 3584 (Philip Rocco,
PhD) (citing a study about “a Florida welfare reform
experiment whose benefits were conditioned on workforce participation [and] had a 16 percent higher mortality rate than comparable recipients of welfare who
were not subject to work stipulations”); AR 3644 (New
Hampshire Legal Assistance) (“All evidence indicates
that the work requirement will lead to substantial
numbers of individuals losing Medicaid coverage.”);
AR 4563-64 (Leukemia & Lymphoma Society) (“New
Hampshire’s proposal to extend its work requirement
will perpetuate a return to increased bureaucracy and
paperwork and, in turn, coverage losses.”).

107a
APPENDIX E

1.

7 U.S.C. 2015(o) provides:

Eligibility disqualifications
(o)

Work requirement
(1) “Work program” defined

In this subsection, the term “work program”
means—
(A) a program under title I of the Workforce
Innovation and Opportunity Act [29 U.S.C. 3111
et seq.];
(B)

a program under section 2296 of title 19;

(C) a program of employment and training
operated or supervised by a State or political subdivision of a State that meets standards approved
by the Governor of the State, including a program
under subsection (d)(4), other than a supervised
job search program or job search training program;
(D) a program of employment and training
for veterans operated by the Department of Labor
or the Department of Veterans Affairs, and approved by the Secretary; and
(E) a workforce partnership under subsection (d)(4)(N).
(2) Work requirement

Subject to the other provisions of this subsection,
no individual shall be eligible to participate in the supplemental nutrition assistance program as a member

108a
of any household if, during the preceding 36-month
period, the individual received supplemental nutrition assistance program benefits for not less than 3
months (consecutive or otherwise) during which the
individual did not—
(A) work 20 hours or more per week, averaged monthly;
(B) participate in and comply with the requirements of a work program for 20 hours or
more per week, as determined by the State
agency;
(C) participate in and comply with the requirements of a program under section 2029 of this
title or a comparable program established by a
State or political subdivision of a State; or
(D) receive benefits pursuant to paragraph
(3), (4), (5), or (6).
(3) Exception

Paragraph (2) shall not apply to an individual if
the individual is—
(A)

under 18 or over 50 years of age;

(B) medically certified as physically or mentally unfit for employment;
(C) a parent or other member of a household
with responsibility for a dependent child;
(D) otherwise
(d)(2); or
(E)

exempt

a pregnant woman.

under

subsection

109a
(4) Waiver
(A)

In general

On the request of a State agency and with the
support of the chief executive officer of the State,
the Secretary may waive the applicability of paragraph (2) to any group of individuals in the State
if the Secretary makes a determination that the
area in which the individuals reside—
(i)
has an unemployment rate of over 10
percent; or
(ii) does not have a sufficient number of
jobs to provide employment for the individuals.
(B)

Report

The Secretary shall report the basis for a
waiver under subparagraph (A) to the Committee
on Agriculture of the House of Representatives and
the Committee on Agriculture, Nutrition, and Forestry of the Senate.
(5) Subsequent eligibility
(A)

Regaining eligibility

An individual denied eligibility under paragraph (2) shall regain eligibility to participate in
the supplemental nutrition assistance program if,
during a 30-day period, the individual—
(i)

works 80 or more hours;

(ii) participates in and complies with the
requirements of a work program for 80 or more
hours, as determined by a State agency; or

110a
(iii) participates in and complies with the
requirements of a program under section 2029
of this title or a comparable program established
by a State or political subdivision of a State.
(B)

Maintaining eligibility

An individual who regains eligibility under subparagraph (A) shall remain eligible as long as the
individual meets the requirements of subparagraph (A), (B), or (C) of paragraph (2).
(C)
(i)

Loss of employment
In general

An individual who regained eligibility under
subparagraph (A) and who no longer meets the
requirements of subparagraph (A), (B), or (C)
of paragraph (2) shall remain eligible for a consecutive 3-month period, beginning on the date
the individual first notifies the State agency
that the individual no longer meets the requirements of subparagraph (A), (B), or (C) of paragraph (2).
(ii) Limitation

An individual shall not receive any benefits
pursuant to clause (i) for more than a single 3month period in any 36-month period.
(6) Exemptions
(A)

Definitions

In this paragraph:
(i)

Caseload

111a
The term “caseload” means the average
monthly number of individuals receiving supplemental nutrition assistance program benefits during the 12-month period ending the preceding June 30.
(ii)

Covered individual

The term “covered individual” means a
member of a household that receives supplemental nutrition assistance program benefits,
or an individual denied eligibility for supplemental nutrition assistance program benefits
solely due to paragraph (2), who—
(I) is not eligible for an exception under paragraph (3);
(II) does not reside in an area covered
by a waiver granted under paragraph (4);
(III) is not complying with subparagraph
(A), (B), or (C) of paragraph (2);
(IV) is not receiving supplemental nutrition assistance program benefits during the
3 months of eligibility provided under paragraph (2); and
(V) is not receiving supplemental nutrition assistance program benefits under paragraph (5).
(B)

General rule

Subject to subparagraphs (C) through (H), a
State agency may provide an exemption from the
requirements of paragraph (2) for covered individuals.

112a
(C)

Fiscal year 1998

Subject to subparagraphs (F) and (H), for fiscal
year 1998, a State agency may provide a number
of exemptions such that the average monthly number of the exemptions in effect during the fiscal
year does not exceed 15 percent of the number of
covered individuals in the State in fiscal year 1998,
as estimated by the Secretary, based on the survey conducted to carry out section 2025(c) of this
title for fiscal year 1996 and such other factors as
the Secretary considers appropriate due to the
timing and limitations of the survey.
(D)

Fiscal years 1999 through 2019

Subject to subparagraphs (F) through (H), for
fiscal year 1999 and each subsequent fiscal year
through fiscal year 2019, a State agency may provide a number of exemptions such that the average monthly number of the exemptions in effect
during the fiscal year does not exceed 15 percent
of the number of covered individuals in the State,
as estimated by the Secretary under subparagraph
(C), adjusted by the Secretary to reflect changes in
the State’s caseload and the Secretary’s estimate of
changes in the proportion of members of households that receive supplemental nutrition assistance program benefits covered by waivers granted
under paragraph (4).
(E)

Subsequent fiscal years

Subject to subparagraphs (F) through (H), for
fiscal year 2020 and each subsequent fiscal year, a
State agency may provide a number of exemp-

113a
tions such that the average monthly number of exemptions in effect during the fiscal year does not
exceed 12 percent of the number of covered individuals in the State, as estimated by the Secretary under subparagraph (C), adjusted by the
Secretary to reflect changes in the State’s caseload and the Secretary’s estimate of changes in
the proportion of members of households that receive supplemental nutrition assistance program
benefits covered by waivers granted under paragraph (4).
(F)

Caseload adjustments

The Secretary shall adjust the number of individuals estimated for a State under subparagraph
(C), (D), or (E) during a fiscal year if the number
of members of households that receive supplemental nutrition assistance program benefits in the
State varies from the State’s caseload by more
than 10 percent, as determined by the Secretary.
(G)

Exemption adjustments

During fiscal year 1999 and each subsequent fiscal year, the Secretary shall increase or decrease
the number of individuals who may be granted an
exemption by a State agency under this paragraph
to the extent that the average monthly number of
exemptions in effect in the State for the preceding
fiscal year under this paragraph is lesser or greater
than the average monthly number of exemptions
estimated for the State agency for such preceding
fiscal year under this paragraph.

114a
(H)

Reporting requirement

A State agency shall submit such reports to the
Secretary as the Secretary determines are necessary to ensure compliance with this paragraph.
(7) Other program rules

Nothing in this subsection shall make an individual eligible for benefits under this chapter if the individual is not otherwise eligible for benefits under the
other provisions of this chapter.
2.

42 U.S.C. 607(a)-(e) provides:

Mandatory work requirements
(a)

Participation rate requirements
(1) All families

A State to which a grant is made under section 603
of this title for a fiscal year shall achieve the minimum participation rate specified in the following table for the fiscal year with respect to all families receiving assistance under the State program funded
under this part or any other State program funded
with qualified State expenditures (as defined in section 609(a)(7)(B)(i) of this title):
If the fiscal year is:

1997………………………
1998………………………
1999………………………
2000………………………
2001………………………
2002 and thereafter…….

The minimum
participation rate is:

25
30
35
40
45
50.

115a
(2) 2-parent families

A State to which a grant is made under section 603
of this title for a fiscal year shall achieve the minimum participation rate specified in the following table for the fiscal year with respect to 2-parent families receiving assistance under the State program
funded under this part or any other State program
funded with qualified State expenditures (as defined
in section 609(a)(7)(B)(i) of this title):
If the fiscal year is:

1997………………………
1998………………………
1999 or thereafter…....…
(b)

The minimum
participation rate is:

75
75
90.

Calculation of participation rates
(1) All families
(A)

Average monthly rate

For purposes of subsection (a)(1), the participation rate for all families of a State for a fiscal
year is the average of the participation rates for
all families of the State for each month in the fiscal
year.
(B)

Monthly participation rates

The participation rate of a State for all families
of the State for a month, expressed as a percentage, is—
(i) the number of families receiving assistance under the State program funded under
this part or any other State program funded with

116a
qualified State expenditures (as defined in section 609(a)(7)(B)(i) of this title) that include an
adult or a minor child head of household who is
engaged in work for the month; divided by
(ii) the amount by which—
(I) the number of families receiving such
assistance during the month that include an
adult or a minor child head of household receiving such assistance; exceeds
(II) the number of families receiving
such assistance that are subject in such
month to a penalty described in subsection
(e)(1) but have not been subject to such penalty for more than 3 months within the preceding 12-month period (whether or not consecutive).
(2) 2-parent families
(A)

Average monthly rate

For purposes of subsection (a)(2) of this section, the participation rate for 2-parent families of
a State for a fiscal year is the average of the participation rates for 2-parent families of the State
for each month in the fiscal year.
(B)

Monthly participation rates

The participation rate of a State for 2-parent
families of the State for a month shall be calculated by use of the formula set forth in paragraph
(1)(B), except that in the formula the term “number of 2-parent families” shall be substituted for
the term “number of families” each place such latter term appears.

117a
(C)

Family with a disabled parent not treated as
a 2-parent family

A family that includes a disabled parent shall
not be considered a 2-parent family for purposes
of subsections (a) and (b) of this section.
(3) Pro rata reduction of participation rate due to
caseload reductions not required by Federal law
and not resulting from changes in State eligibility
criteria
(A)

In general

The Secretary shall prescribe regulations for
reducing the minimum participation rate otherwise required by this section for a fiscal year by
the number of percentage points equal to the number of percentage points (if any) by which—
(i) the average monthly number of families receiving assistance during the immediately preceding fiscal year under the State program funded under this part or any other State
program funded with qualified State expenditures (as defined in section 609(a)(7)(B)(i) of
this title) is less than
(ii) the average monthly number of families that received assistance under any State
program referred to in clause (i) during fiscal
year 2005.
The minimum participation rate shall not be reduced to the extent that the Secretary determines
that the reduction in the number of families receiving such assistance is required by Federal law.

118a
(B)

Eligibility changes not counted

The regulations required by subparagraph (A)
shall not take into account families that are diverted from a State program funded under this
part as a result of differences in eligibility criteria
under a State program funded under this part and
the eligibility criteria in effect during fiscal year
2005. Such regulations shall place the burden on
the Secretary to prove that such families were diverted as a direct result of differences in such eligibility criteria.
(4) State option to include individuals receiving assistance under a tribal family assistance plan or
tribal work program

For purposes of paragraphs (1)(B) and (2)(B), a
State may, at its option, include families in the State
that are receiving assistance under a tribal family assistance plan approved under section 612 of this title
or under a tribal work program to which funds are
provided under this part.
(5) State option
exemptions

for

participation

requirement

For any fiscal year, a State may, at its option, not
require an individual who is a single custodial parent
caring for a child who has not attained 12 months of
age to engage in work, and may disregard such an individual in determining the participation rates under
subsection (a) of this section for not more than 12
months.

119a
(c)

Engaged in work
(1) General rules
(A)

All families

For purposes of subsection (b)(1)(B)(i) of this
section, a recipient is engaged in work for a month
in a fiscal year if the recipient is participating in
work activities for at least the minimum average
number of hours per week specified in the following table during the month, not fewer than 20
hours per week of which are attributable to an activity described in paragraph (1), (2), (3), (4), (5), (6),
(7), (8), or (12) of subsection (d) of this section, subject to this subsection:
If the month is in the
fiscal year:

1997………………………
1998………………………
1999………………………
2000 or thereafter………
(B)

The minimum average
number of hours per
week is:

20
20
25
30.

2-parent families

For purposes of subsection (b)(2)(B) of this section, an individual is engaged in work for a month
in a fiscal year if—
(i) the individual and the other parent in
the family are participating in work activities
for a total of at least 35 hours per week during
the month, not fewer than 30 hours per week of
which are attributable to an activity described
in paragraph (1), (2), (3), (4), (5), (6), (7), (8), or

120a
(12) of subsection (d), subject to this subsection; and
(ii) if the family of the individual receives
federally-funded child care assistance and an
adult in the family is not disabled or caring for
a severely disabled child, the individual and the
other parent in the family are participating in
work activities for a total of at least 55 hours
per week during the month, not fewer than 50
hours per week of which are attributable to an
activity described in paragraph (1), (2), (3), (4),
(5), (6), (7), (8), or (12) of subsection (d) of this
section.
(2) Limitations and special rules
(A)
(i)

Number of weeks for which job search counts
as work
Limitation

Notwithstanding paragraph (1) of this subsection, an individual shall not be considered to
be engaged in work by virtue of participation in
an activity described in subsection (d)(6) of this
section of a State program funded under this
part or any other State program funded with
qualified State expenditures (as defined in section
609(a)(7)(B)(i) of this title), after the individual
has participated in such an activity for 6 weeks
(or, if the unemployment rate of the State is at
least 50 percent greater than the unemployment rate of the United States or the State is a
needy State (within the meaning of section

121a
603(b)(5) of this title), 12 weeks), or if the participation is for a week that immediately follows 4 consecutive weeks of such participation.
(ii) Limited authority to count less than full
week of participation

For purposes of clause (i) of this subparagraph, on not more than 1 occasion per individual, the State shall consider participation of the
individual in an activity described in subsection
(d)(6) of this section for 3 or 4 days during a
week as a week of participation in the activity
by the individual.
(B)

Single parent or relative with child under age
6 deemed to be meeting work participation requirements if parent or relative is engaged in
work for 20 hours per week

For purposes of determining monthly participation rates under subsection (b)(1)(B)(i) of this
section, a recipient who is the only parent or caretaker relative in the family of a child who has not
attained 6 years of age is deemed to be engaged in
work for a month if the recipient is engaged in
work for an average of at least 20 hours per week
during the month.
(C)

Single teen head of household or married
teen who maintains satisfactory school attendance deemed to be meeting work participation requirements

For purposes of determining monthly participation rates under subsection (b)(1)(B)(i) of this
section, a recipient who is married or a head of

122a
household and has not attained 20 years of age is
deemed to be engaged in work for a month in a
fiscal year if the recipient—
(i) maintains satisfactory attendance at
secondary school or the equivalent during the
month; or
(ii) participates in education directly related to employment for an average of at least
20 hours per week during the month.
(D)

Limitation on number of persons who may be
treated as engaged in work by reason of participation in educational activities

For purposes of determining monthly participation rates under paragraphs (1)(B)(i) and (2)(B)
of subsection (b) of this section, not more than 30
percent of the number of individuals in all families
and in 2-parent families, respectively, in a State who
are treated as engaged in work for a month may
consist of individuals who are determined to be engaged in work for the month by reason of participation in vocational educational training, or (if the
month is in fiscal year 2000 or thereafter) deemed
to be engaged in work for the month by reason of
subparagraph (C) of this paragraph.
(d)

“Work activities” defined

As used in this section, the term “work activities”
means—
(1)

unsubsidized employment;

(2)

subsidized private sector employment;

(3)

subsidized public sector employment;

123a
(4) work experience (including work associated
with the refurbishing of publicly assisted housing) if
sufficient private sector employment is not available;
(5)

on-the-job training;

(6)

job search and job readiness assistance;

(7)

community service programs;

(8) vocational educational training (not to exceed
12 months with respect to any individual);
(9) job skills training directly related to employment;
(10) education directly related to employment, in
the case of a recipient who has not received a high
school diploma or a certificate of high school equivalency;
(11) satisfactory attendance at secondary school
or in a course of study leading to a certificate of general equivalence, in the case of a recipient who has
not completed secondary school or received such a
certificate; and
(12) the provision of child care services to an individual who is participating in a community service
program.
(e)

Penalties against individuals
(1) In general

Except as provided in paragraph (2), if an individual in a family receiving assistance under the State
program funded under this part or any other State
program funded with qualified State expenditures

124a
(as defined in section 609(a)(7)(B)(i) of this title) refuses to engage in work required in accordance with
this section, the State shall—
(A) reduce the amount of assistance otherwise payable to the family pro rata (or more, at the
option of the State) with respect to any period during a month in which the individual so refuses; or
(B)

terminate such assistance,

subject to such good cause and other exceptions as
the State may establish.
(2) Exception

Notwithstanding paragraph (1), a State may not
reduce or terminate assistance under the State program funded under this part or any other State program funded with qualified State expenditures (as
defined in section 609(a)(7)(B)(i) of this title) based
on a refusal of an individual to engage in work required in accordance with this section if the individual is a single custodial parent caring for a child who
has not attained 6 years of age, and the individual
proves that the individual has a demonstrated inability (as determined by the State) to obtain needed
child care, for 1 or more of the following reasons:
(A) Unavailability of appropriate child care
within a reasonable distance from the individual’s
home or work site.
(B) Unavailability or unsuitability of informal child care by a relative or under other arrangements.
(C) Unavailability of appropriate and affordable formal child care arrangements.

125a
3.

42 U.S.C. 1315(a) provides:

Demonstration projects
(a)

Waiver of State plan requirements; costs regarded as
State plan expenditures; availability of appropriations

In the case of any experimental, pilot, or demonstration project which, in the judgment of the Secretary, is
likely to assist in promoting the objectives of subchapter
I, X, XIV, XVI, or XIX of this chapter, or part A or D of
subchapter IV of this chapter, in a State or States—
(1) the Secretary may waive compliance with
any of the requirements of section 302, 602, 654, 1202,
1352, 1382, or 1396a of this title, as the case may be,
to the extent and for the period he finds necessary to
enable such State or States to carry out such project,
and
(2)(A) costs of such project which would not otherwise be included as expenditures under section 303,
655, 1203, 1353, 1383, or 1396b of this title, as the case
may be, and which are not included as part of the
costs of projects under section 1310 of this title, shall,
to the extent and for the period prescribed by the
Secretary, be regarded as expenditures under the
State plan or plans approved under such subchapter,
or for administration of such State plan or plans, as
may be appropriate, and
(B) costs of such project which would not otherwise be a permissible use of funds under part A of
subchapter IV of this chapter and which are not included as part of the costs of projects under section
1310 of this title, shall to the extent and for the period

126a
prescribed by the Secretary, be regarded as a permissible use of funds under such part.
In addition, not to exceed $4,000,000 of the aggregate
amount appropriated for payments to States under such
subchapters for any fiscal year beginning after June 30,
1967, shall be available, under such terms and conditions
as the Secretary may establish, for payments to States
to cover so much of the cost of such projects as is not
covered by payments under such subchapters and is not
included as part of the cost of projects for purposes of
section 1310 of this title.
4.

42 U.S.C. 1396-1 provides:

Appropriations

For the purpose of enabling each State, as far as
practicable under the conditions in such State, to furnish
(1) medical assistance on behalf of families with dependent children and of aged, blind, or disabled individuals,
whose income and resources are insufficient to meet the
costs of necessary medical services, and (2) rehabilitation and other services to help such families and individuals attain or retain capability for independence or selfcare, there is hereby authorized to be appropriated for
each fiscal year a sum sufficient to carry out the purposes of this subchapter. The sums made available under this section shall be used for making payments to
States which have submitted, and had approved by the
Secretary, State plans for medical assistance.

127a
5.

42 U.S.C. 1396u-1(b)(3) provides:

Assuring coverage for certain low-income families
(b)

Application of pre-welfare-reform eligibility criteria
(3) Option to terminate medical assistance for failure to meet work requirement
(A) Individuals receiving cash assistance under
TANF

In the case of an individual who—
(i) is receiving cash assistance under a
State program funded under part A of subchapter IV of this chapter,
(ii) is eligible for medical assistance under
this subchapter on a basis not related to section
1396a(l) of this title, and
(iii) has the cash assistance under such program terminated pursuant to section 607(e)(1)(B)
of this title (as in effect on or after the welfare
reform effective date) because of refusing to
work,
the State may terminate such individual’s eligibility for medical assistance under this subchapter
until such time as there no longer is a basis for the
termination of such cash assistance because of
such refusal.
(B) Exception for children

Subparagraph (A) shall not be construed as
permitting a State to terminate medical assistance
for a minor child who is not the head of a household receiving assistance under a State program

128a
funded under part A of subchapter IV of this chapter.

129a
APPENDIX F

DEPARTMENT OF HEALTH & HUMAN SERVICES

Centers for Medicare & Medicaid Services
Administrator

Washington, DC 20201
[Mar. 5, 2018]

Cindy Gillespie
Director
Arkansas Department of Human Services
700 Main Street
Little Rock, Arkansas 72201
Dear Ms. Gillespie:
The Centers for Medicare & Medicaid Services (CMS)
is approving Arkansas’s request for an amendment to its
section 1115 demonstration project, entitled “Arkansas
Works” (Project Number 11-W-00287/6) in accordance
with section 1115(a) of the Social Security Act (the Act).
This approval is effective March 5, 2018, through December 31, 2021, upon which date, unless extended or
otherwise amended, all authorities granted to operate
this demonstration will expire. CMS’s approval is subject to the limitations specified in the attached expenditure authorities, waivers, and special terms and conditions (STCs). The state will begin implementation of
the community engagement requirement no sooner than
June 1, 2018. The state may deviate from Medicaid

130a
state plan requirements only to the extent those requirements have been listed as waived or as not applicable to
expenditures.
Extent and Scope of Demonstration

The current Arkansas Works section 1115 demonstration project was implemented by the State of Arkansas
(“state”) in December 2016. The Arkansas Works program provides certain adult Medicaid beneficiaries with
premium assistance to purchase qualified health plan
(QHP) coverage through the Health Insurance Marketplace. As originally approved, Arkansas Works was
designed to leverage the efficiencies and experience of
the commercial market to test whether this premium assistance mode improves continuity, access, and quality
for Arkansas Works beneficiaries and results in lowering the growth rate of premiums across population
groups. The demonstration project also attempts to
facilitate transitions between and among Arkansas
Works, ESI, and the Marketplace for Arkansas Works
enrollees. Approval of this demonstration amendment
allows Arkansas, no sooner than June 1, 2018, to require
all Arkansas Works beneficiaries ages 19 through 49,
with certain exceptions, to participate in and timely document and report 80 hours per month of community engagement activities, such as employment, education, job
skills training, or community service, as a condition of
continued Medicaid eligibility. Community engagement
requirements will not apply to Arkansas Works beneficiaries ages 50 and older so as to ensure alignment and
consistency with the state’s Supplemental Nutrition Assistance Program (SNAP) requirements. The alignment
is appropriate and consistent with the ultimate objective

131a
of improving health and well-being for Medicaid beneficiaries.
CMS also is authorizing authorities for additional features, including:
•

Removing the requirement to have an approvedhospital presumptive-eligibility state plan amendment (SPA) as a condition of enacting the state’s
waiver of retroactive eligibility;

•

Clarifying the waiver of the requirement to provide new adult group beneficiaries 1 with retroactive eligibility to reflect the state’s intent to
not provide retroactive eligibility but for the 30
days prior to the date of application coverage;
and

•

Removing the waiver and expenditure authorities related to the state’s mandatory employersponsored insurance (ESI) premium assistance
program, as the state no longer intends to continue this program.

Under the new community engagement program, the
state will test whether coupling the requirement for certain beneficiaries to engage in and report work or other
community engagement activities with meaningful incentives to encourage compliance will lead to improved
health outcomes and greater independence. CMS is
approving the community engagement program based
on our determination that it is likely to assist in promoting the objectives of the Medicaid program. The terms
This group includes adults up to and including 133 percent of the
FPL who meet the other criteria specified in Section 1902(a)(10)(A)(i)(VIII)
of the Social Security Act.
1

132a
and conditions of Arkansas’s community engagement
requirement that accompany this approval are consistent with the guidance provided to states through
State Medicaid Director’s Letter (SMD 18-0002), Opportunities to Promote Work and Community Engagement Among Medicaid Beneficiaries, issued on January
11, 2018. CMS is not at this time approving Arkansas’s
request to reduce income eligibility for Arkansas Works
beneficiaries to 100 percent of the federal poverty level
(FPL).
Determination that the demonstration project is likely to
assist in promoting Medicaid’s Objectives

Demonstration projects under section 1115 of the Act
offer a way to give states more freedom to test and evaluate innovative solutions to improve quality, accessibility and health outcomes in a budget-neutral manner,
provided that, in the judgment of the Secretary, the demonstrations are likely to assist in promoting the objectives of Medicaid.
While CMS believes that states are in the best position
to design solutions that address the unique needs of
their Medicaid-eligible populations, the agency has an
obligation to ensure that proposed demonstration programs are likely to better enable states to serve their
low-income populations, through measures designed to
improve health and wellness, including measures to help
individuals and families attain or retain capability for independence or self-care. Medicaid programs are complex and shaped by a diverse set of interconnected policies and components, including eligibility standards, benefit designs, reimbursement and payment policies, information technology (IT) systems, and more. Therefore,

133a
in making this determination, CMS considers the proposed demonstration as a whole.
In its consideration of the proposed changes to Arkansas Works, CMS examined whether the demonstration
as amended was likely to assist in improving health outcomes; whether it would address behavioral and social
factors that influence health outcomes; and whether it
would incentivize beneficiaries to engage in their own
health care and achieve better health outcomes. CMS
has determined that the Arkansas Works demonstration
as amended is likely to promote Medicaid objectives,
and that the waivers sought are necessary and appropriate to carry out the demonstration.
1.

The demonstration is likely to assist in improving
health outcomes through strategies that promote
community engagement and address certain
health determinants.

Arkansas Works supports coordinated strategies to address certain health determinants, as well as promote
health and wellness through increased upward mobility,
greater independence, and improved quality of life.
Specifically, Arkansas Works’ community engagement
requirement is designed to encourage beneficiaries to
obtain and maintain employment or undertake other
community engagement activities that research has

134a
shown to be correlated with improved health and wellness. 2, 3 As noted in CMS’ SMDL: 18-0002, these activities have been positively correlated with improvements in individuals’ health. CMS has long supported
policies that recognize meaningful work as essential to
the economic self-sufficiency, self-esteem, well-being,
and improved health of people with disabilities.
Given the potential benefits of work and community engagement, we believe that state Medicaid programs
should be able to design and test incentives for beneficiary
compliance. Under Arkansas’s demonstration, the state
will encourage compliance by making it a condition of
continued coverage. Beneficiaries that successfully report compliance on a monthly basis will have no disruption in coverage. It is only when a beneficiary fails to
report compliance for 3 months that the state will disenroll the beneficiary for the remainder of the calendar
year. Beneficiaries that are disenrolled from their
plan will be able to re-enroll through Arkansas Works
upon the earlier of turning age 50, qualifying for another
category of Medicaid eligibility, or the beginning of a
new calendar year.
Arkansas’ approach is informed by the state’s experience with the voluntary work-referral program in its
current demonstration, which the state has not found to
be an effective incentive. Since January 2017, certain
Waddell, G. and Burton, AK. Is Work Good For Your Health
And Well-Being? (2006) EurErg Centre for Health and Social Care
Research, University of Huddersfield, UK
3
Van der Noordt, M, Jzelenberg, H, Droomers, M, and Proper, K.
Health effects of employment: a systemic review of prospective
studies. BMJoumals. Occupational and Environmental Medicine.
2014:71 (10).
2

135a
individuals enrolled in Arkansas Medicaid have been referred to the Arkansas Department of Workforce Services (DWS), which provides a variety of services to assist individuals in gaining employment. Through October 2017, only 4.7 percent of beneficiaries followed
through with the referral and accessed DWS services.
Of those who accessed DWS services, 23 percent have
become employed. This result suggests that referrals
alone, without any further incentive, may not be be sufficient to encourage the Arkansas Works population to
participate in community engagement activities. CMS
will therefore allow Arkansas to test whether the stronger
incentive model is more effective in encouraging participation.
Arkansas has tailored the incentive structure to include
beneficiary protections, such as an opportunity to maintain coverage for beneficiaries who report that they
failed to meet the community engagement hours due to
circumstances that give rise to a good cause exemption,
as well as the opportunity to apply and reenroll in Arkansas Works in the beginning of the next plan year.
Additionally, if Arkansas determines that a beneficiary’s
failure to comply or report compliance was the result of
a catastrophic event or circumstances beyond the beneficiary’s control, the beneficiary will receive retroactive
coverage to the date coverage ended without need for a
new application. The impact of this incentive, as well
as other aspects of the demonstration, will be assessed
through an evaluation designed to measure how the
demonstration affects eligibility, and health outcomes
over time for persons subject to the demonstration’s policies.

136a
2.

The demonstration is expected to strengthen beneficiary engagement in their personal health care.

CMS believes that it is important for beneficiaries to engage in their personal health care, particularly while
they are healthy to prevent illness. Accordingly, CMS
supports state testing of policies designed to incentivize
beneficiaries to obtain and maintain health coverage before they become sick so they can take an active role in
engaging in their personal health care while healthy.
Consistent with CMS’s commitment to support states in
their efforts to align Medicaid and private insurance policies for non-disabled adults to help them prepare for
private coverage (stated in the letter to governors on
March 14, 2017), this amendment removes the requirement that Arkansas provide hospitals with an opportunity to conduct presumptive eligibility (consistent
with Section 1902(a)(47)(B)) as a condition of its waiver
of retroactive eligibility. It further clarifies the waiver
of the requirement to provide new adult group beneficiaries with retroactive eligibility but for the 30 days
prior to the date of application coverage. With respect
to the waiver of retroactive eligibility, through this approval, we are testing whether eliminating 2 of the 3
months of retroactive coverage will encourage beneficiaries to obtain and maintain health coverage, even
when they are healthy. This feature of the amendment
is intended to increase continuity of care by reducing
gaps in coverage when beneficiaries church on and off of
Medicaid or sign up for Medicaid only when sick with
the ultimate objective of improving beneficiary health.
Consideration of Public Comments

Both Arkansas and CMS received comments during the
state and federal public comment periods. Consistent

137a
with federal transparency requirements, CMS reviewed
all of the materials submitted by the state, as well as all
the public comments it received, when evaluating whether
the demonstration project as a whole was likely to assist
in promoting the objectives of the Medicaid program,
and whether the waiver authorities sought were necessary and appropriate to implement the demonstration.
In addition, CMS took public comments submitted during the federal comment period into account as it worked
with Arkansas to develop the STCs that accompany this
approval that will bolster beneficiary protections, including specific state assurances around these protections to further support beneficiaries.
Opposing commenters expressed general disagreement
with efforts to modify Arkansas Works. Some offered
more specific feedback regarding individual elements of
the demonstration or the impact of certain provisions on
distinct populations. Some commenters expressed the
desire to see greater detail regarding how the program
would be operationalized, particularly with respect to
provisions like the community engagement requirements.
Other comments expressed concerns that these requirements would be burdensome on families or create barriers to coverage. The state has pledged to do beneficiary outreach and education on how to comply with the
new community engagement requirements, and intends
to use an online reporting system to make reporting easy
for enrollees. Further, CMS intends to monitor state-reported data on how the new requirements are impacting
enrollment.
Many commenters indicated that many beneficiaries not
qualifying for Medicaid on the basis of disability may
still have issues gaining and maintaining employment

138a
due to their medical or behavioral health conditions.
To mitigate these concerns, Arkansas assures that it will
provide these beneficiaries reasonable modifications,
which could include the reduction of or exemption from
community engagement hours. This is a condition of
approval, as provided in the STCs.
Some commenters expressed concern that Arkansas’s
proposal “lacked sufficient detail to permit informed
public comments.” To ensure meaningful public input
at the Federal level, and to facilitate the demonstration
application process for States, CMS utilizes standardized demonstration application requirements so that the
public, including those with disabilities, and CMS can
meaningfully assess states’ applications. Upon receipt
of Arkansas’ proposal, CMS followed its standard protocols for evaluating the completeness of the application
and determined that Arkansas application was complete. We continue to believe that Arkansas submitted
sufficient detail to permit meaningful public input.
Many commenters who opposed the community engagement requirement emphasized that the community engagement requirements would be burdensome for individuals and families or create barriers to coverage for
non-exempt people who might have trouble accessing
care. We believe that the community engagement requirements create appropriate incentives for beneficiaries to gain employment. Given that employment is positively correlated with health outcomes, it furthers the
purposes of the Medicaid statute to test and evaluate
these requirements as a means to improve beneficiaries’
health and to promote beneficiary independence. However, CMS has included provisions in these STCs to ensure that CMS may withdraw waivers or expenditure

139a
authorities at any time if federal monitoring of data indicates that continuing the waivers or expenditure authorities would no longer be in the public interest or promote the objectives of Title XIX and Title XXI, including if data indicates that the community engagement
features of this demonstration may not adequately incentivize beneficiary participation or are unlikely to result in improved health outcomes, or that other demonstration features are not operating as intended. In efforts to support beneficiaries, CMS will require Arkansas to provide written notices to beneficiaries that include information such as how to ensure that they are in
compliance with the community engagement requirements, how to appeal an eligibility denial, and how to
access primary and preventive care during the noneligibility period. The state will also implement an outreach strategy to inform beneficiaries how to report
compliance with the community engagement requirements.
Additional comments characterized the provisions to
terminate coverage for failure to participate in the community engagement process as “causing disruptions in
care.” CMS and Arkansas acknowledged these concerns and Arkansas will be exempting from the requirement those individuals who are medically frail, as well
as those whom a medical professional has determined
are unable to work due to illness or injury. The state
will implement an outreach strategy to inform beneficiaries about how to report compliance with the community engagement requirements. In addition, monthly
notices will provide information on resources available
to beneficiaries who may require assistance reporting
community engagement activities.

140a
Several commenters expressed concern about the potential 9-month length of the non-eligibility period.
This would only occur where (i) an individual fails to fulfill his or her community engagement obligations in the
first month of a calendar year and then after receiving a
notice from the State in the second month, fails to respond to that notice by rectifying the situation or seeking an exemption, (ii) the same individual fails to fulfill
his or her community engagement obligations in the second month of a calendar year and then after receiving a
notice from the State in the third month, fails to respond
to that notice by rectifying the situation or seeking an
exemption, and (iii) the same individual fails to fulfill his
or her community engagement obligations in the third
month of a calendar year and then after receiving a notice from the State in the fourth month, fails to respond
to that notice by rectifying the situation or seeking an
exemption. The program provides the individual with
three opportunities to rectify the situation or seek an
exemption. Any system that requires individuals to
fulfill certain requirements as a condition of receiving
benefits necessarily places some degree of responsibility on these individuals. We believe that the overall
health benefits to the effected population through community engagement outweigh the health-risks with respect to those who fail to respond and who fail to seek
exemption from the programs limited requirements.
Some comments pointed out that the maximum non-eligibility period is longer than what has been proposed in
other state demonstration applications, and does not offer any way to regain eligibility during the non-eligibility
period. CMS acknowledges this and Arkansas will be
required to monitor and report to CMS certain metrics
on compliance rates and health outcomes. CMS will

141a
closely monitor this data, and retains the right to suspend, amend or terminate the demonstration if the agency
determines that it is not meeting its stated objectives.
Other commenters expressed concern about Arkansas’
current eligibility and application operations and their
impact on beneficiaries who may reapply for eligibility
after serving their disenrollment period for non-compliance with community engagement. To help mitigate
these concerns, CMS has added additional assurances to
the STCs and Arkansas will submit for CMS approval
an eligibility and enrollment monitoring plan within 90
calendar days after approval of the community engagement amendment of this demonstration which will allow
CMS to track Arkansas’ compliance with the assurances
described in the STCs, including several related to eligibility and application processing systems. The state
may not take adverse action on a beneficiary for failing
to complete community engagement requirements until
CMS has reviewed the application processing monitoring plan for completeness and determined that the state
has addressed all of the required elements in a reasonable manner. As part of this requirement, CMS will require that Arkansas provide status updates on the implementation of the eligibility and enrollment monitoring plan in the state’s quarterly reports.
Finally, many comments expressed concern over the
waiver of retroactive eligibility, citing disruptions in
care for beneficiaries and potential financial burdens for
both providers and beneficiaries. Arkansas had previously received approval for a conditional waiver of retroactive coverage conditioned upon the state coming into
compliance with statutory and regulatory requirements

142a
related to eligibility determinations. CMS has determined the state has met these requirements. CMS believes that a more limited period of retroactive eligibility
will encourage beneficiaries to obtain and maintain
health coverage, even when they are healthy. As such,
with this amendment we are testing whether this limited
retroactive eligibility period supports increased continuity of care by reducing gaps in coverage when beneficiaries church on and off Medicaid or sign up for Medicaid only when sick and whether this feature will improve health outcomes.
Other Information

CMS’s approval of this demonstration is conditioned
upon compliance with the enclosed list of waiver and expenditure authorities and the STCs defining the nature,
character and extent of anticipated federal involvement
in the project. The award is subject to our receiving
your written acknowledgement of the award and acceptance of these STCs within 30 days of the date of this
letter.
Your project officer for this demonstration is Ms. Tia
Witherspoon. She is available to answer any questions
concerning your section 1115 demonstration.
Ms.
Witherspoon’s contact information is as follows:
Centers for Medicare & Medicaid Services
Center for Medicaid and CHIP Services
Mail Stop: S2-03-17
7500 Security Boulevard
Baltimore, MD 21244-1850
Email: Tia.Witherspoon@cms.hhs.gov
Official communications regarding program matters
should be sent simultaneously to Ms. Witherspoon and

143a
Mr. Bill Brooks, Associate Regional Administrator, in
our Dallas Regional Office. Mr. Brooks’ contact information is as follows:
Mr. Bill Brooks
Associate Regional Administrator
Centers for Medicare & Medicaid Services
Division of Medicaid and Children’s
Health Operations
1301 Young Street, Suite 833
Dallas, TX 75202
If you have questions regarding this approval, please
contact Ms. Judith Cash, Acting Director, State Demonstrations Group, Center for Medicaid and CHIP Services, at (410) 786-9686.
Thank you for all your work with us, as well as stakeholders in Arkansas, over the past months to reach approval.
Sincerely
[REDACTED]

SEEMA VERMA
Enclosures

144a
APPENDIX G

11/30/2018
Henry D. Lipman
Medicaid Director
New Hampshire Department of Health and Human Services
129 Pleasant Street, Brown Building
Concord, New Hampshire 03301-3857
Dear Mr. Lipman:
I am pleased to inform you that the Centers for Medicare & Medicaid Services (CMS) has approved your request to extend New Hampshire’s section 1115 demonstration, now entitled “New Hampshire Granite Advantage Health Care Program 1115 Demonstration”
(Project Number 11-W-00298/1), under authority of section 1115(a) of the Social Security Act (the Act).
The state may deviate from the Medicaid state plan requirements only to the extent those requirements have
been waived as described in the demonstration. The
approval is effective through December 31, 2023, upon
which date, unless extended or otherwise amended, all
authorities granted to operate this demonstration will
expire. CMS’s approval is subject to the limitations specified in the waivers and special terms and conditions
(STCs). The state will begin implementation of the community engagement requirement and the enrollment of

145a
eligible beneficiaries into Medicaid managed care no
sooner than January 1, 2019, and only in compliance with
the requirements outlined within the STCs.
Objectives of the Medicaid Program

The Secretary may approve a demonstration project under section 1115 if, in his judgment, the project is likely
to assist in promoting the objectives of title XIX. The
purposes of Medicaid include the appropriation of funds
to “enabl[e] each State, as far as practicable under the
conditions in such State, to furnish (1) medical assistance on behalf of families with dependent children and
of aged, blind, or disabled individuals, whose income and
resources are insufficient to meet the costs of necessary
medical services, and (2) rehabilitation and other services to help such families and individuals attain or retain
capability for independence or self-care.” Act § 1901.
This appropriations provision makes clear that an important objective of the Medicaid program is to furnish
medical assistance and other services to vulnerable populations. But there is little intrinsic value in paying for
services if those services are not advancing the health
and wellness of the individual receiving them, or otherwise helping the individual attain independence.
Therefore, we believe an objective of the Medicaid program, in addition to furnishing medical assistance to pay
for healthcare services, is to advance the health and
wellness needs of its beneficiaries and that it is appropriate for the state to structure its demonstration program in a manner that prioritizes meeting those needs.
Section 1115 demonstration projects present an opportunity for states to experiment with reforms that go beyond just routine medical care, and focus on interventions that drive better health outcomes and quality of

146a
life improvements, and may increase beneficiaries’ financial independence. Such policies may include those
designed to address certain health determinants, including by encouraging beneficiaries to engage in healthpromoting behaviors and to strengthen engagement by
beneficiaries in their personal health care plans. These
tests will necessarily mean a change to the status quo.
They may have associated administrative costs, particularly at the initial stage, and section 1115 acknowledges
that demonstrations may “result in an impact on eligibility, enrollment, benefits, cost-sharing, or financing.”
Act § 1115(d)(1). But, in the long term, they may create incentives and opportunities that help enable many
beneficiaries to enjoy the numerous personal benefits
that come with improved health and financial independence.
Section 1115 demonstration projects also provide an opportunity for states to test policies that ensure the fiscal
sustainability of the Medicaid program, better “enabling
each [s]tate, as far as practicable under the conditions
in such [s]tate” to furnish medical assistance, Act § 1901,
while making it more practicable for states to furnish
medical assistance to a broader range of persons in need.
For instance, measures designed to improve health and
wellness may reduce the volume of services furnished to
beneficiaries, as healthier, more engaged beneficiaries
tend to receive fewer medical services and are generally
less costly to cover. Further, measures that have the
effect of helping individuals secure employer-sponsored
or other commercial coverage or otherwise transition
from Medicaid eligibility may decrease the number of
individuals who need financial assistance, including medical assistance, from the state. Such measures may en-

147a
able states to stretch their resources further and enhance their ability to provide medical assistance to a
broader range of persons in need, including by expanding the services and populations they cover. 1 By the
same token, such measures may also preserve states’
ability to continue to provide the optional services and
coverage they already have in place.
Our demonstration authority under section 1115 allows
us to offer states more flexibility to experiment with dif-

States have considerable flexibility in the design of their Medicaid programs, within federal guidelines. Certain benefits are mandatory under federal law, but many benefits may be provided at
state option, such as prescription drug benefits, vision benefits, and
dental benefits. Similarly, states have considerable latitude to determine whom their Medicaid programs will cover. Certain eligibility groups must be covered under a state’s program, but many
states opt to cover additional eligibility groups that are optional under the Medicaid statute. The optional groups include a new, nonelderly adult population (ACA expansion population or new adult
group) that was added to the Act at section 1902(a)(10)(A)(i)(VIII)
by the Patient Protection and Affordable Care Act (ACA). Coverage of the ACA expansion population became optional as a result
of the Supreme Court’s decision in NFIB v. Sebelius, 567 U.S. 519
(2012). Accordingly, several months after the NFIB decision was
issued, CMS informed the states that they “have flexibility to start
or stop the expansion.” CMS, Frequently Asked Questions on
Exchanges, Market Reforms, and Medicaid at 11 (Dec. 10, 2012).
In addition to expanding Medicaid coverage by covering optional
eligibility groups and benefits beyond what the Medicaid statute
requires, many states also choose to cover benefits beyond what is
authorized by statute by using expenditure authority under section
1115(a)(2) of the Act. For example, recently, many states have
been relying on this authority to expand the scope of services they
offer to address substance use disorders beyond what the statute
explicitly authorizes.
1

148a
ferent ways of improving health outcomes and strengthening the financial independence of beneficiaries. Demonstration projects that seek to improve beneficiary
health and financial independence improve the well-being of Medicaid beneficiaries and, at the same time, allow states to maintain the long-term fiscal sustainability
of their Medicaid programs and to provide coverage for
more medical services to more Medicaid beneficiaries.
Accordingly, such demonstration projects advance the
objectives of the Medicaid program.
Extent and Scope of Demonstration

In this extension package, changes have been made to
the STCs and related authorities to align with New
Hampshire State Legislature Senate Bill 313, requiring
the state to request waivers under section 1115 needed
to implement the Granite Advantage Health Care Program, which will serve beneficiaries through the state’s
Medicaid managed care delivery system rather than
through the New Hampshire Health Protection Program (NHHPP) Premium Assistance program, which
assisted beneficiaries in covering premiums to purchase
qualified health plan coverage through the Health Insurance Exchange. Separately, on September 13, 2018,
CMS approved New Hampshire’s state plan amendment
to effectuate mandatory enrollment of the new adult group
population into Medicaid managed care. By transitioning all beneficiaries into a single Medicaid managed care
delivery system, the state intends to streamline administration of beneficiary services and reduce administrative costs. Consistent with the STCs for this extension,
the state must ensure the availability of adequate resources for implementation and monitoring of the demonstration. Approval of this demonstration extension

149a
does not imply approval of any particular state financing
approach and the state must comply with all general financial requirements under Title XIX.
As required under state law, the demonstration application includes a request for a waiver of retroactive coverage for the new adult group. This waiver does not apply to individuals who would have been eligible at any
point during the otherwise available three-month retroactive eligibility period as pregnant women (including
during the 60-day post-partum period), infants under 1,
or children under 19, parents or caretaker relatives, or
as individuals eligible in aged, blind, or disabled eligibility groups (including those who are applying for a longterm care determination). With this waiver, the state
will test whether eliminating retroactive coverage will
encourage beneficiaries to enroll earlier, to maintain
health insurance coverage even while healthy, and to obtain preventive health care. This feature of the demonstration is designed to encourage preventive care and
reduce Medicaid costs, with the ultimate objective of improving beneficiary health. If eligible individuals wait
until they are sick to enroll in Medicaid, they are less
likely to obtain preventive health services during periods when they are not enrolled. In addition to evaluating the effect on receipt of preventive services and on
health outcomes, the state will also evaluate whether the
policy increases continuity of care by reducing gaps in
coverage when beneficiaries churn on and off of Medicaid or sign up for Medicaid only when sick. Similar
waivers for retroactive eligibility have been included in
this and other prior demonstration projects.
Consistent with the approval of the state’s demonstration amendment approved on May 7, 2018, this extension

150a
allows New Hampshire, no sooner than January 1, 2019,
to require all beneficiaries in the new adult group, ages
19 through 64, with certain exemptions, 2 to participate
in 100 hours per month of community engagement activities, such as employment, education, job skills training,
or community service, as a condition of continued Medicaid eligibility. Under the community engagement program, the state will test whether coupling the requirements for certain beneficiaries to engage in community
engagement activities with certain meaningful incentives to encourage compliance, as detailed below, will
lead to improved health outcomes, including improved
health and wellness, and greater independence, while
better integrating fiscal sustainability and personal responsibility into the state’s Medicaid program.
Determination that the demonstration project is likely to
assist in promoting Medicaid’s objectives

For reasons discussed below, the Secretary has determined that Granite Advantage Health Care Program is
likely to assist in promoting the objectives of the Medicaid program.

2
If a New Hampshire Granite Advantage Health Care Program
beneficiary meets one or more of the exemption criteria as described in the STCs, he or she is exempted from the community
engagement requirements for the duration of his or her qualification for the exemption. Additionally, the STCs require that a nonexempt beneficiary have an opportunity to demonstrate that he or
she had good cause for failing to meet the community engagement
requirements for a month, and coverage and eligibility will not be
suspended for failure to meet community engagement requirements for a month for which the beneficiary has established good
cause for the failure.

151a
The demonstration promotes beneficiary health and financial independence.

The New Hampshire Granite Advantage Health Care
Program’s community engagement requirements are
designed to encourage beneficiaries to obtain employment
and/or undertake other community engagement activities that may lead to improved health and wellness and
increased financial independence for beneficiaries.
Promoting beneficiary health and independence advances the objectives of the Medicaid program; indeed,
in 2012, HHS specifically encouraged states to develop
demonstration projects “aimed at promoting healthy behaviors” and “individual ownership in health care decisions” as well as “accountability tied to improvement in
health outcomes.” 3
The community engagement provisions generally require adults in the new adult group to work, look for
work, or engage in activities that enhance their employability, such as job training, education, or community
service. The demonstration will thus help the state
and CMS evaluate whether the community engagement
requirement helps adults in this population transition
from Medicaid to financial independence and commercial insurance, including the federally subsidized coverage that is available through the Exchanges.
Failure to comply with the community engagement requirements could result in suspension of Medicaid eligibility, and termination of Medicaid enrollment if the
The Lewin Group, Indiana Healthy Indiana Plan 2.0 Interim
Evaluation Report (2016), available at: https://www.in.gov/fssa/files/
Lewin IN%20HIP%202%200%20Interim%20Evaluation%20Report
FINAL.pdf
3

152a
beneficiary is not in compliance with the requirements
on his or her redetermination date. Beneficiaries whose
Medicaid enrollment is terminated can re-apply for coverage at any time, and any prior noncompliance with the
community engagement requirements will not be considered as part of their new eligibility determination.
Although the state and CMS are testing the effectiveness of an incentive structure that attaches penalties to
failure to take certain measures, the program is designed
to make compliance with requirements achievable.
Beneficiaries can comply with the community engagement requirements by participating in a number of activities, such as subsidized or unsubsidized employment;
community service; job skills training; enrollment in an
accredited college or university; and substance use disorder treatment.
Beneficiaries whose circumstances
could make it unreasonably difficult or impossible to participate in qualifying activities are exempt from the community engagement requirements. This includes beneficiaries who are temporarily unable to participate due
to illness or incapacity as documented by a licensed provider; beneficiaries who are a parent or caretaker where
care of a dependent is considered necessary by a licensed provider; beneficiaries who are pregnant or 60
days or less post-partum; beneficiaries who are identified as medically frail; and beneficiaries with a disability
as defined by the ADA, Section 504, or Section 1557,
who are unable to comply with the requirements due to
disability-related reasons. Beneficiaries have 75 days
after the start date of the community engagement requirements before they must begin to meet the requirements or qualify for an exemption. Beneficiaries who
do not meet the monthly community engagement re-

153a
quirements have an opportunity to cure their noncompliance by demonstrating good cause for failing to meet
the requirements; demonstrating that they qualify for
an exemption; or making up the deficient hours for the
month that resulted in noncompliance.
Moreover, New Hampshire has taken steps to include
adequate beneficiary protections to ensure that the demonstration program requirements apply only to those
beneficiaries who can reasonably be expected to meet
them and to notify beneficiaries of their responsibilities
under the demonstration. Any individual whose coverage is suspended or terminated for failure to meet the
requirements will have the right to appeal the state’s decision as with other types of eligibility terminations,
consistent with all existing appeal and fair hearing protections. Furthermore, the incentives to meet the requirements, if effective, may result in individuals becoming ineligible because they have attained financial
independence—a positive result for the individual. Individuals who become ineligible for Medicaid because
their income has exceeded the upper limit for the new
adult group may receive an offer of employer-sponsored
insurance or may obtain subsidized commercial coverage through the Health Insurance Exchange, through
which premium tax credits are available to help pay the
plan premium for qualified individuals with income over
100 percent of the federal poverty level.
Similarly, the waiver of retroactive eligibility for the
new adult group, subject to specified exceptions, is also
designed to promote improved beneficiary health and
wellness by encouraging continuity of coverage and care,
including the receipt of preventive health services. It
is designed to encourage beneficiaries to obtain and

154a
maintain health coverage, even when healthy, and is
therefore intended to reduce gaps in coverage when
beneficiaries churn on and off Medicaid or sign up for
Medicaid only when sick. If eligible individuals wait
until they are sick to enroll in Medicaid, they are less
likely to obtain preventive services during periods when
they are not enrolled, potentially resulting in worse
health outcomes. CMS is requiring the state’s evaluation design to include hypotheses on the effects of the
waiver on enrollment and eligibility continuity (including for different subgroups of individuals, such as individuals who are healthy, individuals with complex medical needs, prospective applicants, and existing beneficiaries in different care settings), as well as the effects
of the demonstration on health outcomes and the financial impact of the demonstration (for example, an assessment of medical debt and uncompensated care costs).
The demonstration will furnish medical assistance in a
manner that improves the sustainability of the safety net.

Approval of this demonstration will enable the state to
continue coverage of the new adult group in the manner
contemplated under state law. The state’s current Medicaid expansion demonstration expires on December 31,
2018. As the state explained in its demonstration application, the Granite Advantage demonstration would
extend New Hampshire’s Medicaid expansion program
with the objective of improving beneficiary health, while
better integrating fiscal sustainability and personal responsibility into the state’s Medicaid program. The
state repeatedly articulated that its intention with this
extension is “to continue to provide coverage for the
Medicaid expansion population.” Because the state is

155a
seeking to “sustain and improve its Medicaid expansion,” state law requires that if CMS does not approve
the waivers necessary for the program by December 1,
2018, the state’s Health Commissioner must immediately notify all program participants that the Granite
Advantage demonstration program will be terminated
in accordance with the current waiver STCs. If CMS
were to disapprove the Granite Advantage demonstration, we recognize that the state plans to end its current
coverage of the new adult group that the Granite Advantage program was designed to cover, as the state has
informed CMS that, under its interpretation of state
law, it would be required to terminate coverage for its expansion population should CMS not approve this demonstration extension.
New Hampshire’s stated goals for the extension of the
Granite Advantage demonstration program align with
the goals of the Medicaid program. As discussed above,
both the community engagement requirement and the
waiver of retroactive eligibility for beneficiaries in the
new adult group, with specified exceptions, are intended
to improve beneficiary health and wellness and increase
financial independence. Promoting improved health
and wellness ultimately helps to keep health care costs
at more sustainable levels. Moreover, to the extent
that the community engagement requirements help individuals achieve financial independence and transition
into commercial coverage, the demonstration may reduce dependency on public assistance while still promoting Medicaid’s purpose of helping states furnish medical
assistance by allowing New Hampshire to stretch its
limited Medicaid resources. Helping the state stretch
its limited Medicaid resources will assist in ensuring the

156a
long-term fiscal sustainability of the program and preserving the health care safety net for those New Hampshire residents who need it most.
The community engagement requirements may impact
overall coverage levels if the individuals subject to the
requirements choose not to comply with them. However, the demonstration as a whole is expected to provide greater access to coverage for low-income individuals than would be available absent the demonstration.
It furthers the Medicaid program’s objectives to allow
states to experiment with innovative means of deploying
their limited state resources in ways that may allow
them to provide services beyond the legal minimum.
Enhancing fiscal sustainability allows the state to provide services to Medicaid beneficiaries that it could not
otherwise provide.
As described in the STCs, if monitoring or evaluation
data indicate that demonstration features are not likely
to assist in promoting the objectives of Medicaid, CMS
reserves the right to require the state to submit a corrective action plan to CMS for approval. Further,
CMS reserves the right to withdraw waivers at any time
if it determines that continuing the waivers would no
longer be in the beneficiaries’ interest or promote the
objectives of Medicaid.
Consideration of Public Comments

Both New Hampshire and CMS received comments during the state and federal public comment periods. The
state’s public comment period began on May 8, 2018, and
lasted through June 29, 2018. The state held three public
hearings in May and June 2018. New Hampshire has
no federally recognized tribes or Indian health programs,

157a
so tribal consultation was not required. New Hampshire
reviewed and considered all public comments received
during the public notice period. Consistent with federal transparency requirements, CMS reviewed all of
the materials submitted by the state, as well as all public
comments received during the federal comment period,
to determine whether the demonstration project as a
whole is likely to assist in promoting the objectives of
the Medicaid program, and whether the waiver authorities sought are necessary and appropriate to implement
the demonstration.
Comments on Community Engagement
Many of the public comments received during the federal public comment period expressed concern that community engagement requirements would be burdensome on families and caretakers and create barriers to
coverage. As CMS explained in the May 7, 2018 approval letter for the state’s demonstration amendment,
to mitigate some of those concerns, New Hampshire has
exempted beneficiaries who are parents or caretakers
where care of a dependent is considered necessary by a
licensed provider; parents or caretakers of a dependent
child under 6 years of age; and parents or caretakers of
a dependent of any age with a disability residing with
the parent or caretaker. To minimize the administrative burden of reporting, beneficiaries will be able to
verify or document their compliance or exemption status
via the internet, via telephone, by mail, in person, or
through other commonly available electronic means as
described in 42 CFR 435.907(a). CMS also intends to
monitor state-reported data on how the new requirements are impacting enrollment.

158a
Commenters specifically noted that the requirement
that non-exempt beneficiaries participate in 100 hours
of community engagement monthly is higher than other
states with similar community engagement requirements
approved to date, and may be correspondingly more difficult for beneficiaries to meet. Commenters also noted
that beneficiaries whose income qualifies them for coverage in the new adult group can work unpredictable
hours that vary from month to month, and often lack
control over their work schedules and may involuntarily
work part time. As mentioned above, to accommodate
these beneficiaries irregular work schedules, the state
provides beneficiaries who fail to participate in an allowable activity for 100 hours in one month with an opportunity to cure their non-compliance by making up their
deficient hours in the next month, or by demonstrating
good cause or qualification for an exemption, without
losing coverage.
Some commenters expressed concern that, despite participating in an allowable activity or having an exempt
status, beneficiaries will lose coverage due to the administrative burden of reporting compliance with the community engagement requirements. New Hampshire’s
system for reporting and verifying compliance is designed to minimize burden on beneficiaries. First, the
state will use existing data sources, where available, to
record a beneficiary’s monthly participation in qualifying activities or verify his or her exempted status. Second, beneficiaries will be able to verify this information
via the internet, via telephone, by mail, in person, or
through other commonly available electronic means as
described in 42 CFR 435.907(a). Finally, in cases where
the beneficiary has to report information to the state

159a
(that being when the state is unable to locate information in existing data systems), the beneficiary can
document their compliance or exemption status via the
internet, via telephone, by mail, in person, or through
other commonly available electronic means as described
in 42 CFR 435.907(a).
Other commenters were concerned about areas of high
unemployment acting as a barrier to meeting the community engagement requirements. Through this demonstration, New Hampshire seeks to incentivize beneficiaries to obtain employment or undertake other community engagement activities by offering an array of
qualifying activities, including training, education, caregiving, and community service to allow beneficiaries multiple ways to meet the requirements. Additionally, the
state assures that it will assess areas within the state
that experience high rates of unemployment, areas with
limited economies and/or educational opportunities, and
areas with lack of public transportation to determine
whether there should be further exemptions from the
community engagement requirements and/or additional
mitigation strategies, so that the community engagement requirements will not be impossible or unreasonably burdensome for beneficiaries to meet.
Some comments expressed concern that beneficiaries
with chronic or acute health conditions may not be able
to meet the community engagement requirements and
characterized the proposal to suspend eligibility for failure to participate in community engagement activities
as having a “potentially detrimental impact on Medicaid
beneficiaries’ access to coverage and care.” CMS acknowledged these concerns in the May 7, 2018, approval

160a
letter, and New Hampshire will exempt from the requirements those individuals who are medically frail, as
well as those individuals whom a licensed professional
has certified to be temporarily unable to participate in
community engagement activities due to illness or incapacity. Additionally, New Hampshire will provide multiple ways for beneficiaries to reactivate their coverage
or re-enroll in Medicaid, to appropriately support individuals who have experienced a suspension of eligibility
or disenrollment in regaining access to the program’s
benefits and resources. As stated above, beneficiaries
who do not meet the monthly community engagement
requirements have an opportunity to cure their noncompliance by demonstrating good cause for failing to meet
the requirement; demonstrating that they qualify for an
exemption; or making up the deficient hours for the month
that resulted in noncompliance. Beneficiaries whose
Medicaid enrollment is terminated can re-apply for coverage at any time, and any prior noncompliance with the
community engagement requirements will not be considered as part of their new eligibility determination.
Commenters also raised concerns about beneficiaries
with disabilities and beneficiaries who may not be eligible for Medicaid on the basis of disability but who may
still have issues gaining and maintaining employment or
otherwise performing qualifying activities due to their
medical or behavioral health conditions. To mitigate
these concerns, New Hampshire has exempted beneficiaries with a disability as defined by the ADA, section
504 of the Rehabilitation Act, or Section 1557 of the Patient Protection and Affordable Care Act from the community engagement requirements, who are unable to
comply with the requirements due to disability-related

161a
reasons. The state must provide reasonable modifications related to meeting community engagement requirements for beneficiaries with disabilities as defined
under the ADA, Section 504, or Section 1557, when necessary, to enable them to have an equal opportunity to
participate in, and benefit from, the program. Per the
STCs, the state must also provide reasonable modifications for protections and procedures, including but not
limited to assistance with demonstrating eligibility for
an exemption from community engagement requirements
on the basis of disability; appealing disenrollments; documenting community engagement activities and other documentation requirements; understanding notices and program rules related to community engagement requirements; navigating ADA compliant web sites as required
by 42 CFR 435.1200(f ); and other types of reasonable
modifications. The reasonable modifications must include exemptions from participation where an individual
is unable to participate for disability-related reasons,
modification in the number of hours of participation required where an individual is unable to participate for
the otherwise-required number of hours, and provision
of support services necessary to participate, where participation is possible with supports. In addition, the state
should evaluate individuals’ ability to participate and the
types of reasonable modifications and supports needed.
Commenters also characterized the requirement to obtain provider documentation for exemptions/exceptions
as excessively burdensome. Commenters had concerns
about the process involved in getting documentation of
exempted or excepted status from a provider. In particular, commenters were concerned that an individual
might have his or her eligibility suspended or be disen-

162a
rolled for failure to meet the community engagement requirements, but might need documentation from a provider so that he or she can demonstrate qualification for
an exemption or exception to regain Medicaid eligibility.
In this case, the individual would need coverage to be
able to see the provider to obtain documentation. In
order to reduce administrative burden, the state will not
require beneficiaries to begin meeting the community
engagement requirements until the first month after
that date that is 75 days after the community engagement requirements are implemented by the state. After implementation, newly eligible beneficiaries will not
be required to meet the community engagement requirements until the first month after the date that is 75
days after the beneficiary’s eligibility determination.
This 75-day period allows individuals who may require
documentation for an exemption or exception to obtain
the needed documentation before the community engagement requirements begin to apply. If an individual later fails to meet the community engagement requirements for a month, he or she will be notified and
will have coverage during the following month to obtain
provider documentation, if needed, before eligibility suspension. Individuals whose enrollment is terminated
at eligibility redetermination because their eligibility
was in a suspended status for failure to meet the community engagement requirements may reapply for Medicaid at any time, and their prior noncompliance with the
community engagement requirements will not be considered in making their new eligibility determination.
Furthermore, beneficiaries whose eligibility is suspended
or terminated may use the mechanisms in place to ap-

163a
peal their suspension or termination and may demonstrate qualification for an exemption or exception through
this process.
Some commenters noted that most Medicaid beneficiaries are already working. CMS acknowledges that many
beneficiaries are already working or attending school;
therefore, those activities are included as qualifying activities that meet the community engagement requirement and access to coverage should not be impacted for
beneficiaries who are engaging in these activities for the
required number of hours each month.
Other commenters expressed concerns that the administration of the demonstration, especially the community
engagement requirement, would be burdensome and
costly to state. Although such measures may have associated administrative costs, particularly at the initial
stage, in the long term they may help enable beneficiaries to enjoy the many personal benefits that come with
improved health outcomes and increased financial independence.
As described in the STCs, if monitoring indicates that
demonstration features are not likely to assist in promoting the objectives of Medicaid, or if evaluation data
for this demonstration indicate that demonstration features are not likely to assist in promoting the objectives
of Medicaid, CMS reserves the right to require the state
to submit a corrective action plan to CMS for approval.
Further, CMS reserves the right to withdraw waivers at
any time it determines that continuing the waivers would
no longer be in the public interest or promote the objectives of Medicaid.

164a
Comments on Coverage Loss
Some commenters expressed concern that the Granite
Advantage demonstration will lead to coverage losses.
But the demonstration will provide coverage to individuals that the state is not required to cover. Any potential loss of coverage that may result from a demonstration is properly considered in the context of a state’s
substantial discretion to eliminate non-mandatory benefits or to eliminate coverage for existing (but nonmandatory) populations, such as (in light of the Supreme
Court’s ruling in NFIB v. Sebelius) the ACA expansion
population. As of October 2018, more than 51,000 individuals received medical assistance under the New
Hampshire state plan as a result of New Hampshire’s
decision to participate in the ACA eligibility expansion.
New Hampshire’s ACA expansion population includes
not only childless adults but also many parents of dependent children, who are not eligible for coverage under the New Hampshire state plan unless their household income is equal to or less than 67 percent of the
federal poverty level. Under state law, however, if this
demonstration were not approved, the State Commissioner of Health and Human Services would be required
to report this to the State Legislature and Governor,
who could then respond by seeking to scale back or even
end coverage for the ACA expansion population, or other
optional populations and services currently covered under the state plan. Thus, the ACA adult expansion
could be eliminated if the state is unable to implement
the demonstration project.
Moreover, conditioning eligibility for Medicaid coverage on compliance with certain measures is an im-

165a
portant element of the state’s efforts, through experimentation, to improve beneficiaries’ health and independence and enhance programmatic sustainability. To
create an effective incentive for beneficiaries to take
measures that promote health and independence, it may
be necessary for states to attach penalties to failure to
take those measures, including with conditions designed
to promote health and financial independence. This
may mean that beneficiaries who fail to comply will lose
Medicaid coverage, at least temporarily. However, the
incentives included in this demonstration are not designed to encourage this result; rather, they are intended
to incorporate achievable conditions of continued coverage. And any loss of coverage as the result of noncompliance must be weighed against the benefits New Hampshire hopes to achieve through the demonstration project, including both the improved health and independence of the beneficiaries who comply and the state’s enhanced ability to stretch its Medicaid resources and
maintain the fiscal sustainability of the program.
It would be counterproductive to deny states the flexibility they need to implement demonstration projects
designed to examine innovative ways to incentivize beneficiaries to engage in desired behaviors that improve
outcomes and lower healthcare costs, as well as innovative ways to stretch limited state resources, given that
states have the prerogative to terminate coverage for nonmandatory services and populations. Because a demonstration project, by its nature, is designed to test innovations, it is not possible to know in advance the actual
impact that its policies will have on enrollment.
Some comments argued that a demonstration cannot advance the Medicaid program’s objectives if the project

166a
is expected to reduce Medicaid enrollment or Medicaid
spending. We recognize that some individuals may
choose not to comply with the conditions of eligibility imposed by the demonstration, and therefore may lose coverage, as may occur when individuals fail to comply with
other requirements like participating in the redetermination process. But the goal of these policies is to incentivize compliance, not reduce coverage. Indeed,
CMS has incorporated safeguards into the STCs intended to minimize coverage loss due to noncompliance,
and CMS is committed to partnering with the state to
ensure that the demonstration advances the objectives
of Medicaid. Furthermore, we anticipate that some
beneficiaries may dis-enroll from Medicaid if they obtain employer-sponsored or other commercial coverage
and no longer qualify for the program. Finally, we
note that in some cases, reductions in Medicaid costs can
further the Medicaid program’s objectives, such as when
the reductions stem from reduced need for the safety
net or reduced costs associated with healthier, more independent beneficiaries. These outcomes promote the
best interests of the beneficiaries whose health and independence are improved, while also helping states
stretch limited Medicaid resources and ensure the longterm fiscal sustainability of the states’ Medicaid programs.
As noted above, section 1115 of the Act explicitly contemplates that demonstrations may “result in an impact
on eligibility”; furthermore, the amended demonstration as a whole is expected to provide greater access to
coverage for low-income individuals than would be available absent the demonstration, if the state were unable
to continue its Medicaid expansion program. Other comments predicted that Granite Advantage will fail to

167a
achieve its intended effects. For instance, some comments argued that beneficiaries subject to the community engagement requirements will be unable to comply.
To some extent, these comments reflect a misunderstanding of the nature of the community engagement requirements, which some of the comments described as a
work requirement. In fact, the community engagement requirements are designed to help beneficiaries
achieve success, and CMS and New Hampshire have
made every effort to devise a requirement that beneficiaries should be able to meet. For example, the community engagement requirements may be satisfied
through an array of activities, including education, job
skills training, job search activities, and community service.
More generally, these comments reflect a misunderstanding of the nature of a demonstration project. It is
not necessary for a state to show in advance that a proposed demonstration will in fact achieve particular outcomes; the purpose of a demonstration is to test hypotheses and develop data that may inform future decisionmaking. As HHS previously explained, demonstrations
can “influence policy making at the [s]tate and Federal
level, by testing new approaches that can be models for
programmatic changes nationwide or in other [s]tates.”
77 Fed. Reg. at 11680. For example, the Temporary
Assistance for Needy Families (TANF) work requirements that Congress enacted in 1996 were informed by
prior demonstration projects. See, e.g., Aguayo v.
Richardson, 473 F.2d 1090 (2d Cir. 1973) (upholding a
section 1115 demonstration project that imposed employment requirements as conditions of AFDC eligibility). Regardless of the degree to which New Hampshire’s demonstration project succeeds in achieving the

168a
desired results, the information it yields will provide
policymakers real-world data on the efficacy of such policies. As long as the Secretary determines that the
demonstration is likely to assist in promoting Medicaid
objectives, he is authorized to approve the demonstration notwithstanding that its ultimate outcomes cannot
be known in advance.
Consistent with state law regarding coverage of the
ACA expansion population, this demonstration is part of
the state’s plan for fiscal sustainability of its Medicaid
program. In analyzing whether approval of the demonstration promotes the objectives of Medicaid, it must be
understood that the alternative to coverage under this
demonstration design ultimately could be reduced coverage or no coverage in the case of the ACA expansion
population. This demonstration is also designed to improve health outcomes and financial independence, and
reduce dependency on public assistance, by giving beneficiaries the choice either to engage in community engagement activities or to stop participating in Medicaid.
Comments on Waiver of Retroactive Eligibility
Many commenters expressed concern that the waiver of
retroactive eligibility could result in unmet health needs
and decreased financial security for beneficiaries, as
well as increased uncompensated care costs for providers. CMS has taken these comments into consideration as part of its approval and will require the state to
carefully evaluate how the waiver of retroactive eligibility is affecting beneficiaries and providers. CMS will
not permit the state to waive retroactive eligibility for
beneficiaries who, at any time during the otherwise applicable 3-month period of retroactive eligibility, were
pregnant women (including women who are 60 days or

169a
less postpartum), infants under age 1, children under
age 19, parents or caretaker relatives, or as individuals
eligible in aged, blind, or disabled eligibility groups (including those who are applying for a long-term care determination).
Commenters also asserted that there is no experimental
purpose associated with the waiver of retroactive eligibility. However, as indicated in the state’s application,
this demonstration is designed to test whether eliminating retroactive coverage will encourage beneficiaries to
obtain and maintain health coverage, even when they
are healthy, without increasing the rate of churn in and
out of the program. This feature of the amendment is
intended to increase continuity of care by reducing gaps
in coverage when beneficiaries churn on and off of Medicaid or sign up for Medicaid only when sick, and to increase the uptake of preventive services by continuously
covered beneficiaries, with the ultimate objective of improving beneficiary health.
Commenters also expressed concern that waiving retroactive eligibility does not promote the objectives of the
Medicaid program. As discussed above, the waiver of
retroactive eligibility is intended to incentivize beneficiaries to maintain coverage even when well, promote
continuity of coverage, and encourage the receipt of preventive care, with the overall goal of improving health
outcomes for beneficiaries. To increase awareness of
this waiver authority and help ensure that it promotes
the objectives of the Medicaid program as intended,
New Hampshire will provide outreach and education to
the public and to providers about how to apply for and
receive Medicaid coverage. Per STC 28, no later than
90 days after approval of the demonstration, the state is

170a
required to submit an implementation plan that includes
a discussion of topics such as outreach, application assistance, and notices as they relate to the waiver of retroactive eligibility. The state will also evaluate the financial impacts of the waiver on beneficiaries and providers.
In evaluating the impact of a waiver of retroactive coverage, it is important to keep in mind that the new adult
group members affected by this waiver are eligible for
coverage now, and should have an incentive to obtain it,
rather than waiting until they get sick to apply and having their bills retroactively covered. This entire demonstration design also will assist in making New Hampshire’s Medicaid program fiscally sustainable over time,
better ensuring continued coverage of individuals and
services for which coverage is optional under Medicaid.
Other Information

CMS’s approval of this demonstration is conditioned
upon compliance with the enclosed list of waiver and expenditure authorities and the STCs defining the nature,
character and extent of anticipated federal involvement
in the project. The award is subject to our receiving
your written acknowledgement of the award and acceptance of these STCs within 30 days of the date of this
letter.
Your project officer for this demonstration is Mr. Emmett Ruff. He is available to answer any questions concerning your section 1115 demonstration. Mr. Ruff ’s
contact information is as follows:
Centers for Medicare & Medicaid Services
Center for Medicaid and CHIP Services
Mail Stop: S2-25-26

171a
7500 Security Boulevard
Baltimore, MD 21244-1850
Email: emmett.ruff@cms.hhs.gov
Official communications regarding program matters
should be sent simultaneously to Mr. Ruff and Mr. Richard McGreal, Associate Regional Administrator (ARA),
in our Boston Regional Office. Mr. McGreal’s contact
information is as follows:
Mr. Richard McGreal
Associate Regional Administrator
Centers for Medicare & Medicaid Services
Division of Medicaid and Children’s Health
Operations
15 Sudbury Street, JFK Federal Building
Boston, Massachusetts 02203
If you have questions regarding this approval, please
contact Ms. Judith Cash, Director, State Demonstrations
Group, Center for Medicaid and CHIP Services, at (410)
786-9686.
Thank you for all your work with us, as well as stakeholders in New Hampshire, over the past months to reach
approval.
Sincerely,
/s/
Mary C. Mayhew
Deputy Administrator and Director
Enclosures
cc: Richard McGreal, Associate Regional Administrator, CMS Boston Regional Office

